No.

In the Supreme Court of the United States
MELISSA ELIZABETH LUCIO,
Petitioner,
v.
BOBBY LUMPKIN, Director, Texas
Department of Criminal Justice, Correctional Institutions Division,
Respondent.
On Petition for Writ of Certiorari
To the United States Court of Appeals for the Fifth Circuit
PETITIONER’S APPENDIX
A. RICHARD ELLIS*
Attorney at Law
75 Magee Avenue
Mill Valley, CA 94941
(415) 389-6771
a.r.ellis@att.net
*Counsel of Record

MAUREEN FRANCO
Federal Public Defender
Western District Of Texas
TIVON SCHARDL
Chief, Capital Habeas Unit
TIMOTHY GUMKOWSKI
Assistant Federal Public Defender
919 Congress Ave., Suite 950
Austin, TX 78701

INDEX TO APPENDICES
APPENDIX

DESCRIPTION

PAGE

A

Opinion of the U.S. Court of Appeals for the Fifth Circuit denying habeas relief on rehearing en banc
(Feb. 9, 2021)

1a-68a

B

Order of the Fifth Circuit granting rehearing en banc
(Jan. 20, 2020)

69a

C

Opinion of the Fifth Circuit granting habeas relief
(July 29, 2019)

D

Opinion of the Fifth Circuit granting certificate of appealability in part (Oct. 17, 2018)

90a-105a

E

Memorandum and order of the United States District
Court denying habeas relief (Sept. 28, 2016)

106a-170a

F

Order of the Texas Court of Criminal Appeals denying
state habeas relief (Jan. 9, 2013)

171a-172a

G

Findings of fact and conclusions of law, 138th Judicial
District Court of Cameron County, Texas
(June 29, 2012)

173a-189a

70a-89a

Appendix A

451

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

an expert from the coroner’s office that
stored the rape kit were not called to
testify before the grand jury as well, which
is commonly done in other cases. Further,
defense counsel was a relative of D’Aquilla,
giving support to the allegation that the
district attorney conspired with Boeker to
thwart investigation and prosecution.
Louisiana has long held that ‘‘public officials—and prosecutors in particular—are
held to a higher standard than ordinary
attorneys.’’ In re Griffing, 17-0874 (La.
10/18/17), 236 So.3d 1213, 1221–22 (citing
In re Bankston, 01-2780 (La. 3/8/02), 810
So.2d 1113, 1117–18). ‘‘Because the prosecutor is given such great power and discretion, he is also charged with a high
ethical standard.’’ In re Toups, 00-0634
(La. 11/28/00), 773 So.2d 709, 715–16. As
‘‘an administrator of justice, a zealous advocate, and an officer of the court,’’ the
prosecutor has the primary duty ‘‘to seek
justice.’’ ABA Standards for Criminal Justice 3-1.2 (a)–(b) (4th ed. 2017). A prosecutor ‘‘should act with diligence and promptness to investigate, litigate, and dispose of
criminal charges, consistent with the interests of justice and with due regard for
fairness, accuracy, and rights of the defendant, victims, and witnesses.’’ Id. at 31.9(a) (emphasis added). In fact, the 20th
Judicial
District
Attorney’s
Office
(D’Aquilla’s office) recognizes this responsibility to victims, as its mission statement
prioritizes ‘‘provid[ing] comfort and restitution to those victims who have been
harmed by criminal offenders.’’2 Further,
prosecutors ‘‘should not use other improper considerations, such as TTT personal
considerations, in exercising prosecutorial
discretion,’’ and ‘‘should not permit [their]
professional judgment or obligations to be
affected by [their] personal TTT relation2.

ships.’’ ABA Standards for Criminal Justice 3-1.6(a), 3-1.7(f).
Again, if Lefebure’s allegations regarding the district attorney’s conduct are true,
then his handling of the matter was substandard and less than ethical. And by
(allegedly) engaging in this course of conduct, D’Aquilla, who occupies a position of
public trust, may have caused ‘‘inestimable
harm to the public’s perception of the legal
profession.’’ Bankston, 810 So.2d at 1117–
18.

,
Melissa Elizabeth LUCIO, Petitioner—
Appellant,
v.
Bobby LUMPKIN, Director, Texas Department of Criminal Justice, Correctional Institutions Division, Respondent—Appellee.
No. 16-70027
United States Court of Appeals,
Fifth Circuit.
FILED February 9, 2021
Background: Following affirmance on direct appeal of petitioner’s conviction for
capital murder and denial of state postconviction relief, 2013 WL 105179, petitioner
sought federal writ of habeas corpus. The
United States District Court for the Southern District of Texas, Hilda G. Tagle, Senior District Judge, denied petition. The
Court of Appeals, 783 Fed.Appx. 313, reversed and remanded.

20th Judicial District Attorney’s Office,
http://www.felicianasda.org/ (last visited Jan.

27, 2021).

1a

452

987 FEDERAL REPORTER, 3d SERIES

Holdings: On rehearing en banc, the
Court of Appeals, Oldham, Circuit Judge,
held that:

Southwick, Circuit Judge, filed concurring
opinion, which Costa and Willett, Circuit
Judges, joined.

(1) petitioner’s claims were sufficiently exhausted in state court;

Higginbotham, Circuit Judge, filed opinion
joining dissent of Haynes, Circuit Judge.

(2) petitioner failed to demonstrate that
the state court’s exclusion of expert
testimony regarding her psychological
functioning and her truthfulness during interrogation was contrary to
clearly established law;

Elrod, Circuit Judge, filed dissenting opinion, which Higginson, Circuit Judge,
joined.

(3) Texas Court of Criminal Appeals did
not unreasonably apply Supreme
Court’s decision in Crane v. Kentucky,
106 S.Ct. 2142;
(4) state habeas court’s adjudication of petitioner’s claim that she was denied the
right to present a complete defense
was not contrary to Supreme Court’s
decision in Chambers v. Mississippi, 93
S.Ct. 1038;
(5) state habeas court’s denial of petitioner’s claim that she was denied the right
to present a complete defense was not
an unreasonable application of Supreme Court’s decision in Chambers v.
Mississippi, 93 S.Ct. 1038;
(6) state habeas court’s denial of petitioner’s claim that she was denied the right
to present a complete defense by presenting expert testimony regarding her
psychological functioning was not
based on an unreasonable determination of the facts; and
(7) state habeas court’s denial of petitioner’s claim that she was denied the right
to present a complete defense by proving through expert testimony that she
was unlikely to have engaged in ongoing abuse of her daughter was not
based on an unreasonable determination of the facts.
Affirmed.

Haynes, Circuit Judge, filed dissenting
opinion, which Higginbotham, Stewart,
Dennis, Elrod, Graves, and Higginson, Circuit Judges, joined.
1. Criminal Law O670, 1036.1(9)
The primary purpose of an offer of
proof is to enable an appellate court to
determine whether the exclusion of testimony was erroneous and harmful; a secondary purpose is to allow the trial court
to reconsider a ruling in light of the actual
evidence.
2. Habeas Corpus O319.1
The exhaustion doctrine, as applied to
federal habeas petitions, is designed to
give the state courts a full and fair opportunity to resolve federal constitutional
claims before those claims are presented
to the federal courts.
28 U.S.C.A.
§ 2254(b)(1).
3. Habeas Corpus O319.1
Because state courts are obligated to
enforce federal law, they must be given the
first chance—after a state prisoner fully
explains the federal claim—to correct any
error. 28 U.S.C.A. § 2254(b)(1).
4. Habeas Corpus O382
The exhaustion requirement provides
that a state prisoner who does not fairly
present a claim to a state habeas court—
specifying both the legal and factual basis
for the claim—may not raise that claim in
a subsequent federal proceeding. 28
U.S.C.A. § 2254(b)(1).

2a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

5. Habeas Corpus O766
On a federal habeas petition, for each
claim that a state prisoner fully and fairly
presented to the state courts, there is a
rebuttable presumption that the state
courts adjudicated it on the merits.
6. Habeas Corpus O765.1
For each claim governed by Antiterrorism and Effective Death Penalty Act’s
relitigation bar, the federal court must
identify the relevant state-court decision.
28 U.S.C.A. § 2254(d).
7. Habeas Corpus O765.1
Under the Antiterrorism and Effective Death Penalty Act, federal courts
must train their attention on the last related state-court decision that provides a relevant rationale to a particular claim; only
then can it consider whether the state
court’s decision was contrary to or an unreasonable application of clearly established Supreme Court precedent. 28
U.S.C.A. § 2254(d).
8. Habeas Corpus O363, 364
Petitioner, who was convicted of capital murder in state court, raised, and state
courts adjudicated, petitioner’s due process
claim based on exclusion of expert testimony regarding the voluntariness of her custodial statements and her claim that she
was denied the right to present a complete
defense by proving through expert testimony that she was unlikely to have engaged in ongoing abuse of her daughter,
and thus such claims were sufficiently exhausted for federal habeas court to consider them under Antiterrorism and Effective
Death Penalty Act; although neither claim
was specifically presented to state trial
court, Texas Court of Criminal Appeals
adjudicated and denied petitioner’s due
process claim on direct appeal, and state
habeas court adjudicated and denied her
claim that she was denied the right to

453

present a complete defense. U.S. Const.
Amend. 14; 28 U.S.C.A. § 2254(d).
9. Habeas Corpus O450.1
To overcome Antiterrorism and Effective Death Penalty Act’s relitigation bar, a
state prisoner must shoehorn her claim
into one of its narrow exceptions; the prisoner can do so only if the state court’s
decision was so obviously wrong as to be
beyond any possibility for fairminded disagreement. 28 U.S.C.A. § 2254(d).
10. Habeas Corpus O490(5)
Petitioner failed to demonstrate that
the state court’s exclusion of expert testimony in her capital murder trial regarding
her psychological functioning and her
truthfulness during interrogation was contrary to the law clearly established in
Crane v. Kentucky, 106 S.Ct. 2142, which
struck down a state court’s categorical exclusion of evidence related to the credibility of a confession after finding the confession voluntary, and thus petitioner was not
entitled to federal habeas relief on such
basis; petitioner conceded that, at best, her
claim was strongly supported by Crane,
but that no case was on all fours with her
claim. 28 U.S.C.A. § 2254(d)(1).
11. Habeas Corpus O452
A state-court decision is contrary to
clearly established federal law, as required
for habeas relief under Antiterrorism and
Effective Death Penalty Act, only if it
arrives at a conclusion opposite to that
reached by the Supreme Court on a question of law or if it resolves a case differently than the Supreme Court has on a set of
materially indistinguishable facts.
28
U.S.C.A. § 2254(d)(1).
12. Habeas Corpus O490(5)
Texas Court of Criminal Appeals did
not unreasonably apply Supreme Court’s
decision in Crane v. Kentucky, 106 S.Ct.
2142, which struck down a state court’s

3a

454

987 FEDERAL REPORTER, 3d SERIES

categorical exclusion of evidence related
to the credibility of a confession after
finding the confession voluntary, in excluding expert testimony in petitioner’s
capital murder trial regarding her psychological functioning and her truthfulness
during interrogation, where state court
did not categorically prohibit evidence undermining her inculpatory statements, but
permitted petitioner to present testimony
other than the proffered expert testimony
regarding the validity of her inculpatory
statements. 28 U.S.C.A. § 2254(d)(1).
13. Habeas Corpus O450.1
To meet the ‘‘unreasonable application’’ of federal law exception to the Antiterrorism and Effective Death Penalty
Act’s relitigation bar, a habeas petitioner
must do much more than establish that the
state court erred; rather, the relitigation
bar forecloses relief unless the prisoner
can show the state court was so wrong that
the error was well understood and comprehended in existing law beyond any possibility for fairminded disagreement. 28
U.S.C.A. § 2254(d)(1).
14. Habeas Corpus O450.1
Antiterrorism and Effective Death
Penalty Act provides a remedy for instances in which a state court unreasonably
applies the Supreme Court’s precedent; it
does not require state courts to extend
that precedent or license federal courts to
treat the failure to do so as error. 28
U.S.C.A. § 2254(d)(1).
15. Habeas Corpus O753
The record under review on a habeas
claim under the Antiterrorism and Effective Death Penalty Act is limited to the
record in existence at the time the state
court adjudicated the claim on the merits.
28 U.S.C.A. § 2254(d).

16. Habeas Corpus O489.1
Challenges to state courts’ application
of state-law evidentiary rules form no part
of a federal court’s habeas review of a
state conviction.
17. Habeas Corpus O383
Flagging, in an argument to a state
habeas court, a state-court case that in
turn cited the U.S. Constitution is not
sufficient to exhaust a federal claim under
Antiterrorism and Effective Death Penalty
Act. 28 U.S.C.A. § 2254(b)(1).
18. Habeas Corpus O490(5)
State habeas court’s adjudication of
petitioner’s claim that she was denied the
right to present a complete defense by
proving through expert testimony that she
was unlikely to have engaged in ongoing
abuse of her daughter was not contrary to
Supreme Court’s decision in Chambers v.
Mississippi, 93 S.Ct. 1038, which struck
down an idiosyncratic state-law rule preventing a defendant from impeaching his
own witness, and thus petitioner was not
entitled to federal habeas relief on such
basis; state trial court excluded expert testimony pursuant to ordinary rules of evidence concerning admissibility of expert
opinions, not pursuant to some idiosyncratic, arbitrary, archaic, and indefensible rule.
28 U.S.C.A. § 2254(d)(1).
19. Habeas Corpus O490(5)
State habeas court’s denial of petitioner’s claim that she was denied the right to
present a complete defense in her capital
murder trial by proving through expert
testimony that she was unlikely to have
engaged in ongoing abuse of her daughter
was not an unreasonable application of Supreme Court’s decision in Chambers v.
Mississippi, 93 S.Ct. 1038, which struck
down an idiosyncratic state-law rule preventing a defendant from impeaching his
own witness, and thus petitioner was not
entitled to federal habeas relief on such

4a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

basis; Supreme Court never applied its
complete-defense cases to discretionary evidentiary decisions under rules that were
themselves constitution, such as the rules
involving the admissibility of expert opinions. 28 U.S.C.A. § 2254(d)(1).
20. Habeas Corpus O767
While the general standard for evaluating a state court’s findings of fact on
federal habeas review is reasonableness,
the Antiterrorism and Effective Death
Penalty Act requires a state prisoner to
show that the state court’s specific factual
determination in her case is unreasonable
by clear and convincing evidence. 28
U.S.C.A. § 2254(e)(1).
21. Habeas Corpus O767
A federal habeas court cannot reject a
factual finding merely because it would
have made a different one. 28 U.S.C.A.
§ 2254(e)(1).
22. Courts O509.2
A federal court lacks authority to rule
that a state court incorrectly interpreted
its own law.
23. Habeas Corpus O453
It is not the function of a federal
appellate court in a habeas proceeding to
review a state’s interpretation of its own
law.
24. Habeas Corpus O490(5)
State habeas court’s denial of petitioner’s claim that she was denied the right to
present a complete defense in her capital
murder trial by presenting expert testimony regarding her psychological functioning
was not based on an unreasonable determination of the facts in light of the evidence presented at trial, and thus petitioner was not entitled to federal habeas relief
on such basis; state habeas court determined that expert’s opinion had no relevance to petitioner’s guilt or innocence,

455

and petitioner failed to identify any factual
problems with such decision. 28 U.S.C.A.
§ 2254(d)(2).
25. Habeas Corpus O490(5)
State habeas court’s denial of petitioner’s claim that she was denied the right to
present a complete defense in her capital
murder trial by proving through expert
testimony that she was unlikely to have
engaged in ongoing abuse of her daughter
was not based on an unreasonable determination of the facts at trial, and thus
petitioner was not entitled to federal habeas relief on such basis; petitioner offered
testimony of expert on why petitioner
would have given police incorrect information, which was based on petitioner’s body
language during questioning, her patterns
of behavior, and her history with child
protection services, but expert admitted
that she was not a specialist in detecting
human thought processes through physical
conduct, which was a reasonable basis for
state court to exclude her proffered testimony. 28 U.S.C.A. § 2254(d)(2).
26. Federal Courts O3534
A party who fails to make an argument before either the district court or the
original panel waives it for purposes of en
banc consideration.
27. Habeas Corpus O385
Where the state court offers an explanation for its decision underling a federal
habeas claim, it need not cite or even be
aware of federal cases under Antiterrorism
and Effective Death Penalty Act. 28
U.S.C.A. § 2254(d).
28. Habeas Corpus O452
Antiterrorism and Effective Death
Penalty Act’s ‘‘contrary to’’ prong can be
satisfied through imposition of a contradictory standard or a diametrically different
conclusion on materially indistinguishable
facts. 28 U.S.C.A. § 2254(d).

5a

456

987 FEDERAL REPORTER, 3d SERIES

29. Habeas Corpus O452
Under Antiterrorism and Effective
Death Penalty Act, a federal court’s task is
not to determine whether Supreme Court
precedent possibly permits a petitioner to
argue what she argued, but whether that
precedent positively precludes the state
court from holding what it held; the absence of precedent commands the denial of
relief to a state prisoner, not the grant of
it. 28 U.S.C.A. § 2254(d).
30. Courts O26(2)
Court decisions are ‘‘discretionary’’
when they involve an exercise of judgment
and choice.
See publication Words and Phrases
for other judicial constructions and
definitions.

Appeal from the United States District
Court for the Southern District of Texas,
USDC No. 1:13-CV-125, Hilda G. Tagle,
U.S. District Judge
Allen Richard Ellis, Law Offices of A.
Richard Ellis, Mill Valley, CA, Timothy
Gumkowski, Tivon Schardl, Supervisory
Attorney, Federal Public Defender, TXW,
Capital Habeas Unit, Austin, TX, for Petitioner - Appellant.
Ari Cuenin, Matthew Hamilton Frederick, Deputy Solicitor General, Office of
the Attorney General, Office of the Solicitor General, Austin, TX, Jennifer Wren
Morris, Office of the Attorney General,
Financial Litigation & Charitable Trusts
Division, Austin, TX, for Respondent Appellee.
Before OWEN, Chief Judge, and
HIGGINBOTHAM, JONES, SMITH,
STEWART, DENNIS, ELROD,
SOUTHWICK, HAYNES, GRAVES,
HIGGINSON, COSTA, WILLETT, HO,
DUNCAN, ENGELHARDT, and
OLDHAM, Circuit Judges.*

ANDREW S. OLDHAM, Circuit Judge,
announced the judgment of the court and
delivered an opinion joined by OWEN,
Chief Judge, and JONES, SMITH, HO,
DUNCAN, and ENGELHARDT, Circuit
Judges:
A Texas jury convicted Melissa Lucio of
capital murder for beating to death her
two-year-old daughter. The state courts
affirmed her conviction and sentence on
direct appeal and denied her petition for
postconviction relief. Now she seeks federal habeas relief. Lucio argues that the
state trial court denied her constitutional
right to present a complete defense by
excluding two expert witnesses from testifying at the guilt phase of her trial. The
federal district court held that she cannot
surmount the Antiterrorism and Effective
Death Penalty Act of 1996 (‘‘AEDPA’’).
Ten members of the en banc court agree
with that judgment. We affirm.
I.
We begin with the tragic facts of this
case. Then we turn to Lucio’s proceedings
in state and federal court. This case turns
on the ever-evolving arguments that Lucio
offered at trial, on direct appeal, in state
habeas, and in federal habeas. So we recount the procedural history in detail.
A.
On the night of February 17, 2007, paramedics responded to a call at the home
shared by Lucio and her husband Robert
Alvarez. ROA.14936–37, 14981–82. The call
concerned the couple’s young daughter,
Mariah. ROA.14936. When the EMTs arrived, they found Mariah on the livingroom floor. ROA.14922–23, 14936. No one
was near her. ROA.14922. Her body was

* This case was submitted before Judge Wilson
was confirmed to our court. Judge Wilson did

not take part in the consideration or decision
of this case.

6a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

covered with bruises in various stages of
healing, her arm had been broken for several weeks, she had a bite mark on her
back, and some of her hair had been pulled
out. ROA.14813–16, 14937, 15051–54,
15066. She was not breathing. ROA.14923.
She had no pulse. ROA.14923.
The EMTs tried to resuscitate Mariah
and rushed her to the hospital. ROA.
14924–28. In the emergency room, a doctor
also tried to revive Mariah. ROA.14813.
Those efforts were unsuccessful. ROA.
14813. Mariah was pronounced dead. ROA.
14813. She was two years old. ROA.14922.
On the night of Mariah’s death, Lucio
told the EMTs and the police that Mariah
fell down the stairs. ROA.8104–05, 14924.
Later that night, during a videotaped interview with investigators, Lucio explained
that she had caused the bruises on Mariah’s body by spanking Mariah ‘‘real hard’’
and by pinching her vagina. ROA.8224–25.
Lucio said ‘‘nobody else would hit her.’’
ROA.8189. As for the bitemark on Mariah,
Lucio explained that two weeks before Mariah’s death, while Lucio combed Mariah’s
hair, Lucio grew frustrated with her other
‘‘kids jumping around.’’ ROA.8223. Although Mariah had done nothing wrong,
Lucio ‘‘placed [her] mouth over [Mariah’s]
back and bit her.’’ ROA.8222. During the
interrogation, Lucio denied ever punching
Mariah, ROA.8227, causing the scratches
on Mariah’s face, ROA.8228, hitting Mariah on the head, or killing Mariah. ROA.
8200. But she also told investigators, ‘‘I’m
responsible for it.’’ ROA.5395.
Following the interrogation, Lucio made
a phone call. A police officer who had been
present with Lucio during the phone call
testified that Lucio had told her sister,
‘‘Don’t blame Robert. This was me. I did it.
So don’t blame Robert.’’ ROA.14990–91.
The State of Texas charged Lucio with
capital murder. At the trial, Lucio’s sister

457

took the stand and testified about the
phone call. She denied that Lucio said,
‘‘This was me. I did it.’’ ROA.15203. Rather, Lucio’s sister said that they only discussed spanking, and that Lucio said, ‘‘I
would spank the kids.’’ ROA.15203. Lucio’s
sister also denied that Lucio spanked Mariah. In the sister’s account, Lucio ‘‘never
disciplined her children.’’ ROA.15200.
The jury also heard testimony concerning Mariah’s injuries. The forensic pathologist who performed Mariah’s autopsy testified that her injuries were not the result of
a fall: ‘‘[T]his is a child that’s been beaten.
This is a battered child.’’ ROA.15070–71.
In the pathologist’s expert opinion, Mariah
died from blunt-force trauma to the head.
ROA.15096. At trial, the emergency-room
doctor who tried to revive Mariah testified
that this was the ‘‘absolute worst’’ case of
child abuse he’d seen in his thirty-year
career. ROA.14821. To rebut this evidence,
Lucio’s medical expert opined that Mariah
was physically abused. But he also stated
that her death could’ve been caused by
either a fall or being ‘‘[h]it by a strong
force.’’ ROA.15194.
[1] The defense sought to call two additional expert witnesses, Dr. John Pinkerman and Ms. Norma Villanueva. The defense offered Pinkerman, a psychologist, to
testify about Lucio’s personal background
and ‘‘psychological functioning.’’ ROA.
15301. The trial court excluded it on the
ground that such evidence is relevant only
at the sentencing phase of a capital trial.
See TEX. CODE CRIM. PROC. art. 37.071(e)(1)
(tasking the jury, only after finding the
defendant guilty, with considering ‘‘the defendant’s character and background,’’ ‘‘the
personal moral culpability of the defendant,’’ and ‘‘mitigating’’ evidence). So to
preserve the issue for appellate review,
defense counsel took Pinkerman’s testimo-

7a

458

987 FEDERAL REPORTER, 3d SERIES

ny for an offer of proof.1 Here is the
entirety of what Pinkerman offered to
prove in the state trial court:
On the basis of my review of information, consultation with additional
experts, and the evaluation that I
have done with the defendant Mrs.
Lucio, I was going to testify about
the characteristics and makeup of her
psychological functioning. I was also
going to address how her demeanor,
both immediately after the incident
and during the interrogation, may be
understood by understanding and appreciating the psychological elements
and previous history and background
that she has lived through. I was also
going to address the notion of how
difficult it might have been for her to
step into some of the treatment, even
though it was minimally offered. And
those are the highlights.

ROA.15301. Pinkerman did not proffer any
opinions on the credibility of Lucio’s statements during her interrogation. As Pinkerman acknowledged in a post-trial affidavit
prepared for Lucio’s state habeas proceeding, that issue was ‘‘never raised at the
pretrial [sic] or trial.’’2 ROA.8975.
The defense also offered the testimony
of Ms. Villanueva, a licensed clinical social
worker, on ‘‘why [Lucio] TTT would have
given police officer[s] information in [her]
statement that was not correct.’’ ROA.
4691. The trial court conducted a Daubert
hearing.3 See TEX. R. EVID. 702. During it,
Villanueva said her expertise derived from
‘‘clinical training and clinical experience,
TTT a combination of knowing life span
development theories, clinical theories[,]
and human behavior social environment
interaction theories,’’ ROA.4695, as well as
training in deciphering body language
from ‘‘clinical sources in [her] master’s degree, [and] continuing education courses,’’

1.

‘‘The primary purpose of an offer of proof is
to enable an appellate court to determine
whether the exclusion was erroneous and
harmful.’’ Mays v. State, 285 S.W.3d 884, 890
(Tex. Crim. App. 2009) (quotation omitted). A
secondary purpose is to allow the trial court
‘‘to reconsider [a] ruling in light of the actual
evidence.’’ Ibid. (quotation omitted).

that an offer of proof must contain ‘‘substance’’ that ‘‘rises to the level contemplated
in our Rules of Evidence and this court’s
precedent’’ in order to preserve an issue for
appellate review); ibid. (‘‘[T]his sort of summary, in the most general and cursory terms,
without any of the meat of the actual evidence, will not suffice to preserve error.’’).

2.

Though defense counsel initially suggested
Pinkerman might testify that ‘‘as a battered
woman, [Lucio] takes blame for everything
that goes on in the family,’’ ROA.15293, Pinkerman’s testimony in the offer of proof included no such opinion. Moreover, Pinkerman’s
expert report—authored two days before he
made his offer of proof—says nothing about
battered woman syndrome, nor does it say
that Lucio takes the blame for anything. See
infra Part III.B.3. The Texas Court of Criminal Appeals thus held that no such proffer
was preserved in the trial court. See Lucio v.
State, 351 S.W.3d 878, 902 (Tex. Crim. App.
2011) (‘‘Therefore, appellant’s claim on appeal as to what Pinkerman’s testimony would
have been does not comport with Pinkerman’s proffered testimony at trial. Nor does it
comport with what the trial attorney claimed
that he was offering it for.’’ (citation omitted)); cf. Mays, 285 S.W.3d at 891 (holding

3.

8a

The term ‘‘Daubert hearing’’ is a shorthand
for the inquiry that federal district courts conduct before admitting expert testimony under
the federal rules of evidence. See Daubert v.
Merrell Dow Pharm., Inc., 509 U.S. 579, 589,
113 S.Ct. 2786, 125 L.Ed.2d 469 (1993).
While the Supreme Court’s decision in Daubert applies only to federal proceedings, the
Texas Court of Criminal Appeals has described the inquiry under the Texas Rules of
Evidence as ‘‘virtually identical’’ to the standard set out in Daubert. Hartman v. State, 946
S.W.2d 60, 62 (Tex. Crim. App. 1997) (en
banc); accord Hernandez v. State, 116 S.W.3d
26, 29 (Tex. Crim. App. 2003) (en banc) (per
curiam); Coastal Tankships, U.S.A., Inc. v.
Anderson, 87 S.W.3d 591, 598–600 (Tex.
App.—Houston [1st Dist.] 2002, pet. denied).

459

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

ROA.4697. On the basis of that experience,
Villanueva offered to testify as follows:
I was going to testify about three separate issues. The first issue was about
patterns of behavior with Mrs. Lucio
which strongly influenced her behavior
during that videotaped statement process with the investigators that night.
TTT I was also going to testify that the
patterns of behavior as seen in the Child
Protective Services records, the patterns
in her family, how that influenced her
decision making and how she felt with
the different investigators, male and female, and also how she makes her life
decisions. It influenced her behavior in
that—how she felt with the different
investigators male and female and how
she made her decisions in answering the
questions during that process. And lastly, looking at her CPS history, how—
and also her social history, how she
deals with different people in levels of
authority, and also how that influenced
her body language, and how body language is interpreted in different ways if
you do not have her history of behaviours [sic] or patterns of behavior or her
social history.
ROA.4706–07. Villanueva emphasized that
she intended to offer an opinion about
what Lucio was thinking during the interrogation and whether Lucio was telling the
truth based on Lucio’s body language.
ROA.4695–96.
The state trial court found that a social
worker was unqualified to testify about
body language, unlike, say, ‘‘a psychologist
TTT that has done studies on that and has
[an] academic background on that.’’ ROA.
4691. The court therefore concluded that
Villanueva was not ‘‘an expert on whether
or not [Lucio’s interrogation] statement
was true or not true.’’ ROA.4700. The trial
court found Villanueva was ‘‘imminently
qualified on the issue of mitigation.’’ ROA.

4700. But it found she could not hold herself ‘‘as an expert as to why that statement
is or is not true.’’ ROA.4700.
Ultimately, the defense argued to the
jury that, because Lucio admitted that she
abused her child, the jury should credit as
true her insistence to the police that she
did not hit Mariah in the head. ROA.
15340–43. The prosecution asked the jury
to infer that Lucio dealt the head blow that
killed Mariah, just as Lucio had abused
the child in other ways. ROA.15354–61.
The jury found Lucio guilty of capital
murder. ROA.8093. And it found insufficient mitigating evidence to warrant a life
sentence. ROA.8098. The trial court sentenced her to death. ROA.10284.
B.
Lucio appealed. See Lucio v. State, 351
S.W.3d 878 (Tex. Crim. App. 2011). She
raised fourteen ‘‘points of error’’ on direct
appeal to the Texas Court of Criminal
Appeals. Id. at 880. Lucio’s ninth and tenth
points of error are at issue in our decision
today.
Points of error nine and ten concerned
the exclusion of Villanueva’s and Pinkerman’s opinions, respectively. Id. at 897–
902; ROA.10785–86. Lucio argued that the
exclusion of those opinions at the guilt
phase of her trial violated the Fourteenth
Amendment’s Due Process Clause as interpreted in Crane v. Kentucky, 476 U.S.
683, 106 S.Ct. 2142, 90 L.Ed.2d 636 (1986).
With respect to each expert, Lucio argued:
The defendant has a constitutional right
to present evidence before the jury as to
the circumstances under which his confession is taken. Crane v. Kentucky, 476
U.S. 683, 106 S. Ct. 2142, 90 L. Ed. 2d
636 (1986)[.] Crane deals with circumstances like how many policemen were
there, how big the room was, how long
the questioning lasted, etc. But the prin-

9a

460

987 FEDERAL REPORTER, 3d SERIES

ciple has wider application. The reason
the jury [was] entitled to know about the
circumstances under which the statement was given [was] so that they could
assess the voluntariness of the statement and so that they could use evidence of circumstances and their conclusion on voluntariness to follow the
judge’s instructions to disregard the
statement unless they were convinced
beyond a reasonable doubt that the
statement was voluntary.
ROA.10841; ROA.10844–45 (same). Lucio
insisted that both Villanueva and Pinkerman would have offered ‘‘critical evidence’’
that was ‘‘so important’’ that its erroneous
exclusion meant Lucio deserved a new trial. ROA.10841; ROA.10844 (same).
The Court of Criminal Appeals found
Lucio’s arguments on both points unavailing. See Lucio, 351 S.W.3d at 897–902
(overruling points of error nine and ten).
As to point nine (concerning Villanueva),
the court noted that Villanueva testified at
the admissibility hearing that she would
give opinions about the truthfulness of Lucio’s videotaped statements based on her
knowledge of body language. Id. at 899–
900. But on appeal, counsel claimed she
would have given an opinion on whether
Lucio suffered from battered woman syndrome. Ibid. Noting the inconsistency, the
court held that she ‘‘failed to preserve the
claim that she raises on appeal.’’ Id. at 900.
But even if Lucio had preserved point of
error nine, the Court of Criminal Appeals
4.

held, it would not matter. The court first
observed that Villanueva’s ‘‘testimony that
was actually proffered had little, if any,
relevance’’ to the question of voluntariness.
Ibid. (emphasis added). That was so even
under Texas law, which offered broader
protections than the federal constitution.
See ibid. (citing Oursbourn v. State, 259
S.W.3d 159, 172–73 (Tex. Crim. App.
2008)); see also Oursbourn, 259 S.W.3d at
173 (explaining that Texas’s statutory protections against ‘‘involuntary’’ confessions
are ‘‘broader in scope than those covered
by the Due Process Clause or Miranda’’).
Furthermore, under the Texas Rules of
Evidence, Villanueva could not ‘‘testify
that [Lucio] may have been telling the
truth when she initially denied abusing
Mariah.’’ Lucio, 351 S.W.3d at 901 n.25
(quoting Yount v. State, 872 S.W.2d 706,
708–09 (Tex. Crim. App. 1993) (en banc),
for the proposition that an expert’s ‘‘direct
testimony as to a witnesses’ [sic] credibility is inadmissible under [TEX. R. EVID.] 702
because it does not concern a subject upon
which the testimony of an expert would
assist the trier of fact’’ (emphasis in original)). The court also held that any error
was harmless. See id. at 901 & n.25.4
As to point of error ten (concerning
Pinkerman), the Court of Criminal Appeals
found similar problems. Appellate counsel
argued Pinkerman would’ve testified ‘‘that
since [Lucio] was an abused woman she
would agree with anything a policeman
would say.’’ Id. at 901 (quotation omitted).
But the court observed that was not what

The Court of Criminal Appeals noted that
testimony about body language might have
countered some statements by Officer Escalon, who interrogated Lucio and commented
on her demeanor. But Lucio’s ‘‘subsequent
admission during her recorded statement that
she abused Mariah, followed by her demonstrating such abuse with the doll’’ rendered
any error on that point harmless. Lucio, 351
S.W.3d at 901 n.25. Additionally, that wasn’t
Lucio’s only admission. As the Court of Crimi-

10a

nal Appeals noted elsewhere, the jury could
have ‘‘reasonably infer[red] that [Lucio] was
referring to Mariah’s fatal injuries when she
told her sister during their cell-phone conversation that she ‘did it.’ ’’ Id. at 895. And that
statement did not occur during a custodial
interrogation, could not have been motivated
by a battered woman’s willingness to tell male
police officers what they wanted to hear, and
had nothing to do with body language.

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

Pinkerman had offered at trial. Instead, at
trial, Pinkerman made a ‘‘broad and general’’ offer of proof that referred to Lucio’s
‘‘psychological functioning’’ and ‘‘demeanor.’’ Id. at 902 n.26 (quotation omitted).
The court concluded that because of this
variance between the offer of proof at trial
and Lucio’s argument on appeal, Lucio did
not preserve her appellate argument concerning Pinkerman. Id. at 902.
But even if Lucio had preserved the
point, the Court of Criminal Appeals held,
it would not matter. That was because, in
the court’s view, ‘‘Pinkerman’s proffered
guilt-phase testimony had little, if any, relevance’’ to the voluntariness of Lucio’s interrogation statements. Ibid. (citing
Oursbourn, 259 S.W.3d at 172–73). The
court also held the exclusion of Pinkerman’s opinion was harmless in any event.
Ibid.
The Court of Criminal Appeals overruled the rest of Lucio’s points of error
and affirmed the judgment of the trial
court. Id. at 910. Lucio petitioned the U.S.
Supreme Court for a writ of certiorari; the
Court denied it. Lucio v. Texas, 566 U.S.
1036, 132 S.Ct. 2712, 183 L.Ed.2d 71 (2012)
(mem.).
C.
Next, Lucio applied for state postconviction relief. For present purposes, the most
important part of her state habeas application is issue four.
She framed that part of her state habeas
application in this way: ‘‘ISSUE FOUR:
The trial court deprived Melissa of the
constitutional right to present a complete
defense when it excluded the testimony of
defense experts during the guilt/innocence
phase of trial.’’ ROA.8029. In issue four,
Lucio again argued that the trial court
erred by excluding the opinions of Villanueva and Pinkerman during the guilt
phase of her trial. ROA.8029–34. Lucio

461

took pains to distinguish this claim from
her prior claims made during her direct
appeal. In a footnote at the start of her
discussion of issue four, Lucio said:
Counsel distinguishes the claim raised in
the instant proceeding from the claim
raised on direct appeal that the trial
court abused its discretion by preventing
Melissa from presenting evidence regarding the circumstances under which
her confession was taken. See Direct
Appeal Brief (citing Crane v. Kentucky,
476 U.S. 683, 106 S.[ ]Ct. 2142, 90
L.[ ]Ed.[ ]2d 636 (1986)). The instant
issue goes to the core of the case—
whether Melissa was likely to have engaged in ongoing abuse of Mariah.
ROA.8029 n.36.
After disclaiming reliance on Crane,
Lucio noted that ‘‘a criminal defendant’s
constitutional right to present a complete
defense is violated by the exclusion of evidence pursuant to a state evidentiary
rule that categorically and arbitrarily
prohibits the defendant from offering otherwise relevant, reliable evidence that is
vital to his defense.’’ ROA.8029. Lucio’s
application went on to note that Texas’s
relevance rule itself is constitutional because it ‘‘serves a legitimate interest and
does not unconstitutionally abridge the
right to present a defense.’’ ROA.8032.
But, Lucio argued, ‘‘the evidence at issue
here was not irrelevant to the issue of
Melissa’s guilt or innocence.’’ ROA.8032.
Because the proffered testimony of Villanueva and Pinkerman ‘‘was relevant to
attack the credibility of the State’s case,’’
Lucio argued, ‘‘the jury was unable to
make an informed decision regarding the
weight to be given the State’s evidence of
ongoing abuse’’ without their opinions.
ROA.8033–34. On that account, ‘‘the trial
court violated Melissa’s right to present a
complete defense when it disallowed her

11a

462

987 FEDERAL REPORTER, 3d SERIES

expert’s [sic] testimony during guilt/innocence as irrelevant.’’ ROA.8034.
In other grounds of her state habeas
application, Lucio also argued her trial
counsel provided ineffective assistance of
counsel (‘‘IAC’’). For example, she argued
that trial counsel provided IAC by failing
‘‘to file a pretrial motion to suppress [her]
custodial statements.’’ ROA.7970 (‘‘Issue
Two’’). She also argued that trial counsel
‘‘failed to make a timely request for or
adequately utilize the assistance of a mitigation specialist and psychologist.’’ ROA.
7988 (‘‘Issue Three’’). To support these
IAC claims, Lucio offered a post-trial affidavit from Pinkerman. ROA.8975. In that
affidavit, Pinkerman testified that Lucio’s
‘‘psychological characteristics increase the
likelihood that she would acquiesce while
providing her confession’’ during her custodial interrogation. ROA.8975. Pinkerman
stated that Lucio’s statements to police
‘‘could have been accounted for by her
dependent and acquiescent personality,’’
along with her history of ‘‘emotional[ly]
and physically abusive relationships with
males.’’ ROA.8975–76. Pinkerman faulted
trial counsel for failing to ask the court if
he could offer opinions on these matters:
‘‘During meetings with defense counsel I
raised questions about these issues. To my
knowledge these issues were never raised
at the pretrial [sic] or trial.’’ ROA.8975.
Pinkerman’s IAC affidavit did not purport
to offer any opinion on why Lucio might
accept blame when talking on the phone to
her sister about what happened to Mariah.
The state habeas court rejected all of
Lucio’s claims, including her complete-defense claim in issue four. ROA.10083–96.
The state habeas court explained its analysis of issue four in two paragraphs:
39. [Lucio’s] complaint about this
Court’s exclusion of her mitigation experts [Villanueva and Pinkerman] from
the guilt-innocence portion of the trial is

nearly identical to issues nine and ten
raised on direct appeal. Matters raised
on direct appeal should not be re-litigated on habeas unless the judgment is
subsequently rendered void or a subsequent change in the law is made retroactive. While additional evidence may warrant relief even when the issue was
raised on direct appeal, Applicant has
not demonstrated that she is entitled to
relief herein because of any additional
evidence herein.
40. Moreover, this Court did not abuse
its discretion in excluding the testimony
of Norma Villanueva and Dr. John Pinkerman from the guilt-innocence portion
of the trial. Ms. Villanueva proffered
nothing to indicate that she had any sort
of specialized experience, knowledge or
training in the area of interpreting body
language and patterns of behavior during police interviews. Dr. Pinkerman’s
proffered testimony as to [Lucio’s] psychological functioning, including how
there was little support in the ‘‘historical
record’’ for the idea that [Lucio] physically abused her children, that she suffered from battered woman syndrome,
and the meaning of her demeanor after
the incident and during questioning had
no relevance to the question of [Lucio’s]
guilt or innocence.
ROA.10091.
Lucio filed objections to the state habeas
court’s findings of fact and conclusions of
law. ROA.5866–93. In those objections, Lucio recognized that her complete-defense
claim in state habeas was ‘‘nearly identical’’ to the one she made on direct appeal—but ‘‘ ‘[n]early identical’ is not ‘identical.’ ’’ ROA.5884. She emphasized that
her state habeas application—unlike her
direct appeal—did not challenge the circumstances of her custodial interrogation
or the exclusion of her experts under
Crane. ROA.5884. And Lucio’s objections

12a

463

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

did not say that Pinkerman’s post-trial affidavit—submitted to buttress her IAC
claims—had any relevance whatsoever to
her complete-defense claim. ROA.5883–84.
The Court of Criminal Appeals adopted
the lower court’s decision and denied relief. ROA.7768–69.
D.
Lucio then petitioned for habeas relief in
federal court. See 28 U.S.C. § 2254. She
raised 25 claims for relief, including a complete-defense claim. See Lucio v. Davis,
No. 13-cv-125, 2016 U.S. Dist. LEXIS
195659 at *31 (S.D. Tex. Sept. 28, 2016).
The district court wrote a thorough 65page opinion that analyzed all 25 claims.
As to the complete-defense claim, the district court held that Lucio ‘‘attempt[ed] to
dress up [a] state evidence law claim as a
constitutional claim’’ and that her attempt
was ‘‘without merit.’’ Id. at *65–66. The
district court denied the petition and denied a Certificate of Appealability
(‘‘COA’’). Id. at *92–94.
Lucio asked for a COA from our court.
Lucio v. Davis, 783 F. App’x 313 (5th Cir.
2019). We granted one on ‘‘ the question of
whether the exclusion of Lucio’s proffered
experts on the credibility of her alleged
confession violated her constitutional right
to present a complete defense.’’ Id. at 319
(quotation omitted). Thereafter, a panel of
our court determined that Lucio had
raised the issue of her right to a complete
defense in state court, but that no state
court had adjudicated that claim. Id. at
314–15. Applying de novo review, the panel
concluded that the exclusion of Pinkerman’s opinion violated Lucio’s right to
present a complete defense. Id. at 325. The
panel found Crane highly relevant, notwithstanding Lucio’s emphatic disclaimer
of that authority in her state habeas application. And the panel found Pinkerman’s
affidavit highly relevant, notwithstanding

Pinkerman’s concession that none of the
material in it had been properly presented
to the state trial court on account of alleged deficiencies by trial counsel. The
panel reversed the district court’s judgment and remanded for the district court
to grant habeas relief to Lucio. Ibid. Our
en banc court vacated the panel decision
on rehearing. Lucio v. Davis, 947 F.3d 331
(5th Cir. 2020) (mem.).
II.
Our now-vacated panel decision concluded that Lucio fairly presented a completedefense claim to the state courts; the state
courts simply overlooked it; and Lucio
therefore got the benefit of de novo review
of her complete-defense claim in federal
court. That was error. To explain why, we
begin with the exhaustion requirement.
Then we hold that the state courts adjudicated Lucio’s claims as she presented
them.
A.
The exhaustion requirement is a cornerstone of federal habeas for state prisoners.
The Supreme Court first announced it in
Ex parte Royall, 117 U.S. 241, 6 S.Ct. 734,
29 L.Ed. 868 (1886), shortly after Congress
extended the writ of habeas corpus ad
subjiciendum to prisoners in state custody. Then, in 1948, Congress codified the
exhaustion requirement in 28 U.S.C.
§ 2254. Today the statute provides that
Lucio’s federal habeas application ‘‘shall
not be granted’’ unless she has exhausted
available remedies in the state courts. Id.
§ 2254(b)(1).
[2, 3] ‘‘[T]he exhaustion doctrine is designed to give the state courts a full and
fair opportunity to resolve federal constitutional claims before those claims are presented to the federal courts.’’ O’Sullivan v.
Boerckel, 526 U.S. 838, 845, 119 S.Ct. 1728,

13a

464

987 FEDERAL REPORTER, 3d SERIES

144 L.Ed.2d 1 (1999) (emphasis added).
It’s premised on comity and federalism:
Because state courts are obligated to enforce federal law, they must be given the
first chance—after the state prisoner fully
explains the federal claim—to correct any
error. See id. at 844, 119 S.Ct. 1728. ‘‘This
rule of comity reduces friction between the
state and federal court systems by avoiding the unseemliness of a federal district
court’s overturning a state court conviction
without the state courts having had an
opportunity to correct the constitutional
violation in the first instance.’’ Id. at 845,
119 S.Ct. 1728 (quotation omitted).
Obviously, it would undermine or eliminate the exhaustion requirement if a state
prisoner could change the claim along the
way from state court to federal court. As
the Supreme Court has explained:
We emphasize that the federal claim
must be fairly presented to the state
courts. If the exhaustion doctrine is to
prevent unnecessary conflict between
courts equally bound to guard and protect rights secured by the Constitution,
it is not sufficient merely that the federal habeas applicant has been through
the state courts. The rule would serve
no purpose if it could be satisfied by
raising one claim in the state courts and
another in the federal courts. Only if the
state courts have had the first opportunity to hear the claim sought to be vindicated in a federal habeas proceeding
does it make sense to speak of the exhaustion of state remedies. Accordingly,
we have required a state prisoner to
present the state courts with the same
claim he urges upon the federal courts.
Picard v. Connor, 404 U.S. 270, 275–76, 92
S.Ct. 509, 30 L.Ed.2d 438 (1971) (emphasis
added) (quotation omitted).
Consider, for example, Duncan v. Henry, 513 U.S. 364, 115 S.Ct. 887, 130
L.Ed.2d 865 (1995) (per curiam). In that

case, a California jury convicted Henry of
sexually molesting a five-year-old. At trial,
Henry objected to the introduction of testimony by the parent of another child he
allegedly molested 20 years earlier. In the
state courts, Henry framed his objection in
terms of California evidentiary law. But in
the federal courts, Henry argued the erroneous introduction of the testimony violated the Due Process Clause. The Ninth
Circuit held that Henry exhausted his
state remedies because he gave the state
courts ‘‘the operative facts’’ and ‘‘the substance of his federal claim.’’ Henry v. Estelle, 33 F.3d 1037, 1040–41 (9th Cir. 1993)
(quotation omitted).
[4] The Supreme Court summarily reversed. It held the California courts ‘‘understandably’’ decided Henry’s claim in the
terms he presented it. Henry, 513 U.S. at
366, 115 S.Ct. 887. And in presenting his
claim to the state courts, Henry did not
claim the introduction of the challenged
testimony violated the Due Process
Clause—even if he presented the ‘‘facts’’
and ‘‘substance’’ of the claim in other
terms. Ibid. ‘‘The failure [was] especially
pronounced in that [Henry] did specifically
raise a due process objection before the
state court based on a different claim
TTTT’’ Ibid. Therefore, the exhaustion requirement provides that a state prisoner
who does not fairly present a claim to a
state habeas court—specifying both the legal and factual basis for the claim—may
not raise that claim in a subsequent federal proceeding.
B.
[5] For each claim that Lucio fully and
fairly presented to the state courts, there’s
a rebuttable presumption that the state
courts adjudicated it on the merits. See
Johnson v. Williams, 568 U.S. 289, 298,
133 S.Ct. 1088, 185 L.Ed.2d 105 (2013). It’s
possible that Lucio did her part by pre-

14a

465

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

senting her claims fully and fairly, and
that the state courts nonetheless erred and
overlooked them. But Williams holds such
a scenario is unlikely. See id. at 300–01,
133 S.Ct. 1088 (‘‘[I]t is by no means uncommon for a state court to fail to address
separately a federal claim that the court
has not simply overlooked’’). Therefore, ‘‘a
federal habeas court must presume that
the federal claim was adjudicated on the
merits.’’ Id. at 301, 133 S.Ct. 1088.
For each claim that the state court adjudicated on the merits, AEDPA’s relitigation bar applies. See 28 U.S.C. § 2254(d)
(generally barring relitigation of claims
that are ‘‘adjudicated on the merits’’ in
state court); see also ibid. (specifying that
the relitigation bar applies on a ‘‘claim’’-by‘‘claim’’ basis). And Lucio can overcome
the relitigation bar only by proving that
(1) the state court’s ‘‘decision’’ on her
claim ‘‘was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by
the Supreme Court of the United
States,’’ id. § 2254(d)(1); or
(2) the state court’s adjudication of the
claim ‘‘resulted in a decision that was
based on an unreasonable determination
of the facts in light of the evidence
presented in the State court proceeding,’’ id. § 2254(d)(2).
[6, 7] For each claim governed by
AEDPA’s relitigation bar, we must identify the relevant state-court ‘‘decision.’’ Id.
§ 2254(d)(1)–(2). To that end, the Supreme
Court says that we must ‘‘train [our] attention’’ on the ‘‘last related state-court decision’’ that provides a ‘‘relevant rationale’’
to a particular claim. Wilson v. Sellers, –––
U.S. ––––, 138 S. Ct. 1188, 1191–92, 200
L.Ed.2d 530 (2018) (quotation omitted).
Only then can we consider whether the
state court’s ‘‘decision’’ was contrary to or
an unreasonable application of clearly established Supreme Court precedent. Id. at

1192; see also, e.g., Ylst v. Nunnemaker,
501 U.S. 797, 805, 111 S.Ct. 2590, 115
L.Ed.2d 706 (1991) (‘‘To decide the present
case, therefore, we begin by asking which
is the last explained state-court judgment
on the [federal] claim.’’ (emphasis omitted)); Premo v. Moore, 562 U.S. 115, 123–
33, 131 S.Ct. 733, 178 L.Ed.2d 649 (2011);
Sears v. Upton, 561 U.S. 945, 951–56, 130
S.Ct. 3259, 177 L.Ed.2d 1025 (2010) (per
curiam).
C.
[8] In Lucio’s case, as in Henry, the
state courts adjudicated the claims in the
same terms as the prisoner presented
them. And, as in Henry, Lucio’s claims
shifted over time. That means, over the
course of this litigation, different state
courts adjudicated different claims. We
walk through each relevant decision in
turn.
At trial, Lucio urged that expert-opinion
testimony from Villanueva and Pinkerman
should be admitted under the Texas Rules
of Evidence. The trial court excluded Villanueva because she was not qualified to
offer an expert opinion about Lucio’s psychology, body language, or credibility. See
TEX. R. EVID. 702 (providing the state-law
standard for Daubert challenges); Yount,
872 S.W.2d at 708–09. And the trial court
excluded Pinkerman’s opinion about Lucio’s ‘‘psychological functioning’’ as irrelevant to her guilt and as relevant only to
mitigation. See Tex. R. Evid. 402. At no
point did trial counsel suggest that the
exclusion of either witness would violate
Lucio’s rights under the federal Due Process Clause. See Henry, 513 U.S. at 366,
115 S.Ct. 887 (‘‘If a habeas petitioner
wishes to claim that an evidentiary ruling
at a state court trial denied him the due
process of law guaranteed by the Fourteenth Amendment, he must say so, not
only in federal court, but in state court.’’).

15a

466

987 FEDERAL REPORTER, 3d SERIES

And at no point did either expert offer to
testify about the circumstances of Lucio’s
custodial interrogation and whether she
felt psychological pressure to admit to
abusing Mariah. As Pinkerman himself later said, ‘‘To my knowledge these issues
were never raised at the pretrial [sic] or
trial.’’ ROA.8975.
On direct appeal, Lucio changed her
claim and argued that, under the Due Process Clause and Crane v. Kentucky, Lucio
had the right to present Villanueva and
Pinkerman to challenge the ‘‘voluntariness’’ of her custodial statements. Even
though Lucio defaulted this claim by failing to present it to the trial court, the
Court of Criminal Appeals adjudicated it
anyway. And the court held Lucio’s voluntariness challenges failed because the testimony that Lucio’s experts had actually
proffered at trial had ‘‘little, if any, relevance’’ to the issue of voluntariness. Lucio,
351 S.W.3d at 901 (Villanueva), 902 (Pinkerman). And again, that was so even
though Texas law requires the admission
of more evidence than the minimum required by the Federal Constitution. See id.
at 900 (quoting Oursbourn, 259 S.W.3d at
172–73, for various examples of ‘‘fact scenarios that can raise a state-law claim of
involuntariness (even though they do not
raise a federal constitutional claim)’’ (emphasis added)). Thus, the Court of Criminal Appeals adjudicated and denied Lucio’s
Crane claim on direct appeal. See
Williams, 568 U.S. at 301, 133 S.Ct. 1088
(‘‘[I]f the state-law rule subsumes the federal standard—that is, if it is at least as
protective as the federal standard—then
the federal claim may be regarded as having been adjudicated on the merits.’’); see
also Early v. Packer, 537 U.S. 3, 8, 123
5.

S.Ct. 362, 154 L.Ed.2d 263 (2002) (per
curiam).
On state habeas, Lucio changed the
claim again. This time, she expressly disclaimed any reliance on Crane and insisted that she did not want to challenge the
exclusion of ‘‘evidence regarding the circumstances under which her confession
was taken.’’ ROA.8029 n.36. Rather, she
argued that the exclusion of Villanueva
and Pinkerman deprived her of the constitutional right to present a complete defense by proving that she was ‘‘[un]likely
to have engaged in ongoing abuse of Mariah.’’ ROA.8029 & n.36. The state habeas
court held that Lucio’s claim was procedurally barred insofar as she attempted to
re-raise her Crane claim regarding the
circumstances of her custodial interrogation. ROA.10091. And beyond that, the
claim was meritless because Villanueva’s
proffered body-language testimony failed
the Texas Daubert standard, and Pinkerman’s generalized proffer about Lucio’s
psychological functioning was relevant to
mitigation but ‘‘had no relevance to the
question of [Lucio’s] guilt or innocence.’’
ROA.10091.
Based on the state-court proceedings,
two things are clear: (1) Lucio exhausted
state remedies regarding two relevant
claims in two different state proceedings,
and (2) the state courts adjudicated both
claims on the merits.5 On direct appeal, the
Court of Criminal Appeals heard and rejected Lucio’s claim that Crane v. Kentucky gives her the federal due process
right to present testimony regarding the
circumstances of her custodial interrogation. On state habeas, the state court
heard and rejected Lucio’s distinct claim

True, the state courts also identified procedural bars to both claims based on Lucio’s
ever-changing arguments. But it long has
been true that a state court’s adjudication of a
claim on the merits means that the claim is

16a

exhausted. See, e.g., Castille v. Peoples, 489
U.S. 346, 350, 109 S.Ct. 1056, 103 L.Ed.2d
380 (1989); Brown v. Allen, 344 U.S. 443, 447,
73 S.Ct. 397, 97 L.Ed. 469 (1953).

467

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

that the exclusion of Villanueva and Pinkerman from the guilt phase of her trial
prevented her from proving that she was
‘‘[un]likely to have engaged in ongoing
abuse of Mariah.’’ This is the way Lucio
chose to present her claims and hence the
way the state courts were required to adjudicate them. The state courts adjudicated both claims on the merits. So AEDPA’s
relitigation bar applies. See 28 U.S.C.
§ 2254(d).

volved an unreasonable application of ’’
Chambers v. Mississippi, 410 U.S. 284, 93
S.Ct. 1038, 35 L.Ed.2d 297 (1973). 28
U.S.C. § 2254(d)(1). She finally argues (C)
the state court’s decision was ‘‘based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.’’ 28 U.S.C. § 2254(d)(2).
We consider and reject each argument in
turn.
A.

III.
[9] We next evaluate the relevant
state-court decisions under AEDPA’s relitigation bar, 28 U.S.C. § 2254(d). In enacting that provision, Congress imposed strict
limitations on federal courts considering
habeas applications from state prisoners.
See, e.g., Harrington v. Richter, 562 U.S.
86, 102, 131 S.Ct. 770, 178 L.Ed.2d 624
(2011); Langley v. Prince, 926 F.3d 145,
155 (5th Cir. 2019) (en banc), cert. denied, ––– U.S. ––––, 140 S. Ct. 2676, 206
L.Ed.2d 826 (2020) (mem.); see also Shinn
v. Kayer, ––– U.S. ––––, 141 S. Ct. 517,
526, ––– L.Ed.2d –––– (2020) (per curiam)
(‘‘Under AEDPA, state courts play the
leading role in assessing challenges to
state sentences based on federal law.’’).
‘‘To overcome AEDPA’s relitigation bar, a
state prisoner must shoehorn [her] claim
into one of its narrow exceptions.’’ Langley, 926 F.3d at 155; see 28 U.S.C.
§ 2254(d)(1)–(2). The prisoner can do so
only if the state court’s decision was ‘‘so
obviously wrong as to be beyond any possibility for fairminded disagreement.’’ Kayer, 141 S. Ct. at 526 (quotation omitted).
Lucio says she satisfied AEDPA’s relitigation exceptions in three ways. She first
argues (A) the state court’s decision was
‘‘contrary to’’ or ‘‘involved an unreasonable
application of ’’ Crane. 28 U.S.C.
§ 2254(d)(1). She next argues (B) the state
court’s decision was ‘‘contrary to’’ or ‘‘in-

We start with Lucio’s claim under Crane
v. Kentucky. We first explain the law
clearly established in Crane. Then we train
our attention on the last state-court decision to adjudicate that claim—the state
court’s decision in Lucio’s direct appeal—
and evaluate that decision under the relitigation bar. See Wilson, 138 S. Ct. at 1192.
1.
The Supreme Court has held that the
‘‘Constitution guarantees criminal defendants ‘a meaningful opportunity to present
a complete defense.’ ’’ Nevada v. Jackson,
569 U.S. 505, 509, 133 S.Ct. 1990, 186
L.Ed.2d 62 (2013) (per curiam) (quoting
Crane, 476 U.S. at 690, 106 S.Ct. 2142).
But it has also recognized that ‘‘state and
federal rulemakers have broad latitude under the Constitution to establish rules excluding evidence from criminal trials.’’
Ibid. (quoting Holmes v. South Carolina,
547 U.S. 319, 324, 126 S.Ct. 1727, 164
L.Ed.2d 503 (2006)). ‘‘Only rarely’’ has the
Supreme Court ‘‘held that the right to
present a complete defense was violated by
the exclusion of defense evidence under a
state rule of evidence.’’ Ibid.
In Crane, the Supreme Court considered the constitutionality of a novel evidentiary practice that was first recognized by
the Kentucky Supreme Court in Crane
itself. Prior to his murder trial, Crane

17a

468

987 FEDERAL REPORTER, 3d SERIES

moved to suppress his confession pursuant
to Kentucky Rule of Criminal Procedure
9.78. Crane v. Kentucky, 690 S.W.2d 753,
753 (Ky. 1985). That rule, adopted on January 1, 1978, stated:
Rule 9.78. Confessions and searches—
Suppression of evidence.—If at any
time before trial a defendant moves to
suppress, or during trial makes timely
objection to the admission of evidence
consisting of (a) a confession or other
incriminating statements alleged to have
been made by him to police authorities
or (b) the fruits of a search, the trial
court shall conduct an evidentiary hearing outside the presence of the jury and
at the conclusion thereof shall enter into
the record findings resolving the essential issues of fact raised by the motion
or objection and necessary to support
the ruling. If supported by substantial
evidence the factual findings of the trial
court shall be conclusive.
Ibid. The Kentucky trial court conducted
a ‘‘lengthy hearing and denied the motion
to suppress, finding the confession to be
voluntary.’’ Ibid. Then, at trial, the court
refused to allow the introduction of any
evidence regarding the ‘‘circumstances
surrounding the taking of the confession.’’
Id. at 754. The Kentucky Supreme Court
affirmed, holding:
[O]nce a hearing is conducted pursuant
to [Rule 9.78] and a finding is made by
the judge based upon substantial evidence that the confession was voluntary,
that finding is conclusive and the trial
court may exclude evidence relating to
voluntariness from consideration by the
jury when that evidence has little or no
relationship to any other issue.
Id. at 755.
The Supreme Court reversed because
the Kentucky Supreme Court’s decision
relied on the ‘‘assumption that evidence
bearing on the voluntariness of a confes-

sion and evidence bearing on its credibility
fall in conceptually distinct and mutually
exclusive categories.’’ Crane, 476 U.S. at
687, 106 S.Ct. 2142. That assumption was
‘‘directly at odds with language in several
[Supreme Court] opinions,’’ and it ‘‘conflict[ed] with the decisions of every other
state court to have confronted the issue,’’
ibid., as well as 18 U.S.C. § 3501(a) and
Federal Rule of Evidence 104(e), id. at
689, 106 S.Ct. 2142. The Court held ‘‘on the
facts of this case that the blanket exclusion
of the proffered testimony,’’ in ‘‘the absence of any valid state justification,’’ was
unconstitutional. Id. at 690, 106 S.Ct. 2142.
In making its decision, the Court took
pains to note that it was not ‘‘question[ing]
the power of States to exclude evidence
through the application of evidentiary
rules that themselves serve the interests of
fairness and reliability—even if the defendant would prefer to see that evidence
admitted.’’ Id. at 689, 106 S.Ct. 2142.
The Supreme Court subsequently reminded us that Crane does ‘‘not set[ ] forth
an absolute entitlement to introduce crucial, relevant evidence’’ at a criminal trial.
Montana v. Egelhoff, 518 U.S. 37, 53, 116
S.Ct. 2013, 135 L.Ed.2d 361 (1996) (plurality opinion). It explained:
Our holding that the exclusion of certain
evidence in that case violated the defendant’s constitutional rights rested not on
a theory that all competent, reliable evidence must be admitted, but rather on
the ground that the Supreme Court of
Kentucky’s sole rationale for the exclusion (that the evidence did not relate to
the credibility of the confession) was
wrong. Crane does nothing to undermine the principle that the introduction
of relevant evidence can be limited by
the State for a valid reason.
Ibid. (quotations omitted).
2.
[10, 11] Lucio argues that the state
court’s exclusion of Villanueva and Pinker-

18a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

man was ‘‘contrary to’’ the law clearly
established in Crane. See 28 U.S.C.
§ 2254(d)(1). ‘‘A state-court decision is contrary to clearly established federal law
only if it arrives at a conclusion opposite to
that reached by the Supreme Court on a
question of law or if it resolves a case
differently than the Supreme Court has on
a set of materially indistinguishable facts.’’
Langley, 926 F.3d at 155 (quotations omitted). For example:
If a state court were to reject a prisoner’s claim of ineffective assistance of
counsel on the grounds that the prisoner
had not established by a preponderance
of the evidence that the result of his
criminal proceeding would have been
different, that decision would be diametrically different, opposite in character or
nature, and mutually opposed to [the
Supreme Court’s] clearly established
precedent because [it] held in Strickland
that the prisoner need only demonstrate
a reasonable probability that the result
of the proceeding would have been different.
Terry Williams v. Taylor, 529 U.S. 362,
405–06, 120 S.Ct. 1495, 146 L.Ed.2d 389
(2000) (quotation omitted).
Lucio cannot meet that high bar here. In
answering our en banc questions,6 Lucio
conceded that, at best, her claim is
‘‘strongly supported’’ by Crane and that no
case is on ‘‘all fours’’ with her claim. Lucio
Opening En Banc Q & A 25–26. That is
insufficient to show that the state court’s
decision is ‘‘diametrically different’’ from
Crane. See Terry Williams, 529 U.S. at
405, 120 S.Ct. 1495. Therefore, ‘‘here, as in
most AEDPA cases,’’ the ‘‘contrary to’’
6.

469

exception does not apply. Langley, 926
F.3d at 156.
[12, 13] Next, Lucio argues that the
decision by the Court of Criminal Appeals
‘‘involved an unreasonable application of ’’
Crane. See 28 U.S.C. § 2254(d)(1). To meet
that exception to the relitigation bar, Lucio
must do much more than establish that the
state court erred. See, e.g., Renico v. Lett,
559 U.S. 766, 773, 130 S.Ct. 1855, 176
L.Ed.2d 678 (2010) (‘‘[A] federal habeas
court may not issue the writ simply because that court concludes in its independent judgment that the relevant statecourt decision applied clearly established
federal law erroneously or incorrectly.’’
(quotation omitted)). ‘‘Rather, the relitigation bar forecloses relief unless the prisoner can show the state court was so wrong
that the error was well understood and
comprehended in existing law beyond any
possibility for fairminded disagreement.’’
Langley, 926 F.3d at 156 (quotation omitted); see also Kayer, 141 S. Ct. at 520
(summarily reversing the Ninth Circuit for
‘‘ordering issuance of a writ of habeas
corpus despite ample room for reasonable
disagreement about the prisoner’s TTT
claim’’).
We hold the Court of Criminal Appeals
did not unreasonably apply Crane in Lucio’s direct appeal. As an initial matter, we
note that the Court of Criminal Appeals
held that the two witnesses’ opinions were
inadmissible under state law, which affords
broader protections than the Crane-Due
Process standard in federal law. See Lucio,
351 S.W.3d at 900, 902 (citing Tex. Code
Crim. Proc. arts. 38.21, 38.22, and Oursbourn, 259 S.W.3d at 172–73). Because Texas law is ‘‘broader in scope’’ than the U.S.

Because of COVID-19, our court did not
conduct our usual en banc argument. Instead,
we used a multi-round form of written questions and answers. In the first round, we
presented written questions—some for both

19a

parties, some solely for Lucio or the State.
After the parties provided their answers to the
court’s questions, they both submitted rebuttals to each other’s answers. Both parties
provided thorough and helpful answers.

470

987 FEDERAL REPORTER, 3d SERIES

Constitution on this issue, a determination
that a claim fails on state-law grounds
necessarily adjudicated any federal claim
as well. See Williams, 568 U.S. at 298–99,
133 S.Ct. 1088 (holding a state-law adjudication necessarily adjudicates the federal
question where the former ‘‘fully incorporat[es]’’ the latter). Lucio has never argued
that Texas’s statutory and decisional standards are in fact narrower than the Crane
standard. She therefore has forfeited any
argument to that effect.
Moreover, we have observed that cases
involving Crane ‘‘typically focus’’ on evidentiary rules that lead to ‘‘categorical
prohibitions of certain evidence and not
discretionary decisions to exclude evidence
under general and otherwise uncontroversial rules.’’ Caldwell v. Davis, 757 F. App’x
336, 339 (5th Cir. 2018) (per curiam). As
Lucio conceded in her en banc answers,
she is not challenging the constitutionality
of Texas’s evidentiary rules regarding the
relevance and the admission of expertopinion testimony. Lucio Opening En Banc
Q & A 24–25. Nor does Lucio allege that
the Texas courts categorically prohibited
her from undermining her own inculpatory
statements. For example, the trial court
permitted Lucio’s sister to testify about
Lucio’s background, her tendency to take
the blame for things she did not do, and
the phone call in which Lucio allegedly
said: ‘‘This was me. I did it.’’7 Her only
complaint is that the trial court made discretionary errors in excluding the particu-

lar expert opinions proffered by Villanueva
and Pinkerman. Therefore, Lucio fails to
show that Texas courts categorically prohibited evidence undermining her inculpatory statements.
[14] Lucio cannot argue that the Court
of Criminal Appeals unreasonably applied
Crane by failing to extend it to discretionary
evidentiary
decisions.
‘‘Section
2254(d)(1) provides a remedy for instances
in which a state court unreasonably applies [the Supreme] Court’s precedent; it
does not require state courts to extend
that precedent or license federal courts to
treat the failure to do so as error.’’ White
v. Woodall, 572 U.S. 415, 426, 134 S.Ct.
1697, 188 L.Ed.2d 698 (2014) (emphasis in
original). We, like the Ninth Circuit, are
aware of no clearly established law regarding ‘‘a court’s exercise of discretion to exclude expert testimony’’ as it relates to a
‘‘criminal defendant’s constitutional right
to present relevant evidence.’’ Moses v.
Payne, 555 F.3d 742, 758–59 (9th Cir.
2009); see also Brown v. Horell, 644 F.3d
969, 983 (9th Cir. 2011) (‘‘[T]he Supreme
Court has not decided any case either
squarely address[ing] the discretionary exclusion of evidence and the right to present a complete defense or establish[ing] a
controlling legal standard for evaluating
such exclusions.’’ (quotation omitted) (alterations in original)).
And it’s not just the Ninth Circuit. Many
of our sister circuits, reviewing state pris-

7. Our now-vacated panel opinion made much
of the fact that a police officer overheard this
statement while listening to only Lucio’s side
of the conversation with her sister, and that
the officer ‘‘did not create a log of Lucio’s
alleged statements until nearly sixteen months
after he interacted with Lucio—the month
before trial.’’ Lucio, 783 F. App’x at 324 n.6.
But far from supporting a Crane claim, these
propositions disprove it. Crane guarantees Lucio the procedural opportunity to present her
defense. The trial court gave Lucio the proce-

20a

dural opportunity—and her trial counsel vigorously exercised it—to cross-examine the officer about what he overheard Lucio say and
the length of time between that conversation
and the officer’s report. ROA.14992–93. And
as noted above, the trial court afforded Lucio
the opportunity—which she again vigorously
exercised—to present her sister’s side of the
phone call. All of this proves that the State
did not categorically bar Lucio, as in Crane,
from presenting any evidence to undermine
her inculpatory statement.

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

oners’ applications under § 2254(d)(1), have
upheld state courts’ wide latitude to make
discretionary evidentiary decisions. See,
e.g., Grant v. Royal, 886 F.3d 874, 959–60
(10th Cir. 2018) (rejecting state prisoner’s
habeas application under the relitigation
bar because Crane did not implicate the
‘‘discretionary application of evidentiary
rules’’); Troy v. Sec’y, Fla. Dep’t of Corr.,
763 F.3d 1305, 1307, 1315 (11th Cir. 2014)
(rejecting state prisoner’s habeas application under the relitigation bar because
Crane does not deprive state courts of the
‘‘gatekeeping role’’ to make discretionary
evidentiary decisions); Gagne v. Booker,
680 F.3d 493, 516 (6th Cir. 2012) (en banc)
(rejecting state prisoner’s habeas application under the relitigation bar because,
consistent with Crane, ‘‘a trial court may
even exclude competent reliable evidence
TTT central to the defendant’s claim of
innocence, so long as there exists a valid
state justification’’ (quotation omitted));
Rucker v. Norris, 563 F.3d 766, 770 (8th
Cir. 2009) (rejecting state prisoner’s habeas application under the relitigation bar
because ‘‘Crane proscribed only the
‘wholesale exclusion’ of evidence pertaining
to the credibility of a confession’’).
Take for example the Sixth Circuit’s decision in Loza v. Mitchell, 766 F.3d 466
(6th Cir. 2014). It assessed an Ohio court’s
exclusion of a clinical psychologist that the
defendant sought to use ‘‘to help explain
his confession.’’ Id. at 481. The Sixth Circuit held the prisoner could not surmount
the relitigation bar because the state court
did not apply a ‘‘mechanistic, per se’’ rule
but instead made an ‘‘individual determination’’ about the appropriateness of the testimony based on the specific facts of the
case. Id. at 485 (quotations omitted). Importantly, the defendant was given the opportunity to present ‘‘other evidence bearing on the credibility of his confession.’’
Ibid. And the jury had the opportunity to
watch the video of the defendant’s confes-

471

sion to see for itself the ‘‘tone and manner
of the interrogation, the number of officers
present, the physical characteristics of the
room, and the length of the interrogation.’’
Ibid. (quotation omitted). Although more
evidence like the clinical psychologist’s
opinion would have been helpful, the Sixth
Circuit found it reasonable to ‘‘conclude[ ]
that Crane did not require this evidence to
be admitted.’’ Id. at 486 (emphasis in original).
We refuse to create a circuit split. As
previously discussed, the Court of Criminal Appeals did not affirm any ‘‘blanket
exclusion’’ of evidence regarding Lucio’s
confession. Instead, it considered her two
proffered experts on an individualized basis and found their opinions to be inadmissible as a matter of state law. The jury
hearing Lucio’s case had ample opportunity to assess the credibility of her various
statements—it could watch the video of
the interrogation, it could listen to her
sister’s testimony, and it could compare
that testimony with the police officer’s.
Thus, even if we assume arguendo that a
discretionary evidentiary ruling could violate Crane, Lucio has not proven beyond
any fair-minded disagreement that the
state court’s decision on her direct-appeal
record rises to that level. Accordingly, the
Court of Criminal Appeals’ decision was
not an unreasonable application of the
clearly established federal law in Crane.
[15] Nor does the state court’s decision
become unreasonable, as Lucio argues, because of Pinkerman’s post-trial, collateralreview affidavit. The Supreme Court has
strictly instructed that our review is ‘‘limited to the record that was before the state
court that adjudicated the claim on the
merits.’’ Cullen v. Pinholster, 563 U.S. 170,
181, 131 S.Ct. 1388, 179 L.Ed.2d 557 (2011)
(emphasis added). To that end, ‘‘the record
under review is limited to the record in

21a

472

987 FEDERAL REPORTER, 3d SERIES

existence at that same time.’’ Id. at 182,
131 S.Ct. 1388. Since the Pinkerman affidavit did not exist at the time the Court of
Criminal Appeals evaluated Lucio’s Crane
claim on direct appeal, the record before
that court didn’t include the affidavit.
Therefore, we may not consider the affidavit in reviewing that court’s direct appeal
decision.
B.
We next consider the complete-defense
claim that Lucio exhausted in her state
habeas application. We first identify the
claim. Then we describe the clearly established law as articulated by the Supreme
Court. Then we evaluate the relevant
state-court decision under AEDPA’s relitigation bar.
1.
Lucio adamantly insisted that her state
habeas claim did not involve Crane. ROA.
8029 n.36. She presumably did so to avoid
the state procedural bar on re-raising
claims in state habeas after raising them
on direct appeal. See, e.g., Ex parte Brown,
205 S.W.3d 538, 546 (Tex. Crim. App. 2006)
(‘‘[H]abeas relief is not available to one
who has already litigated his claim at trial,
in post-trial motions, or on direct appeal.’’).
So we take Lucio at her word that the
state habeas claim does not implicate
Crane.
[16] We also assume that Lucio does
not intend to challenge the state courts’
application of state-law evidentiary rules.
It’s well-settled that such state-law challenges form ‘‘no part of a federal court’s
habeas review of a state conviction. We
have stated many times that federal habeas corpus relief does not lie for errors of
state law.’’ Estelle v. McGuire, 502 U.S. 62,
67, 112 S.Ct. 475, 116 L.Ed.2d 385 (1991)
(quotation omitted). And that obviates

much of Lucio’s state habeas claim. The
three principal cases cited in that application all involve direct appeals of mine-run
evidentiary challenges. See ROA.8032–33
(citing United States v. Hall, 93 F.3d 1337
(7th Cir. 1996), United States v. Cohen,
510 F.3d 1114 (9th Cir. 2007), and an unpublished, intermediate state-court decision in Kaps v. State, No. 05-97-00328-CR,
1998 WL 209060 (Tex. App.—Dallas Apr.
30, 1998, no pet.)). These precedents illustrate that state-law evidentiary claims are
cognizable on direct appeal. But they are
not cognizable in federal habeas. See
McGuire, 502 U.S. at 67, 112 S.Ct. 475. So
we do not construe Lucio’s claim to implicate the state courts’ application of state
evidence law. See Lucio, 2016 U.S. Dist.
LEXIS 195659, at *65 (‘‘Lucio’s attempt to
dress up this state evidence law claim as a
constitutional claim is unconvincing.’’).
[17] What remains unclear is what Lucio’s state habeas claim does implicate. Our
now-vacated panel decision in this case
said that ‘‘Lucio’s argument to the state
habeas court flagged her ‘complete defense’ argument as a ‘constitutional’ issue
and cited a Texas case that relied exclusively on the Federal Constitution.’’ Lucio,
783 F. App’x at 319 (citing Wiley v. State,
74 S.W.3d 399, 405–07 (Tex. Crim. App.
2002), and Wiley v. State, No. 03-99-00047CR, 2000 WL 1124975, at *1 (Tex. App.—
Austin Aug. 10, 2000), aff’d, 74 S.W.3d 399
(Tex. 2002)). We disagree that ‘‘flagging’’ a
state-court case that in turn cites the U.S.
Constitution is sufficient to exhaust a federal claim under 28 U.S.C. § 2254(b)(1).
See, e.g., Williams, 568 U.S. at 299, 133
S.Ct. 1088 (holding ‘‘a fleeting reference to
a provision of the Federal Constitution or
federal precedent’’ is insufficient to exhaust a federal claim because ‘‘a state
court may not regard [it] as sufficient to
raise a separate federal claim’’). And Wiley
itself did not purport to apply Crane,

22a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

Chambers, or any U.S. Supreme Court
precedent whatsoever.
The most charitable interpretation of
Lucio’s state habeas claim is that the exclusion of expert-opinion testimony from
Villanueva and Pinkerman infringed her
constitutional right to present a complete
defense because it precluded Lucio from
presenting evidence ‘‘regarding the weight
to be given the State’s evidence of ongoing
abuse,’’ ROA.8034, depriving her of the
opportunity to prove that she was ‘‘[un]likely to have engaged in ongoing abuse of
Mariah,’’ ROA.8029 n.36. This claim does
not attack the circumstances of Lucio’s
custodial interrogation as in Crane. Rather, Lucio’s objection is that the exclusion
of the experts’ opinions made her trial
unfair because it precluded her from proving that she did not beat her child to death
or commit ongoing abuse of Mariah, even
though she admitted to committing abuse.
And the state habeas court’s contrary conclusion, she says, is contrary to or an
unreasonable application of Chambers v.
Mississippi.
2.
Again, we explain the Supreme Court’s
decision in Chambers before considering
whether the state court acted contrary to
or unreasonably applied that precedent.
The State prosecuted Leon Chambers
for murdering a police officer ‘‘in the small
town of Woodville in southern Mississippi’’
in 1969. Chambers, 410 U.S. at 285, 93
S.Ct. 1038. Another man, named McDonald, confessed in a sworn written statement to murdering the police officer. Id. at
287, 93 S.Ct. 1038. Still, Mississippi
brought charges against Chambers, not
McDonald. At trial, Chambers called McDonald to the stand and entered McDonald’s written confession into evidence.
Id. at 291, 93 S.Ct. 1038. On cross-examination, the State elicited testimony from

473

McDonald repudiating the confession. Ibid.
After the State’s cross-examination, Chambers moved to examine McDonald as a
hostile witness. Ibid. But the state court
denied his request based on an idiosyncratic state-law rule called the ‘‘voucher
rule’’—which prevented Chambers from
impeaching his own witness on the theory
that ‘‘a party who calls a witness ‘vouches
for his credibility.’ ’’ Id. at 295, 93 S.Ct.
1038 (quoting Clark v. Lansford, 191 So.2d
123, 125 (Miss. 1966)).
The Supreme Court noted that the
voucher rule has been ‘‘condemned as archaic, irrational, and potentially destructive of the truth-gathering process.’’ Id. at
296 n.8, 93 S.Ct. 1038. And it emphasized
that Mississippi did not even attempt ‘‘to
defend the [voucher] rule or explain its
underlying rationale.’’ Id. at 297, 93 S.Ct.
1038. The Supreme Court therefore held
that the ‘‘voucher rule’’ violated Chambers’s rights to confront and cross-examine
witnesses like McDonald.
[18] The state habeas court’s adjudication of Lucio’s complete-defense claim is
not ‘‘contrary to’’ Chambers. 28 U.S.C.
§ 2254(d)(1). During our en banc Q & A,
Lucio recognized that the trial court excluded Villanueva and Pinkerman pursuant
to ordinary rules of evidence concerning
the admissibility of expert opinions—not
pursuant to some idiosyncratic, arbitrary,
archaic, and indefensible rule that prohibited her from impeaching her own witness.
This significant distinction is far more than
sufficient to bar a ‘‘contrary to’’ claim.
[19] Nor is the state habeas court’s
decision an ‘‘unreasonable application’’ of
Chambers. Ibid. The Supreme Court has
instructed us that Chambers—like its other complete-defense cases—involved an idiosyncratic state rule of evidence that was
‘‘arbitrary,’’ ‘‘did not rationally serve any
discernible purpose,’’ and ‘‘could not be

23a

474

987 FEDERAL REPORTER, 3d SERIES

rationally defended.’’ Jackson, 569 U.S. at
509, 133 S.Ct. 1990 (discussing Holmes,
547 U.S. at 331, 126 S.Ct. 1727; Rock v.
Arkansas, 483 U.S. 44, 61, 107 S.Ct. 2704,
97 L.Ed.2d 37 (1987); Chambers, 410 U.S.
at 302–303, 93 S.Ct. 1038; and Washington
v. Texas, 388 U.S. 14, 22, 87 S.Ct. 1920, 18
L.Ed.2d 1019 (1967)). The Supreme Court
has never applied its complete-defense
cases to discretionary evidentiary decisions
under rules that are themselves constitutional, like the rules of evidence involving
the admissibility of expert opinions here.
Thus, to hold that the state habeas court
unreasonably applied these cases, we’d
have to (1) extend them or (2) frame them
‘‘at such a high level of generality’’ that
we’d ‘‘transform even the most imaginative
extension of existing case law into ‘clearly
established Federal law, as determined by
the Supreme Court.’ ’’ Id. at 512, 133 S.Ct.
1990 (quoting 28 U.S.C. § 2254(d)(1)). The
relitigation bar precludes that.

interrogation video,’’ thereby ‘‘cast[ing]
doubt on the State’s key evidence.’’ Ibid.
AEDPA prohibits whipsawing the state
courts in this way. See 28 U.S.C. § 2254(d);
cf. Wainwright v. Sykes, 433 U.S. 72, 89,
97 S.Ct. 2497, 53 L.Ed.2d 594 (1977) (rejecting habeas-by-‘‘sandbagging’’). This is
the entirety of what Pinkerman proffered
at trial:
On the basis of my review of information, consultation with additional
experts, and the evaluation that I
have done with the defendant Mrs.
Lucio, I was going to testify about
the characteristics and makeup of her
psychological functioning. I was also
going to address how her demeanor,
both immediately after the incident
and during the interrogation, may be
understood by understanding and appreciating the psychological elements
and previous history and background
that she has lived through. I was also
going to address the notion of how
difficult it might have been for her to
step into some of the treatment, even
though it was minimally offered. And
those are the highlights.

3.
Our panel decision in this case reached
the contrary result by taking the facts
from Lucio’s state habeas application, mixing them with the law from her direct
appeal, and using the resulting combination to condemn the evidentiary decision
made at trial. Specifically, the panel combined the facts in the Pinkerman affidavit
(from state habeas) with the Crane claim
(from direct appeal) to hold the exclusion
of Pinkerman’s proffer (at trial) was arbitrary and ‘‘complete[ly] irrational[ ].’’ Lucio, 783 F. App’x at 323. The panel held
that Crane gave Lucio the constitutional
right to ‘‘take[ ] away’’ or ‘‘undermine[ ]’’
her custodial-interrogation statements;
that without those statements, ‘‘the State’s
case [would have been] much more tenuous’’; and that ‘‘Pinkerman’s opinion was
that Lucio was susceptible to taking blame
for something that was not her fault and
that this behavior was manifested in the

ROA.15301. As the state courts concluded,
this proffer provides zero information
about what facts or opinions Pinkerman
was prepared to offer. It certainly did not
say—as our panel decision concluded—
‘‘that Lucio was susceptible to taking
blame for something that was not her fault
and that this behavior was manifested in
the interrogation video.’’ Lucio, 783 F.
App’x at 323. To the contrary, Pinkerman
provided no basis upon which the state
courts could have concluded that his testimony would have assisted the jury in understanding why Lucio made the statements that she did, why her demeanor was
what it was, or whether she murdered her
child. If AEDPA’s anti-sandbagging rules

24a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

mean anything, they mean that Lucio and
Pinkerman cannot hold back the substance
of the proffered testimony with the hope of
using it as a trump card later.
The whipsawing embraced by our panel
decision is particularly striking because we
do not need to guess what Pinkerman
would’ve said if he’d been allowed to testify in the guilt phase of the trial. That’s
because two days before he was first called
to testify and make his proffer, he authored an expert report that detailed his
testimony. ROA.15301 (Pinkerman’s guiltphase proffer, dated July 7, 2008); ROA.
5387 (Pinkerman’s expert report, dated
July 5, 2008). The expert report contained
extensive psychological evaluations of Lucio. It also described Pinkerman’s findings
from watching the interrogation video—
including that Lucio had a ‘‘constrained’’
demeanor, a ‘‘flat’’ affect, and that ‘‘she
tunes out to the male investigator.’’ ROA.
5394. The report recounted Lucio’s custodial statement: ‘‘Several hours after Mariah’s death, [Lucio] said: ‘I’m responsible
for it.’ ’’ ROA.5395 (emphasis added). And
it recounted Lucio’s various other inculpatory admissions of abuse against her
daughter. E.g., ROA.5395 (recounting Lucio’s admissions that she got ‘‘frustrated’’
with Mariah, ‘‘spanked’’ her, and ‘‘When I
saw the bruises, I hated myself for what I
did.’’). At no point did Pinkerman’s report
come close even to hinting that any of
these statements were false. At no point
did Pinkerman’s report come close even to
hinting ‘‘that Lucio was susceptible to taking blame for something that was not her
fault and that this behavior was manifested
in the interrogation video.’’ Lucio, 783 F.
App’x at 323. And at no point did Pinkerman’s report say anything at all about
battered woman syndrome.
We also don’t have to guess about what
Pinkerman would have said at trial because he was allowed to testify during the

475

punishment phase. Defense counsel asked
Pinkerman multiple questions about Lucio’s interrogation video to elicit testimony
about the circumstances of the offense and
Lucio’s moral culpability. E.g., ROA.5131–
34; see TEX. CODE CRIM. PROC. art. 37.071,
§ 2(e)(1) (requiring the punishment-phase
jury to consider, inter alia, ‘‘the circumstances of the offense’’ and ‘‘the personal
moral culpability of the defendant’’). And
again, Pinkerman did not come close even
to suggesting ‘‘that Lucio was susceptible
to taking blame for something that was not
her fault and that this behavior was manifested in the interrogation video.’’ Lucio,
783 F. App’x at 323. In fact, Pinkerman
repeatedly equivocated regarding battered
woman syndrome:
Q. Well, do you feel that this defendant
has battered woman’s syndrome?
A. I can’t answer, yes or no.
Q. Why not?
A. Because my answer would be in the
middle.
ROA.5169. When pressed to explain the
equivocation, Pinkerman stated that ‘‘[b]attered woman syndrome isn’t a DSM-4 diagnosis.’’ ROA.5170.
Pinkerman radically shifted his story in
the state habeas proceeding. That’s the
first and only time he offered any opinion
about the circumstances of Lucio’s custodial interrogation or battered woman syndrome. And he did it in a state habeas
application that said Lucio was not challenging the circumstances of her custodial
interrogation or the voluntariness of anything she said during that interrogation.
The state courts are entitled to adjudicate
the claim that Lucio brought at the time
she brought it and in the way she brought
it. See Henry, 513 U.S. at 366, 115 S.Ct.
887. And we cannot agree with the panel
that the state trial court’s decision to exclude the proffered testimony was ‘‘complete[ly] irrational[ ],’’ Lucio, 783 F. App’x

25a

476

987 FEDERAL REPORTER, 3d SERIES

at 323; cf. Jackson, 569 U.S. at 509, 133
S.Ct. 1990, based on an affidavit that
wasn’t even written until many years after
the trial and was first presented in a state
habeas application that disclaimed the panel’s legal theory, see Pinholster, 563 U.S.
at 181, 131 S.Ct. 1388 (‘‘[T]he scope of the
record for a § 2254(d)(1) inquiry TTTT is
limited to the record that was before the
state court that adjudicated the claim on
the merits.’’).

Evidence would bar her from offering an
opinion on Lucio’s credibility. See Yount,
872 S.W.2d at 708–09. It was therefore
reasonable for the state courts to exclude
Villanueva from the guilt phase of the trial. Even our now-vacated panel decision
did not find error in that result. See Lucio,
783 F. App’x at 321.8

Villanueva fares no better. As Lucio
conceded in her opening en banc brief, all
of Villanueva’s testimony was premised on
her comparison of Lucio’s body language
in pictures that predated the murder to
her body language after it. And the state
courts had ample reasons under the Texas
Daubert standard to exclude such guiltphase testimony based on Villanueva’s
concession that she had no specialized
training, no certification, and no generally
accepted science to support interpreting
Lucio’s body language. ROA.4694–95. In
fact, when Villanueva testified at the punishment phase, she conceded that she ‘‘was
retained to do mitigation. TTT I was not
instructed at all to make judgments about
the innocence or guilt, sir.’’ ROA.5057 (emphasis added). Moreover, even if Villanueva were a qualified body-language expert and were retained to render opinions
about Lucio’s guilt, the Texas Rules of

[20, 21] Finally, Lucio argues that the
state habeas court’s decision was based on
‘‘an unreasonable determination of the
facts in light of the evidence presented in
the State court proceeding.’’ 28 U.S.C.
§ 2254(d)(2). Because Lucio is challenging
a state conviction, ‘‘a determination of a
factual issue made by a State court shall
be presumed to be correct.’’ Id.
§ 2254(e)(1). Furthermore, the ‘‘applicant
shall have the burden of rebutting the
presumption of correctness by clear and
convincing evidence.’’ Ibid. Thus, while the
‘‘general standard’’ for evaluating a state
court’s findings of fact is reasonableness,
§ 2254(e)(1) requires a state prisoner to
show that the state court’s specific factual
determination in her case is unreasonable
by clear and convincing evidence. Valdez v.
Cockrell, 274 F.3d 941, 951 n.17 (5th Cir.
2001); see also Blue v. Thaler, 665 F.3d
647, 654 (5th Cir. 2011). We cannot reject a

8.

C.

Our panel decision noted ‘‘the exclusion of
Villanueva’s testimony raises concerns about
the fairness of the trial’’ because Officer Escalon testified about Lucio’s body language
during the interrogation. Lucio, 783 F. App’x
at 321 n.1. That’s apples and oranges. Officer
Escalon did not purport to offer an expert
opinion; he was describing his personal experiences and impressions while interrogating
Lucio. See Osbourn v. State, 92 S.W.3d 531,
538–39 (Tex. Crim. App. 2002) (explaining
that a police officer’s ‘‘lay opinion about
something she personally perceived,’’ even
when informed by an officer’s training and
experience, is distinct from expert testimony).
And to the extent Escalon purported to offer

26a

inadmissible expert opinion, Lucio’s trial lawyers had every right to object. They did not.
See ROA.4410-11; Geuder v. State, 115 S.W.3d
11, 13 (Tex. Crim. App. 2003) (explaining that
‘‘to preserve error, an objection must be timely, specific, pursued to an adverse ruling, and,
with two [inapplicable] exceptions, contemporaneous—that is, made each time inadmissible evidence is offered’’). They also had every
right to cross-examine Escalon on the point.
Again, they did not. And even if Lucio’s counsel allowed inadmissible evidence to come in
by failing to object, that would do nothing to
qualify Villanueva as an expert on body language under Texas’s Daubert standard. See
ROA.4700.

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

factual finding merely because we would
have made a different one. See Kately v.
Cain, 704 F.3d 356, 361 (5th Cir. 2013).
[22–24] Lucio argues that the state habeas court made an unreasonable factual
determination concerning the admissibility
of Pinkerman’s opinion. The state habeas
court held that Pinkerman’s proffered
opinion ‘‘had no relevance to the question
of [Lucio’s] guilt or innocence.’’ ROA.
10091. Lucio argues that this was error—
either under Texas Rule of Evidence 402
or ‘‘Texas relevance law’’ generally. But it
is well established that a ‘‘federal court
lacks authority to rule that a state court
incorrectly interpreted its own law.’’
Charles v. Thaler, 629 F.3d 494, 500–01
(5th Cir. 2011); see McGuire, 502 U.S. at
67, 112 S.Ct. 475. It is ‘‘not our function as
a federal appellate court in a habeas proceeding to review a state’s interpretation
of its own law.’’ Schaetzle v. Cockrell, 343
F.3d 440, 449 (5th Cir. 2003) (quoting
Weeks v. Scott, 55 F.3d 1059, 1063 (5th Cir.
1995)). Because Lucio fails to identify any
factual problems with the state habeas
court’s decision concerning Pinkerman’s
opinion, she has failed to make a claim
that’s cognizable in federal habeas, much
less one that can push aside the relitigation bar in § 2254(d)(2). To the extent
Lucio’s argument can be construed as raising a legal claim under federal law, we
have already rejected it for the reasons
discussed in Parts III.A and III.B.
Our panel decision in this case relied
heavily on the affidavit that Pinkerman
submitted to the state habeas court. But
the whole point of that affidavit was to
aver facts that Pinkerman discussed with
Lucio’s trial counsel and that trial counsel
failed to proffer at trial. Recall that at
trial, Pinkerman did not offer to prove that
Lucio made false statements. See supra at
458 & n.2. Instead, he made a vague offer
to prove ‘‘how her demeanor TTT may be

477

understood by understanding and appreciating the psychological elements and previous history and background that she has
lived through.’’ ROA.15301. It’s precisely
because trial counsel did not solicit a better proffer that Pinkerman accused him of
ineffective assistance. Thus, according to
the Pinkerman affidavit, the trial court did
not violate her constitutional rights—her
trial counsel did. Lucio cannot now fault
the state courts for failing to adjudicate a
complete-defense claim based on facts that
the defense team failed to present.
[25] As for Villanueva, Lucio argues
that the state habeas court unreasonably
determined that she ‘‘proffered nothing to
indicate that she had any sort of specialized experience, knowledge[,] or training in
the areas of interpreting body language
and patterns of behavior during police interviews.’’ ROA.10091. In her expert-admissibility hearing, Villanueva testified on
direct examination that she had a master’s
degree in social work and was licensed to
diagnose and treat mental disorders. ROA.
4692. On cross-examination, she was asked
to identify ‘‘one treatise or one book’’ on
the ‘‘specialty’’ of ‘‘detect[ing] human
thought process through physical conduct.’’
ROA.4694–95. Villanueva conceded, ‘‘I’m
not a specialist in that area.’’ ROA.4695.
Villanueva’s testimony provided a reasonable basis for the state habeas court to
find that she lacked special expertise in
‘‘interpreting body language and patterns
of behavior’’ in the specific context of ‘‘police interviews.’’ Cf. Yount, 872 S.W.2d at
710 (‘‘Psychologists and psychiatrists are
not, and do not claim to be, experts at
discerning truth.’’ (quoting State v. Moran,
151 Ariz. 378, 728 P.2d 248, 255 (1986))).
Furthermore, to the extent Lucio’s argument challenges either (1) the state habeas
court’s application of Texas Rule of Evidence 702 or (2) the relevancy of this
evidence under the Federal Constitution, it

27a

478

987 FEDERAL REPORTER, 3d SERIES

suffers from the same defects as Lucio’s
arguments concerning Pinkerman’s opinion.
[26] Finally, Lucio challenges the state
habeas court’s determination that her
‘‘complaint about [the] exclusion of her
mitigation experts from the guilt-innocence
portion of the trial is nearly identical to
issues nine and ten raised on direct appeal.’’ ROA.10091. ‘‘The maxim is well established in this circuit that a party who
fails to make an argument before either
the district court or the original panel
waives it for purposes of en banc consideration.’’ Miller v. Tex. Tech Univ. Health
Scis. Ctr., 421 F.3d 342, 349 (5th Cir. 2005)
(en banc). Because Lucio failed to raise
this argument before the original panel, we
hold that it is forfeited.9
IV.
The various dissenting opinions contradict AEDPA, Supreme Court precedent,
and the record in this case. Indeed, the
dissents even contradict one another. If
the dissenters cannot agree amongst themselves, they cannot expect our court to
reach the level of certitude necessary to
grant habeas relief. Cf. Richter, 562 U.S.
at 103, 131 S.Ct. 770 (‘‘As a condition for
obtaining habeas corpus from a federal
court, a state prisoner must show that the
state court’s ruling on the claim being
presented in federal court was so lacking
in justification that there was an error well
understood and comprehended in existing
law beyond any possibility for fairminded
disagreement.’’ (emphasis added)). Four of
the dissenters’ arguments merit additional
responses.

A.
First, the dissenters spill much ink relitigating the facts. For example, Judge
Haynes emphasizes that ‘‘Lucio had trouble taking care of her many children.’’
Post, at 499 (Haynes, J., dissenting).
Judges Higginson and Higginbotham suggest Texas’s foster-care system is the
real culprit. Id. at 458 n.1 (Higginson, J.,
dissenting); id. at 490–93 (Higginbotham,
J., dissenting). Or perhaps two-year-old
Mariah killed herself. Id. at 499, 510–11
(Haynes, J., dissenting). Judges Haynes
and Higginson suggest that Officer Escalon badgered Lucio during the interrogation. Id. at 499–500 (Haynes, J., dissenting); id. at 517 n.4 (Higginson, J.,
dissenting). And all the dissenters have
much to say about how they’d weigh
Pinkerman’s testimony—notwithstanding
the stark differences between what Pinkerman says today and what he proffered
at trial, and notwithstanding the equally
stark differences between the roles of
federal judges and state jurors. See id. at
500–01, 503–04 (Haynes, J., dissenting);
id. at 496–97 (Elrod, J., dissenting); id.
at 493 (Higginson, J., dissenting); id. at
516 (Higginbotham, J., dissenting). Judge
Elrod captures the dissenters’ gestalt by
saying Lucio confessed to beating to
death her child and then framing the
question presented as: ‘‘But did she?’’ Id.
at 494.
AEDPA and Supreme Court precedent
squarely foreclose this entire enterprise.
Take for example Cavazos v. Smith, 565
U.S. 1, 132 S.Ct. 2, 181 L.Ed.2d 311 (2011)
(per curiam). A California jury convicted
Shirley Ree Smith of shaking to death her

9. Lucio also argues that the ‘‘state court’s
process for determining the facts’’ was ‘‘itself
unreasonable.’’ As Lucio acknowledges, that
argument is foreclosed by circuit precedent.
See Valdez, 274 F.3d at 951 (holding ‘‘that a
full and fair hearing is not a precondition to

28a

according § 2254(e)(1)’s presumption of correctness to state habeas court findings of fact
nor to applying § 2254(d)’s standards of review’’). We decline Lucio’s invitation to overturn Valdez.

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

7-week-old grandson. Id. at 2–5, 132 S.Ct.
2. At trial, the State called three experts
who testified about the horrific injuries
Smith inflicted on the baby. Id. at 3–5, 132
S.Ct. 2. The defense called two experts
who testified that the baby ‘‘died from old
trauma,’’ or perhaps the real culprit was
sudden infant death syndrome. Id. at 5,
132 S.Ct. 2. The Ninth Circuit reweighed
this evidence, found the State’s evidence
insufficient, and granted relief under
AEDPA. Id. at 6–7, 132 S.Ct. 2.
The Supreme Court summarily reversed. As to the evidence the jury heard,
it was the jury’s province—not the federal
court’s—to weigh it. See id. at 2, 132 S.Ct.
2 (‘‘Because rational people can sometimes
disagree, TTT judges will sometimes encounter convictions that they believe to be
mistaken, but that they must nonetheless
uphold. The Court of Appeals in this case
substituted its judgment for that of a California jury TTTT’’). And as to evidence the
jury did not hear—because Smith developed it after trial—that too failed to justify
relief under AEDPA:
The dissent’s review of the evidence presented to the jury over seven days is
precisely the sort of reweighing of facts
that is precluded by Jackson v. Virginia, 443 U.S. 307, 324 [99 S.Ct. 2781, 61
L.Ed.2d 560] (1979), and precisely the
sort of second-guessing of a state court
decision applying Jackson that is precluded by AEDPA, 28 U.S.C. § 2254(d).
The dissent’s views on how ‘adamantly’
experts would testify today as opposed
to at the time of trial are of course pure

479

speculation, as would be any views on
how a jury would react to less adamant
testimony.
Id. at 8 n.*, 132 S.Ct. 2 (quoting dissenting
opinion by Justice Ginsburg). Exactly the
same could be said about the dissents’
reweighing of the evidence submitted to
the jury (the conditions of Lucio’s home,
Officer Escalon’s interrogation tactics, &c.)
and their speculation about evidence not
submitted to the jury (from Pinkerman’s
post-trial affidavit).
And even if AEDPA allowed the dissenters to redo the jury’s job, the dissenters
could not cherry-pick the facts. For example, one dissenter tells us that Lucio had
‘‘issues with TTT income and housing’’ and
that she ‘‘could not pay her rent and was
about to lose her apartment.’’ Post, at 491
(Higginbotham, J., dissenting). The dissent
omits, however, that Lucio’s own expert
attributed those financial troubles to Lucio’s cocaine addiction. Villanueva testified
that Lucio received approximately $5,000
every month in food stamps. ROA.15637–
38. Yet her refrigerator was completely
empty. ROA.15637–38. That’s because—
again, according to Lucio’s own expert—
Lucio and Mr. Alvarez sold the food
stamps and spent the money on cocaine.
ROA.15636. Then they made the children
survive on one free meal a day at Loaves
and Fishes. ROA.15638.
It’s unclear what the dissenters hope to
achieve from their counterfactual narratives. But whatever the purpose, the effort
is foreclosed by AEDPA, Supreme Court
precedent, and the record.10

10. Amongst the most troubling of the dissents’
factual inaccuracies is their collective assertion that Lucio offered Pinkerman and Villanueva to ‘‘ ‘answer the one question every
rational juror needs answered: If [Lucio] is
innocent, why did [s]he previously admit h[er]
guilt?’ ’’ Post, at 486 (Haynes, J., dissenting)
(quoting Crane, 476 U.S. at 689, 106 S.Ct.
2142); see also id. at 495–96, 496–98 (Elrod,

29a

J., dissenting); id. at 515–16 (Higginson, J.,
dissenting); id. at 490–91 n.1 (Higginbotham,
J., dissenting). The dissenters cannot cite a
single page of the record that suggests Lucio
ever tried to justify admitting Pinkerman and
Villanueva for that purpose. To the contrary,
Lucio’s trial lawyers made the strategic decision that it was better to deny that Lucio ever
admitted her guilt rather than try to explain it

480

987 FEDERAL REPORTER, 3d SERIES

B.

All we’ve held is that Lucio has changed
her complete-defense claim over time.
That is an undisputed proposition. Lucio
herself recognized it in her state habeas
application. ROA.8029 n.36. Lucio conceded it in the district court. ROA.159.
Both sides recognized it before our court.
E.g., Director’s Opening En Banc Q & A 1–
8; Lucio’s Opening En Banc Q & A 1–11.
And because Lucio changed her argument
over time, we must analyze each claim as it
existed at the time Lucio presented it to
the state courts. See Henry, 513 U.S. at
366, 115 S.Ct. 887. That is hornbook law.

The dissenters appear to believe that a
state prisoner can raise different claims at
different times with different facts in the
state court, then smush them all together
into a single claim in federal court. This
belief has no basis in law. Consider for
example the Supreme Court’s canonical
decision in Rose v. Lundy, 455 U.S. 509,
102 S.Ct. 1198, 71 L.Ed.2d 379 (1982). In
that case, the state prisoner exhausted a
prosecutorial-misconduct claim in state
court. He based that claim on five comments the prosecutor made at trial. Id. at
511 & n.3, 102 S.Ct. 1198. When Lundy got
to federal court, however, he attempted to
broaden his claim to include additional
prosecutorial statements suggesting ‘‘that
the State’s evidence was uncontradicted.’’
Id. at 511, 102 S.Ct. 1198. The federal
district court allowed Lundy to lump together his separate claims into a single
prosecutorial-misconduct claim and then
considered them in the context of the trial
‘‘taken as a whole.’’ Ibid. The Supreme
Court reversed and held that state prisoners must ‘‘seek full relief first from the
state courts, thus giving those courts the
first opportunity to review all claims of
constitutional error.’’ Id. at 518–19, 102
S.Ct. 1198 (emphases added). The Court
noted that this rule ‘‘reduces piecemeal
litigation’’ by forcing prisoners to present
the state courts with an entire claim and
allowing the state courts to adjudicate it.
Id. at 520, 102 S.Ct. 1198 (emphasis in
original); see also Boerckel, 526 U.S. at
845, 119 S.Ct. 1728 (holding prisoners must
give state courts ‘‘a full and fair opportuni-

away. As one of Lucio’s lawyers told the jury
at closing: ‘‘She confessed to what? She confessed to bruising that child from head to foot.
She confessed to neglect. She didn’t confess
to murder.’’ ROA.4789. Lucio’s lawyers
could’ve changed that strategy or even made
inconsistent alternative arguments when proffering Pinkerman and Villanueva outside the
presence of the jury. But the defense decided

to maintain its no-confession theory to the
very end. AEDPA prevents us from secondguessing that trial strategy. See Pinholster,
563 U.S. at 190, 131 S.Ct. 1388 (holding that
federal courts apply ‘‘doubly deferential’’ review to the strategic choices of counsel (quotation omitted)); accord Knowles v. Mirzayance, 556 U.S. 111, 123, 129 S.Ct. 1411, 173
L.Ed.2d 251 (2009).

Next, the dissenters repeatedly accuse
us of ‘‘sua sponte’’ raising procedural arguments that the State waived. See post, at
498, 504–08 (Haynes, J., dissenting); id. at
494 n.1 (Elrod, J., dissenting); id. at 516 &
n.2 (Higginson, J., dissenting). For example, some dissenters criticize us for holding
that Lucio ‘‘procedural[ly] default[ed]’’ her
claims. Id. at 504–06, 507, n.9 (Haynes, J.,
dissenting). Other dissenters accuse us of
holding Lucio failed to ‘‘exhaust[ ]’’ her
claims. Id. at 494 n.1 (Elrod, J., dissenting). These accusations are quite odd. We
mention ‘‘default’’ only once above, and
only as a description of the Court of Criminal Appeals’ direct-appeal decision. See supra at 465–66. And we hold that Lucio did
exhaust her claims. See supra at 466–67 &
n.5; post, at 507–08 (Haynes, J., dissenting)
(agreeing with our exhaustion holding).
Our sua sponte procedural holdings are nil.

30a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

ty to resolve
claims’’).

federal

constitutional

This eliminates the dissenters’ various
procedural objections. As in Lundy, Lucio
certainly exhausted something. As in Lundy, the State concedes that here. As in
Lundy, we can only consider the claim as
Lucio exhausted it. And just as Lundy
precludes a prisoner from smushing together separate prosecutorial-misconduct
claims to create a new one that the state
never considered, it also precludes Lucio
from smushing together separate complete-defense claims to create a new one
that amalgamates her factual and legal
contentions at trial, on direct appeal, and
in state habeas. See also Pinholster, 563
U.S. at 181–82, 131 S.Ct. 1388 (holding the
relitigation bar’s ‘‘backward-looking language requires an examination of the
state-court decision at the time it was
made’’).11
It’s no answer to say that the Texas
courts were adjudicating the same complete-defense claim all along. Post, at 500–
01, 503–05 (Haynes, J., dissenting); id. at
516 (Higginson, J., dissenting). That’s for
two reasons.
11. Two of the dissenters suggest that Pinholster requires us to mix together the Pinkerman affidavit (from state habeas) and the
Crane claim (from Lucio’s direct appeal). See
post, at 505–06 (Haynes, J., dissenting); id. at
497 n.5 (Elrod, J., dissenting). Not so. Pinholster held ‘‘that review under § 2254(d)(1) is
limited to the record that was before the state
court that adjudicated the claim on the merits.’’ 563 U.S. at 181, 131 S.Ct. 1388. At the
time the state courts adjudicated Lucio’s
Crane claim on direct appeal, the Pinkerman
affidavit did not even exist. Nothing in Pinholster required the direct-appeal court to predict what Lucio and Pinkerman would file in
the future. And when Lucio and Pinkerman
eventually did file the affidavit during her
state habeas proceedings, nothing in Pinholster required the state habeas court to go back
in time and re-adjudicate the Crane claim that
Lucio already raised, especially given Lucio’s
express disclaimer of a Crane claim in her

481

First, Lucio’s claims are quite different—as she herself concedes. At trial, Lucio did not give the trial court the slightest
hint that admission of the PinkermanVillanueva testimony was compelled by the
Due Process Clause, Crane, or anything in
federal law. The trial court repeatedly
asked Lucio’s trial lawyer to explain the
basis for admitting the testimony. Counsel
never explained why the testimony mattered; never said anything about Lucio’s
constitutional right to present a complete
defense; never said anything about the
jury’s role in evaluating the credibility of
Lucio’s custodial statements; and never
said anything that could come close to
putting the trial court on notice that the
question involved anything other than
state evidentiary law.12 It was not until her
direct appeal that Lucio first invoked federal law, and even then she had to reimagine her trial proffer to do it. See Lucio, 351
S.W.3d at 900 (holding ‘‘[Lucio’s] claim on
appeal as to what Villanueva’s testimony
would have been does not comport with
Villanueva’s proffered testimony at trial’’);
id. at 902 (holding ‘‘[Lucio’s] claim on apstate habeas application. See Pinholster, 563
U.S. at 181–82, 131 S.Ct. 1388; ROA.8029
n.36.
12. The dissenters make much of the trial
court’s apparent absence from the courtroom
during trial counsel’s bill of particulars. See
post, at 500–01, 504 (Haynes, J., dissenting).
But they cite nothing to suggest the trial
court’s apparent absence violates any provision of state or federal law or any precedent
from any state or federal court. And if the
trial court was absent, that makes defense
counsel’s bill of particulars all the more indefensible. By hypothesis, Lucio’s trial lawyer
and Pinkerman could have put anything they
wanted in the record—unpoliced by an apparently absent trial judge. And still they failed to
say anything at all about Crane, the Due Process Clause, the complete-defense right, or
anything in federal law.

31a

482

987 FEDERAL REPORTER, 3d SERIES

peal as to what Pinkerman’s testimony
would have been does not comport with
Pinkerman’s proffered testimony at trial’’).
And her claims at trial and on direct appeal differed again from her claim in state
habeas, which added Pinkerman’s affidavit
but disclaimed any reliance on Crane.
Cases like Henry and Lundy squarely
foreclose Lucio from arguing one thing in
state court and another broader thing in
federal court. That’s not a ‘‘sua sponte’’
procedural holding; that’s application of
AEDPA to the different claims that the
state courts adjudicated on the merits at
the various times they adjudicated them.
Second, if the dissenters were right that
Lucio did offer the exact same argument
at all phases of her state-court proceedings, that would trigger a variety of procedural obstacles. As noted above, Texas has
well-established procedural rules that prohibit prisoners from raising the same claim
twice. See supra at 472 (citing Ex parte
Brown, 205 S.W.3d at 546). And if Lucio
violated that procedural rule by doing
what the dissenters think she did, she
would run headlong into the proceduraldefault doctrine. See, e.g., Coleman v.
Thompson, 501 U.S. 722, 750–51, 111 S.Ct.
2546, 115 L.Ed.2d 640 (1991). We have
refrained from applying that procedural
bar only to be accused of applying it anyway.
C.
Next, the dissenters offer competing
theories of Crane and AEDPA. Some dissenters think AEDPA does not apply to
Lucio’s Crane claim, so our review is de
novo. See post, at 498 n.3, 507–08 & n.10
(Haynes, J., dissenting). Others think
AEDPA’s relitigation bar applies but that
Lucio can overcome it because the state
court’s decision runs ‘‘contrary to’’ Crane.
See id. at 494–95 (Elrod, J., dissenting); 28
U.S.C. § 2254(d)(1). Still others think Lu-

cio can overcome the bar because the state
court ‘‘unreasonably applied’’ Crane. See
post, at 498 (Haynes, J., dissenting); 28
U.S.C. § 2254(d)(1). The dissenters agree,
however, that Lucio raised a ‘‘Crane claim’’
in her state habeas application—notwithstanding the fact that she expressly disclaimed any reliance on Crane in that very
application. See ROA.8029 n.36. The dissenters do not offer a single citation to
justify that novel habeas theory.
1.
Let’s start with the dissenters’ argument for de novo review. Those who defend the panel’s application of that standard contend that ‘‘the state habeas court
failed to adjudicate Lucio’s complete defense claim on the merits because it erroneously determined that Lucio raised a
state evidentiary challenge and rejected
that claim based on state evidentiary standards.’’ Post, at 508 n.10 (Haynes, J., dissenting).
Not so. Lucio argued in her state habeas
application that the trial court violated her
right to a complete defense because ‘‘the
evidence at issue here was not irrelevant
to the issue of [her] guilt or innocence.’’
ROA.8032. Lucio herself characterized the
claim as one of state evidentiary law. The
state habeas court addressed that argument head-on, finding no error in the exclusion of Pinkerman’s proffered testimony
because it ‘‘had no relevance to the question of [Lucio’s] guilt or innocence.’’ ROA.
10091. We struggle to see how resolving an
issue in the exact same terms presented
can constitute a failure to adjudicate it.
The principles of comity and federalism
that undergird the entirety of federal habeas for state prisoners dating back to
Reconstruction require closer attention to
the state-court litigation. So does the party-presentation principle that features so
prominently in the principal dissent. See

32a

483

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

post, at 507 (Haynes, J., dissenting) (describing ‘‘the Supreme Court’s admonition
in Sineneng-Smith’’ as warning courts not
to ‘‘step in on [their] own initiative’’ and
‘‘redo’’ the litigation).
2.
Next, consider the dissenters’ ‘‘contrary
to’’ argument. Judge Elrod reads Crane to
clearly establish the ‘‘bedrock rule’’ that
juries ‘‘must be allowed to hear competent,
reliable evidence bearing on the credibility
of a confession when such evidence is central to the defendant’s claim of innocence.’’
Post, at 496 (quotation omitted). She then
says the state court’s decision was ‘‘contrary’’ to this ‘‘bedrock rule.’’ See id. at
497. She concludes that this case and
Crane should come out the same way because they involve materially indistinguishable facts. See id. at 496–97 & n.3.
That analysis falters at every step.
Crane does not establish—much less clearly establish—a universal, freestanding
right to introduce competent and reliable
evidence challenging a confession’s credibility. The Supreme Court has repeatedly
so held. See Jackson, 569 U.S. at 509–10,
133 S.Ct. 1990; Egelhoff, 518 U.S. at 53,
116 S.Ct. 2013; accord supra at 468–69.
Rather, Crane holds that the wholesale
‘‘exclusion of this kind of exculpatory evidence’’ is constitutionally problematic ‘‘[i]n
the absence of any valid state justification.’’ Crane, 476 U.S. at 690, 106 S.Ct.
2142. That’s why the entire dispute in
Crane hinged on the adequacy of Kentucky’s justification for its blanket exclusion. See supra at 468–69. What was the
justification? ‘‘[E]stablished Kentucky procedure’’ made ‘‘a trial court’s pretrial voluntariness determination TTT conclusive.’’
Crane, 476 U.S. at 686, 106 S.Ct. 2142.
Crane held these two things—a blanket
evidentiary exclusion justified only by a
‘‘conclusive’’ pretrial determination of vol-

untariness—violate
Clause.

the

Due

Process

None of the state-court decisions in this
case were ‘‘contrary to’’ Crane’s holding.
Texas did not impose a categorical prohibition on evidence; it did not establish a
procedure for excluding evidence through
‘‘conclusive’’ pretrial rulings; and it justified the trial court’s decision as a minerun, discretionary evidentiary decision in
the face of a vacuous proffer by defense
counsel. That’s far afield from Crane.
[27] It’s no answer to say the state
court ‘‘failed to even identify the correct
legal principle.’’ Post, at 495 (Elrod, J.,
dissenting) (emphasis in original). The Supreme Court has repeatedly explained that
a state court need not cite any legal principle at all. See Richter, 562 U.S. at 98, 131
S.Ct. 770 (‘‘By its terms § 2254(d) bars
relitigation of any claim ‘adjudicated on
the merits’ in state court, subject only to
the exceptions in §§ 2254(d)(1) and (2).
There is no text in the statute requiring a
statement of reasons.’’); ibid. (‘‘As every
Court of Appeals to consider the issue has
recognized, determining whether a state
court’s decision resulted from an unreasonable legal or factual conclusion does not
require that there be an opinion from the
state court explaining the state court’s reasoning.’’). And where the state court offers
an explanation, it ‘‘need not cite or even be
aware of our cases under § 2254(d).’’ Ibid.
(citing Early v. Packer, 537 U.S. 3, 8, 123
S.Ct. 362, 154 L.Ed.2d 263 (2002) (per
curiam)).
[28] It’s also no answer to declare that
this case and Crane involve ‘‘materially
indistinguishable facts.’’ Post, at 496 (Elrod, J., dissenting). It is true that ‘‘here, as
in Crane, the trial court pointed to a rule
of evidence to find the testimony inadmissible.’’ Id. at 497. But at that level of
generality, every state-law evidentiary rul-

33a

484

987 FEDERAL REPORTER, 3d SERIES

ing in a criminal case implicates Crane.
Contra McGuire, 502 U.S. at 67, 112 S.Ct.
475. That’s why the Supreme Court has
warned us not to ‘‘fram[e] [its] precedents
at such a high level of generality.’’ Jackson, 569 U.S. at 512, 133 S.Ct. 1990; accord
post, at 489 (Southwick, J., concurring). In
fact, the Court summarily reversed our
sister circuit for doing exactly what the
dissenters propose here: ‘‘characterizing
the cases as recognizing a broad right to
present evidence bearing on TTT credibility.’’ Jackson, 569 U.S. at 512, 133 S.Ct.
1990 (quotation omitted).13
3.
The dissenters’ final Crane theory is
that the state courts unreasonably applied
that decision.
Judge Haynes contends that this case is
like Crane because in both cases a state
court ‘‘excluded testimony TTT [a]s irrelevant.’’ Post, at 512. It’s true that Crane
held that a state court cannot use a pretrial voluntariness ruling to justify the
blanket exclusion of exculpatory evidence
as ‘‘irrelevant.’’ 476 U.S. at 687, 106 S.Ct.
2142. But this case involves neither a pretrial voluntariness ruling nor a blanket
exclusion of anything. Instead, the trial
court admitted the type of evidence that
would have been excluded in Crane when

proffered by Lucio’s sister. See supra at
469–70. That proves the State in this case
did not have a blanket evidentiary prohibition, unlike in Crane. And it proves that
the trial court excluded Pinkerman and
Villanueva by applying a discretionary,
non-categorical evidentiary rule, unlike in
Crane.
[29] Next, Judge Haynes argues that
Crane applies to discretionary evidentiary
decisions because the Supreme Court has
not expressly held to the contrary. See
post, at 513 (‘‘[N]either Chambers nor
Crane holds that a defendant’s right to
present a complete defense applies only
when a state court excludes evidence
based on categorical evidentiary rules.’’).
But that gets the AEDPA relitigation inquiry backwards. Our task is not to determine whether Supreme Court precedent
possibly permits Lucio to argue what she
argued, but whether that precedent positively precludes the state court from holding what it held. See 28 U.S.C. § 2254(d);
Woods v. Etherton, ––– U.S. ––––, 136 S.
Ct. 1149, 1152, 194 L.Ed.2d 333 (2016) (per
curiam). The absence of precedent commands the denial of relief to a state prisoner, not the grant of it.
Next, Judge Haynes insists that Crane
applies to discretionary evidentiary decisions because the Supreme Court has so

13. Jackson notwithstanding, Judge Elrod objects to our ‘‘materially indistinguishable’’
analysis. She criticizes our ‘‘suggest[ion]’’ that
‘‘if the facts are not exactly the same, the
‘contrary to’ exception automatically fails.’’
Post, at 496 n.3. Of course, that’s not what we
say. We agree with Judge Elrod that AEDPA’s
‘‘contrary to’’ prong can be satisfied through
‘‘imposition of a contradictory standard’’ or
‘‘a ‘diametrically different’ conclusion on ‘materially indistinguishable’ facts.’’ Ibid. (quoting Terry Williams, 529 U.S. at 405, 120 S.Ct.
1495); see supra at 468–69. But we disagree
that Terry Williams or any other Supreme
Court precedent supports a ‘‘contrary to’’ argument in this case. As the Terry Williams

34a

Court itself explained, ‘‘[i]t is difficult TTT to
describe TTT a run-of-the-mill state-court decision as diametrically different from, opposite
in character or nature from, or mutually opposed to TTT our clearly established precedent.’’ 529 U.S. at 406, 120 S.Ct. 1495 (quotations omitted). And a run-of-the-mill statecourt evidentiary decision is exactly what we
have here. See supra at 469–72, 482–83. ‘‘Although the state-court decision may be contrary to the [dissenters’] conception of how
[Crane] ought to be applied in th[is] particular
case, the decision is not ‘mutually opposed’ to
[Crane] itself.’’ Terry Williams, 529 U.S. at
406, 120 S.Ct. 1495.

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

held. Judge Haynes acknowledges, as she
must, that Crane limited its holding to ‘‘the
blanket exclusion of the proffered testimony about the circumstances of petitioner’s
confession’’—but she suggests we should
ignore that limitation because it’s only
‘‘one line’’ in the Court’s opinion. Post, at
513 (emphasis added by Judge Haynes)
(quoting Crane, 476 U.S. at 690, 106 S.Ct.
2142). Of course, it is not true that Crane’s
limitations come from ‘‘one line’’ in the
opinion.14 And even if it was, Crane’s holding remains binding on us in all events.
It’s even more troubling to interpret
Montana v. Egelhoff as extending Crane
from blanket exclusions to discretionary
ones. See id. at 513–14. In Egelhoff, the
Montana Supreme Court interpreted the
Due Process Clause and Crane to establish
‘‘the right to present and have considered
by the jury all relevant evidence to rebut
the State’s evidence on all elements of the
offense charged.’’ 518 U.S. at 41–42, 116
S.Ct. 2013 (emphasis omitted) (quotation
omitted). The Supreme Court emphatically
reversed. See id. at 56, 116 S.Ct. 2013. We
are aware of no authority for turning the
Supreme Court’s rejection of one prisoner’s claim into clearly established law that
supports a second prisoner’s claim. Cf.
Nerio v. Evans, 974 F.3d 571, 575 (5th Cir.
2020) (holding a case rejecting one Fourth
Amendment claim does not clearly establish the law for another Fourth Amendment claim).
[30] Next, Judge Haynes asserts that
Crane applies because the state court’s
discretionary ruling was not actually dis-

485

cretionary. See post, at 513–14. The theory
seems to be that because Texas’s relevance
rule prohibits irrelevant evidence in absolute terms, state courts necessarily act
‘‘mechanistically’’ and with ‘‘no discretion’’
when they apply it. Ibid. Not so. Court
decisions are ‘‘discretionary’’ when they
‘‘involv[e] an exercise of judgment and
choice.’’ Discretionary, BLACK’S LAW DICTIONARY (11th ed. 2019). Both judgment
and choice obviously abound when it comes
to relevance determinations. Crane itself
recognizes that trial judges are ‘‘called
upon to make dozens, sometimes hundreds, of decisions concerning the [relevance] of evidence’’ in a given case. 476
U.S. at 689, 106 S.Ct. 2142. Crane further
recognizes that federal law gives judges
‘‘wide latitude’’ in making those decisions.
Ibid. (quotation omitted). And state law
does too. See Brown v. State, 96 S.W.3d
508, 511 (Tex. App.—Austin 2002, no pet.)
(‘‘Questions of relevance should be left
largely to the trial court, relying on its
own observations and experience, and will
not be reversed absent an abuse of discretion.’’ (quotation omitted)); see also post, at
502, 512, 513–14 (Haynes, J., dissenting)
(noting that the state habeas court reviewed the trial court’s evidentiary ruling
for abuse of discretion). We refuse to interpret the Due Process Clause to mean
otherwise.
In her last effort to liken this case to
Crane, Judge Haynes admits that the
cases are distinguishable. See post, at 503–
04. Judge Haynes seizes on the statement
in Crane that ‘‘evidence surrounding the

14. Crane is replete with references to the distinction between discretionary and categorical evidentiary rulings. See 476 U.S. at 689,
106 S.Ct. 2142 (‘‘We acknowledge TTT our
traditional reluctance to impose constitutional
constraints on ordinary evidentiary rulings by
state trial courts.’’); id. at 690, 106 S.Ct. 2142
(‘‘[W]e have never questioned the power of
States to exclude evidence through the appli-

35a

cation of evidentiary rules that themselves
serve the interests of fairness and reliability
TTTT’’); id. at 691, 106 S.Ct. 2142 (‘‘[S]ince
TTT Kentucky TTT has [not] advanced any rational justification for the wholesale exclusion
of this body of potentially exculpatory evidence, the decision below must be reversed.’’).

486

987 FEDERAL REPORTER, 3d SERIES

making of a confession bears on its credibility as well as its voluntariness.’’ 476
U.S. at 688, 106 S.Ct. 2142 (emphases added) (quotation omitted); see post, at 503–04,
508–09. From this statement, Judge
Haynes concludes that Lucio can disclaim
Crane’s voluntariness holding—as she did
in her state habeas petition—while nonetheless relying on its credibility holding to
support her complete-defense claim. See
post, at 503–04, 508–09.
AEDPA prohibits this argument too. On
direct appeal, Lucio characterized Crane
as a case about the voluntariness of confessions. See ROA.10841; post, at 503–04
(Haynes, J., dissenting). She recognized
that Crane applied the voluntariness requirement to police-created circumstances
like ‘‘how long the questioning lasted’’ and
‘‘how many policemen were there.’’ ROA.
10841. So she invited the Court of Criminal
Appeals to extend Crane’s reasoning to a
new form of involuntary interrogation
statements—namely, those affected by
battered woman syndrome. She did not,
however, base her direct-appeal Crane
claim on the theory that battered woman
syndrome made her statements less credible, or that it made her less likely to have
committed capital murder. That’s why the
Court of Criminal Appeals resolved Lucio’s
Crane claim in terms of voluntariness
alone: she hadn’t argued anything else. See
supra at 461.
In state habeas, Lucio’s understanding
of Crane remained unchanged. She cited
Crane only once—and only to disclaim any
reliance on it. After all, Lucio continued to
conceptualize Crane as a voluntariness
case that restricted a trial court’s ability to
exclude ‘‘evidence regarding the circumstances under which [a] confession [i]s taken.’’ ROA. 8029 n.36. And because Lucio
had changed her defense strategy from
challenging voluntariness to challenging
‘‘whether [she] was likely to have engaged

in ongoing abuse of Mariah’’ in the first
place, she no longer needed Crane. ROA.
8029 n.36. So, if we take Lucio at her word,
she was not trying to introduce expert
testimony to ‘‘answer the one question every rational juror needs answered: If [Lucio] is innocent, why did [s]he previously
admit h[er] guilt?’’ Contra post, at 498–99,
512–13 (Haynes, J., dissenting); post, at
494, 495–96 (Elrod, J., dissenting). Rather
than contesting the credibility of her statements, Lucio contended the Constitution
compelled the admission of Pinkerman’s
testimony because it ‘‘was relevant to TTT
demonstrating that [she] did not have the
propensity to commit violence against Mariah.’’ ROA.8033–34. Some might wish that
Lucio litigated the case differently. But we
are not free to condemn the state court for
addressing Lucio’s claims as she presented
them. See also supra at 479–80 n.10.
D.
Finally, the dissenters point to Scrimo v.
Lee, 935 F.3d 103 (2d Cir. 2019), and
Fieldman v. Brannon, 969 F.3d 792 (7th
Cir. 2020). See post, at 514–15 (Haynes, J.,
dissenting). Neither helps the dissenters.
Scrimo held that a state court violates
AEDPA when it ‘‘fails to extend a principle of clearly established law to situations
which that principle should have, in reason,
governed.’’ 935 F.3d at 112 (quotation
omitted); see also id. at 114 (reiterating
the failure-to-extend principle). Then Scrimo held the state court unreasonably
failed to extend Crane by excluding certain
witness testimony about drug deals. See
id. at 108–10, 120. This is unhelpful to the
dissenters for three reasons. First, no
member of our court agrees with the Second Circuit’s unreasonable-failure-to-extend reading of AEDPA. And that’s for
good reason—because the Supreme Court
has squarely and expressly repudiated it.

36a

487

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

See White, 572 U.S. at 426, 134 S.Ct. 1697
(rejecting ‘‘the unreasonable-refusal-to-extend rule on which respondent relies’’).
Second, far from supporting the dissenters, Scrimo holds ‘‘ ‘[a] court does not
unreasonably apply federal law in failing to
guess a theory of relevance that was not
argued at trial.’ ’’ 935 F.3d at 113 (quoting
Fuller v. Gorczyk, 273 F.3d 212, 222 (2d
Cir. 2001)); see also Corby v. Artus, 699
F.3d 159, 168 (2d Cir. 2012) (‘‘The state
trial judge was not required to read between the lines of counsel’s motion to divine a previously unasserted legal theory
TTTT’’ (cited and quoted in Scrimo, 935
F.3d at 113)). The fact that Scrimo’s lawyer apparently articulated a Crane-based
challenge to the exclusion of testimony in
his trial does nothing to help Lucio, whose
lawyer did not.
Third, when it came time to tackle specifics, the Second Circuit produced a rule
that looks nothing like the rules the dissenters (or we) set forth here. Compare
Scrimo, 935 F.3d at 115 (‘‘If the evidentiary ruling was correct pursuant to a state
evidentiary rule, TTT [w]e consider whether the evidentiary rule is arbitrary or disproportionate to the purposes it is designed to serve. On the other hand, if the
potentially exculpatory evidence was erroneously excluded, we must look to whether
the omitted evidence evaluated in the context of the entire record creates a reasonable doubt that did not otherwise exist.’’
(quotations omitted)), with post, at 509–10
(Haynes, J., dissenting) (‘‘[A] state court
violates a defendant’s right to present a
complete defense if (1) the excluded evidence was critical to the defense, and (2)
the state court failed to provide a rational
justification for its exclusion.’’ (citations
omitted)). The dissenters cannot claim to
embrace Scrimo because they reject all
three of these holdings.

They fare no better under Fieldman.
There, the Seventh Circuit held that ‘‘the
state trial court’s exclusion of Fieldman’s
testimony was a decision contrary to’’
Crane. 969 F.3d at 800. Or perhaps it
didn’t. See post, at 514 n.20 (Haynes, J.,
dissenting) (‘‘[A]lthough the court in Fieldman wrote that the state trial court’s adjudication was ‘contrary to’ clearly established law, the holding was in fact based
under the ‘unreasonable application’
prong.’’). We take no position as to whether the dissenters misunderstand Fieldman
or whether Fieldman misunderstands itself. Either way, Fieldman turned on the
state court’s exclusion of the defendant’s
own testimony when he took the stand at
trial. See 969 F.3d at 801. It’s well-settled—outside of Crane—that trial courts
cannot impose such limits on a defendant’s
own testimony. See, e.g., Rock, 483 U.S. at
49, 107 S.Ct. 2704. It’s also irrelevant to
this case.
* * *
The judgment of the district court is
AFFIRMED.
LESLIE H. SOUTHWICK, Circuit
Judge, joined by COSTA and WILLETT,
Circuit Judges, concurring:
I agree we should deny relief despite the
difficult issue of the exclusion of testimony
that might have cast doubt on the credibility of Lucio’s confession. That exclusion
was the key evidentiary ruling at trial.
Able colleagues in dissent have shown the
factual imperative that jurors hear this
testimony. Nonetheless, I cannot accept
the legal reasoning of the dissenting opinions. Instead, I conclude that current,
clearly established Supreme Court authority falls short of permitting us to reject the
state habeas court’s consideration of that
issue.
This separate opinion is offered despite
the analysis contained in the erudite prin-

37a

488

987 FEDERAL REPORTER, 3d SERIES

cipal opinion for the court. In a much more
thorough manner than here, it explains the
denial of relief. I am unable to join all that
is there and wish to explain my more
limited reasons to affirm.
The dissenters express well their view
that there was expert testimony that, if
jurors had only heard it, could have impacted the verdict. We are all, though,
working within the constraints of AEDPA.
Its premise is that someone who has received a criminal conviction in state court
has an initial means within the state-court
system to challenge the validity of the
conviction, then has a much more constrained means of challenging the statecourt decision in federal court.
Fundamentally for me, what is at issue
in the present appeal is whether a Supreme Court decision with language helpful to Lucio’s claims, relied on by the
dissenters but explained in other terms by
this court’s principal opinion, permits us to
conclude that the state court erred in rejecting this claim and then to correct the
error.
The precedent, of course, is Crane v.
Kentucky, 476 U.S. 683, 106 S.Ct. 2142, 90
L.Ed.2d 636 (1986). Its relevance is to the
exclusion of the expert testimony of Dr.
John Pinkerman and, less importantly, of
Ms. Norma Villanueva. It is now argued
that they would have explained for jurors
why someone like this defendant, after
hours of interrogation, would have falsely
admitted to killing someone. Because Lucio’s confession admitted to the essentials
of the indictment, it was imperative that
some doubt about the confession be created. The Crane decision certainly is helpful
on that claim, most explicitly when it stated that a state court cannot be ‘‘permitted
to exclude competent, reliable evidence
bearing on the credibility of a confession
when such evidence is central to the defendant’s claim of innocence.’’ Id. at 690, 106

S.Ct. 2142. Interpreting Crane as applied
to our facts, both to what happened at trial
and the proceedings since, is the difficult
part of this appeal.
Exhaustion of the claim is one issue. A
state prisoner must have ‘‘exhausted the
remedies available in the courts of the
State’’ on a claim before we may consider
it. 28 U.S.C. § 2254(b)(1)(A). It seems the
dissenters are correct that the State conceded that the issue is preserved. Regardless, in my view, exhaustion is not outcome-determinative.
The claim is that the state court unconstitutionally prevented the admission of reliable evidence bearing on the credibility of
a confession, and that this evidence was
central to the defendant’s claim of innocence. A constitutional right to its introduction is said to arise under Crane, a
decision predating the rulings in this case.
Thus, the state court allegedly reached ‘‘a
decision that was contrary to, or involved
an unreasonable application of, clearly established Federal law, as determined by
the Supreme Court of the United States.’’
§ 2254(d)(1). To preview the conclusion of
the analysis that follows, I state here that
the interpretation of Crane that is necessary for relief in this case is not clearly
established.
The principal opinion for the court already well explains that Crane reviewed a
decision by a state’s supreme court that
analyzed for the first time what a new rule
of state procedure meant as to juror consideration of confessions. See KY. R. CRIM.
P. 9.78 (repealed 2014). The state trialcourt judge determined prior to trial that
the confession was voluntary; at trial, the
court excluded evidence relating to voluntariness as not being relevant to the jury’s
function. Crane v. Commonwealth, 690
S.W.2d 753, 753–54 (Ky. 1985), rev’d, 476
U.S. 683, 106 S.Ct. 2142, 90 L.Ed.2d 636
(1986). The Kentucky Supreme Court

38a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

agreed with excluding evidence as to voluntariness because the new procedural
rule left it solely to the trial judge to
decide that issue, while jurors could consider other challenges. Id. at 754.
The Court held there were three flaws
in Kentucky’s evidentiary rule: (1) it found
no support in Supreme Court cases, (2) it
was based on a misconception of the role
of confessions at trial, and (3) ‘‘under the
circumstances of this case, TTT [it] deprived petitioner of his fundamental constitutional right to a fair opportunity to present a defense.’’ Crane, 476 U.S. at 687, 106
S.Ct. 2142. The Court quoted a precedent
that ‘‘evidence surrounding the making of
a confession bears on its credibility,’’ not
just on ‘‘its voluntariness.’’ Id. at 688, 106
S.Ct. 2142 (quoting Jackson v. Denno, 378
U.S. 368, 386 n.13, 84 S.Ct. 1774, 12
L.Ed.2d 908 (1964)).
The Court then identified a near consensus in the states as well as under federal
rules to allow all evidence about a confession to be submitted to jurors regardless
of a pretrial failure to suppress. Still,
‘‘even a consensus as broad as this one is
not inevitably congruent with the dictates
of the Constitution.’’ Id. at 689, 106 S.Ct.
2142. Important to my analysis of the opinion, the Court recognized that state trial
judges need to make countless evidentiary
decisions in a trial, and evidentiary rules
may be applied that ‘‘serve the interests of
fairness and reliability.’’ Id. The facts in
Crane easily permitted the Court to decide
that this ‘‘blanket exclusion TTT deprived
[Crane] of a fair trial.’’ Id.
The Supreme Court did not choose
among different possible constitutional
sources for its holding. It held that what
Kentucky was doing violated this defendant’s right for ‘‘a meaningful opportunity
to present a complete defense.’’ Id. at 690,
106 S.Ct. 2142 (quoting California v.
Trombetta, 467 U.S. 479, 485, 104 S.Ct.

489

2528, 81 L.Ed.2d 413 (1984)). There was
‘‘no new ground’’ being broken in saying
that the ‘‘opportunity to be heard’’ is fundamental to due process, and a component
of that is to permit the introduction of
‘‘competent, reliable evidence bearing on
the credibility of a confession when such
evidence is central to the defendant’s claim
of innocence.’’ Id.
One possible explanation of what was
‘‘clearly established’’ by Crane, even if not
with clarity, is that the decision invalidated
the application of any evidentiary rule that
creates a ‘‘blanket’’ bar to a category of
evidence and in the specific case prevented
a defendant from presenting a meaningful
defense. I agree with that sense of the
Court’s opinion. Another possibility is that
a federal court may grant relief based on
an everyday evidentiary ruling, such as the
one about relevance in this case, when that
ruling prevented a defendant from introducing evidence that can be characterized
as central to the defense. Based on Crane
itself and on other caselaw, my view is that
the opinion does not apply to a simple,
discretionary, even if errant, evidentiary
decision by a state-court judge. To make
every evidentiary ruling a potential issue
of constitutional dimension is beyond my
understanding of Crane.
Of particular importance to my conclusion about Crane, the Supreme Court has
emphasized — in this precise area of limits
on examination of witnesses — that lower
courts must be careful in defining ‘‘clearly
established law.’’ To conclude that its precedent supports a ‘‘broad right to present
‘evidence bearing on [a witness’] credibility,’ ’’ the Court held, was framing ‘‘clearly
established Federal law’’ at too ‘‘high [a]
level of generality.’’ Nevada v. Jackson,
569 U.S. 505, 512, 133 S.Ct. 1990, 186
L.Ed.2d 62 (2013) (first alteration in original). I find no Supreme Court opinion
holding that an error in the discretionary

39a

490

987 FEDERAL REPORTER, 3d SERIES

application of a general evidentiary standard is a constitutional violation.
Related precedents often have addressed a rule governing some evidentiary
category, starting with Chambers v. Mississippi, 410 U.S. 284, 302–03, 93 S.Ct.
1038, 35 L.Ed.2d 297 (1973), which concerned a bar to any evidence that ran afoul
of the common-law voucher rule; then
Rock v. Arkansas, 483 U.S. 44, 62, 107
S.Ct. 2704, 97 L.Ed.2d 37 (1987), in which
hypnotically refreshed testimony was inadmissible; later, United States v. Scheffer,
523 U.S. 303, 305, 118 S.Ct. 1261, 140
L.Ed.2d 413 (1998), which concerned a military evidentiary rule barring polygraph
results; and Holmes v. South Carolina,
547 U.S. 319, 331, 126 S.Ct. 1727, 164
L.Ed.2d 503 (2006), which involved a prohibition of any evidence of third-party guilt.
In summary, I conclude that Crane
overrides any blanket evidentiary rule that
prevented introduction in the particular
case of reliable, competent evidence central to the defense. For Lucio to succeed,
Crane must do more. Perhaps the Supreme Court will interpret Crane more
broadly, but I cannot, in light of what I
have expressed here, conclude that Crane
clearly established law helpful to Lucio.
My joining the refusal to allow relief in
this case comes from the interplay of my
interpretation of the limitations that AEDPA places on federal courts and my analysis of the limitations of Crane. This case,
though, is a clear example that justice to a
defendant may necessitate a more comprehensive review of state-court evidentiary
rulings than is presently permissible under
law that is established with sufficient clarity.
Patrick E. Higginbotham, Circuit Judge,
joining Judge Haynes’s dissent:
Dancing with words cannot mask the
reality that we execute few with means

and by metrics flowing from the pens of
judges faithfully drawing upon fealty to an
abstraction of our ‘‘federalism,’’ one that
screens the performance of poorly funded
state judicial systems—themselves victims
of political subscription to the death penalty while refusing to fund it. As the Court
majority upholds the ending of one life at
the hand of the state—Melissa Lucio’s,
now on death row for twelve years—it
perversely eases the slide to the end of the
death penalty. It does so with a hawking,
adversarial draw upon the jurisprudence of
capital punishment with springs at every
turn. This with a prosecution deeply
flawed from its inception and leaving our
hand as a failure at every level of government, shadowed by a threadbare narrative
leaving backstage Melissa’s story, including the role in her life of Texas’s Department of Family and Protective Services,
for good or naught. To these eyes, it need
not and should not have happened, as the
thoughtful dissenting opinions explain. I
here add a few lines to bring to the fore
Melissa’s life and her history with DFPS,
specifically Child Protective Services, a
history that frames this case.
I.
Melissa’s father abandoned his wife and
six children, leaving Melissa’s mother as
the family’s sole provider. Melissa’s mother was drawn to dalliances with men who
did not contribute to the family’s wellbeing, so care for Melissa and her siblings
often devolved to these men while their
mother struggled for their living. At age
six, Melissa suffered sexual abuse at the
hands of one of her mother’s live-in lovers.
This continued, with her mother’s acquiescence, until Melissa was eight years old.
Abuse would remain a feature of Melissa’s
relationships with the men closest to her.
At age sixteen, she dropped out of high
school to marry Guadalupe Lucio and bore

40a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

491

him five children by the time she turned
24. Guadalupe was a physically and emotionally abusive alcoholic, who abandoned
Melissa and his children in 1994. So too
was his successor Robert Alvarez, who,
among other reported incidents, publicly
punched Melissa. Yet on the night Mariah
died, after hours of interrogation, it was
Robert, not a lawyer, who Melissa asked
Ranger Escalante to see.1

that another of Melissa’s children, Sara,
tested positive for cocaine at birth. CPS
recorded additional charges of neglectful
supervision and physical neglect in 2004,
just prior to Mariah’s birth; CPS closed
those cases without taking any action. Mariah tested positive for cocaine shortly after her birth at Melissa’s home in September 2004.

CPS’s involvement with Melissa began
in 1995, when the agency charged her with
‘‘neglectful supervision’’ but took no action.
By 1998 at the latest, CPS was aware that
Robert in service of himself had introduced Melissa to cocaine. Between 1999
and 2000, CPS learned that with the birth
of Gabriel, both mother and child tested
positive for the drug. CPS records reflect
that in 2000, Melissa’s children told investigators that she, Robert, and another
adult male in the household were ‘‘using
drugs.’’ CPS conducted no investigation or
drug testing in connection with the 2000
report and left the children in Melissa’s
care.

CPS records indicate that Melissa was
directed to undergo substance abuse counseling and parenting courses, but the records reflect that she seldom remained with
these programs. Case notes consistently
reflect issues with Melissa’s income and
housing; CPS documented that the family
was homeless at least once. Case notes
also reflect CPS’s awareness of a consistent set of behavioral problems for the
Lucio children, including physical aggression to the point of violence and sexual
misbehavior. On more than one occasion,
there was evidence that the older children
had beaten their younger siblings, but
CPS made little, if any, inquiry into these
incidents.

CPS recorded two drug-related incidents with Melissa in November and December of 2001, as well as two apparently
separate incidents of ‘‘physical neglect.’’
Again, CPS performed no drug tests and
made no inquiry concerning the nature or
quantity of drugs involved. In 2002, CPS
recorded a charge of neglectful supervision
against Melissa, prompted by reports that
her young son had been seen in the street
‘‘chasing cars’’ and that several of her
daughters were engaged in inappropriate
sexual activity. In 2003, CPS was informed
1.

CPS removed Melissa’s children from
her care for a period spanning September
2004 to November 2006. In December
2006, with many of Melissa’s children just
returned to her from foster care, CPS’s
intervention was required again because
Melissa could not pay her rent and was
about to lose her apartment. CPS conducted a drug test—Melissa was negative—
and provided her with rent support. CPS
had no recorded visits with Melissa in

It is telling that at 3 a.m., after being denied
the opportunity to see Robert, Melissa said to
Escalante ‘‘I don’t know what you want me to
say. I’m responsible for it,’’ before making a
series of admissions that the State relied on as
a confession of responsibility for Mariah’s
death. At Escalante’s prompting, Melissa conceded that she spanked and pinched Mariah

41a

at times, without ever admitting to striking
the cranial blows that proved fatal. But overlooking the equivocal nature of her confession, Melissa was denied the opportunity to
explain why she would have taken responsibility for Mariah’s death if she did not inflict
the fatal injuries.

492

987 FEDERAL REPORTER, 3d SERIES

January or February 2007 prior to Mariah’s death.
These facts compel the observation that
the tragedy of Mariah’s death unfolded
against the depressingly familiar background of the State’s struggle with CPS’s
systemic failures, now documented in this
Court’s recent opinions.2 We there observed that DFPS, and by extension CPS,
have persisted in a state of ‘‘organizational
and administrative chaos’’ for decades resulting in an ‘‘epidemic of physical and
sexual abuse’’ among the thousands of children in its care;3 that ‘‘[w]here children
have reported abuse or neglect to the
agency, investigations are inadequate;’’
that DFPS sports a 75% error rate in its
investigations of abuse;4 that ‘‘DFPS’s inability to prevent abuse is exacerbated by
its incompetence in responding to incidents
once they have occurred.’’5

cases at a time, with caseworkers at the
upper end of the distribution handling 40,
sometimes 60.’’7 By the State’s own reckoning, these caseloads greatly exceed what
is practicable for any individual caseworker.8 As we previously recognized, ‘‘high
caseloads [ ] are a direct cause of high
turnover rates,’’ and ‘‘DFPS experiences
extraordinary turnover among caseworkers.’’9 By conservative estimates, ‘‘16% of
caseworkers leave in their first six months,
25% in their first year, and 43% in their
first two years.’’10 The high attrition rates
among caseworkers in turn ‘‘exacerbate
the caseload problem.’’11 With evidence
that these problems have been presented
to the State ‘‘repeatedly over the past two
decades,’’ this Court determined ‘‘that the
State is deliberately indifferent to the
risks posed by its policies and practices’’ to
the children in its care.12

As of 2019, there were roughly 51,000
children in DFPS’s legal care, with several
thousand more throughout Texas receiving
family preservation services.6 Its ‘‘caseworkers handle, on average, 28 children’s

In its long superintendence of Melissa,
DFPS never recorded or expressed concern that she physically abused any of the
children in her care. To its credit, despite
the difficulties of managing this large en-

2.

See M.D. by Stukenberg v. Abbott (Stukenberg
I), 907 F.3d 237, 260–68 (5th Cir. 2018); M.
D. by next friend Stukenberg v. Abbott (Stukenberg II), 929 F.3d 272, 281–93 (5th Cir. 2019)
(Higginbotham, J. concurring in part and dissenting in part).

3.

Stukenberg
II,
929
F.3d
at
284
(Higginbotham, J. concurring in part and dissenting in part).

4.

Stukenberg I, 907 F.3d at 292.

5.

Id. at 291.

6.

7.

See CPS Conservatorship: Children in DFPS
Legal Responsibility, TEXAS DEP’T OF FAM. &
PROTECTIVE SERVS., https://www.dfps.state.tx.us/
About DFPS/Data Book/Child Protective
Services/Conservatorship/Children in Conse
rvatorship.asp.
Stukenberg I, 907 F.3d at 290.

8.

‘‘DFPS produced a Work Measurement
Study, which concluded that ‘DFPS caseworkers expended an average of 9.7 hours per
month on case profiles most often associated
with PMC children, and that these workers
had an average of 137.9 hours per month to
spend on their casework.’ Dividing the average time available (137.9) by the average time
per case (9.7), each PMC caseworker could
handle a caseload of 14 children. On the basis
of the DFPS Study, the Special Masters recommended that the district court order DFPS
to implement a caseload standard in the
range of 14 to 17 PMC cases per caseworker.’’
Stukenberg I, 907 F.3d at 301.

9.

Id. at 260, 291.

10.

Id. at 291.

11.

Id. at 260.

12.

Id.

42a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

terprise,13 it recognized that Melissa’s
troubles centered on her inability to escape a succession of relationships with dominating and abusive men who to their
own ends, encouraged her use of cocaine, a
stimulant. That reality is strong footing for
Melissa’s claimed denial of the opportunity
to present a complete defense: that she
only tried to accept the blame for the acts
of others, a phenomenon of personality
produced by her own lifetime of abuse in a
world of abject poverty.
II.
This is not the story writ large. It is the
story drawn from the trial record—the
factual matrix against which the now assailed proffers of counsel and Dr Pinkerton were made. Their words take their full
meaning—not as an excised, freestanding
abstraction—but as they were laced into
the narrative fabric. Only with a walk
away from the developed facts of the full
record can the denial of Melissa’s sole
defense be shrunk into an ‘‘evidentiary
ruling’’ with its attending judicial discretion, one that, if rejected, it is then said
would bring a cascade of federal reviews of
state court rulings in defiance of federalism. But, of course, the walk away elides
the reality that even the nigh routine mat-

493

ters of the constitutional order must have
their factual footing.
The footing here for Melissa’s claim that
she was denied a complete defense cannot
be brushed aside with an assertion that the
trial court and hence the courts that followed were not put on notice. Facts matter. In this morality play of citizen decisions of life or death, the jury represents
the people, but they did not hear her defense.14 The trial court ruled that Melissa’s
proposed defense was irrelevant to the
question of her guilt or innocence, a ruling
that amounted to a complete rejection of
her defense, one not based on any deficiency in its presentation. For all the years
that CPS looked over her shoulder it never
found physical abuse; this child did not die
of neglect, but of violent blows to her head
so powerful as to produce fatal subdural
bleeding. Whether these injuries could
have been from a fall down the stairs or by
a stronger hand than Melissa’s was disputed. The jury was entitled to hear her
defense that it was not Melissa who struck
the blow. And as Melissa well knew, the
death of a child in her custody meant the
automatic removal of all children from her
custody, leaving her without support. It is
plain that, with a fair reading of this record, the Court steps on no sovereign interest of the state, as explained by the Supreme Court in Crane.

13. DFPS is a participant in a form of cooperative federalism through which the agency
receives well over $700 million in federal
funding, annually, representing roughly half
of the agency’s yearly budget. Stukenberg II,
929 F.3d at 290 (Higginbotham, J. concurring
in part and dissenting in part) (‘‘[R]oughly
half of the State’s child-welfare agency spending [is] covered by federal funds, over $730
million in fiscal year 2016.’’).
14. The defense of false confession has for
decades played a prominent role in exonerations. See Samuel Gross and Maurice Possley, For 50 Years, You’ve Had ‘‘The Right to
Remain Silent’’ So why do so many suspects

43a

confess to crimes they didn’t commit?, THE
MARSHALL PROJECT (June 12, 2016), https://
www.themarshallproject.org/2016/06/12/for50-years-you-ve-had-the-right-to-remainsilent. It is not an esoteric creation of the
defense bar, but a widely recognized phenomenon. See, e.g., Richard Leo, False Confessions: Causes, Consequences, and Implications, 37, J. Am. Acad. Psychiatry & L.
(September 2009), http://jaapl.org/content/37/
3/332. The State adopted one of the recommended responses to this problem by taping
the interrogation. But it ignored the recommendation that extended accusatorial tactics
be banned.

494

987 FEDERAL REPORTER, 3d SERIES

Jennifer Walker Elrod, Circuit Judge,
joined by Higginson, Circuit Judge,
dissenting:
Melissa Lucio is not without culpability.
Her young daughter, Mariah, endured a
shockingly violent life, suffering horrific
abuse that Lucio either perpetrated or tolerated. After Mariah’s death, a Texas jury
convicted Lucio of capital murder, and Lucio was sentenced to death.
Lucio now sits on death row. Twelve
jurors representing a cross-section of
Cameron County concluded that Lucio
killed her child, almost certainly because
Lucio—five hours into interrogation on the
night Mariah died—acceded to the interrogator’s pressing that she ‘‘did it.’’
But did she? At trial, Lucio was barred
from offering evidence to explain why she
would confess if she were innocent.
In America, the vilest offenders—including abusers and murderers of children—
are entitled to every protection that the
Constitution
guarantees.
The
Sixth
Amendment has been called ‘‘the heartland
of constitutional criminal procedure,’’ enshrining three clusters of rights so that criminal trials—designed to pursue truth and
protect innocence—are speedy, public, and
fair. See Akhil R. Amar, Sixth Amendment
First Principles, 84 Geo. L.J. 641, 641–43
(1996). And the Supreme Court has unanimously held that the right to be heard, an
indispensable element of a fair trial, for1.

bids the State from excluding, categorically, ‘‘competent, reliable evidence bearing
on the credibility of a confession when
such evidence is central to the defendant’s
claim of innocence.’’ Crane v. Kentucky,
476 U.S. 683, 690, 106 S.Ct. 2142, 90
L.Ed.2d 636 (1986). With confessions, content cannot be divorced from context.
That’s the lone issue in this case: Should
a capital defendant be allowed to explain to
a jury how to square her adamant profession of innocence today with her apparent
confession of guilt yesterday?
* * *
Lucio exhausted her complete-defense
claim in the state court,1 which rejected
the claim on the merits. Thus, under AEDPA, we may only grant habeas relief if that
rejection was ‘‘contrary to’’ or ‘‘an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States.’’ 28
U.S.C. § 2254(d)(1). The principal dissent
turns on the latter (‘‘unreasonable application’’), and I agree. I would go even further and say the adjudication was ‘‘contrary to’’ that law.
When is a state court decision a collision
versus a misapplication?
1 A decision is ‘‘contrary to’’ clearly
established Federal law ‘‘if the state
court arrives at a conclusion opposite
to that reached by [the Supreme]
Court on a question of law or if the

The plurality opinion makes much of how
Lucio phrased her claims throughout the various pleading stages. But as my fellow dissenters have emphasized, the State affirmatively
waived any exhaustion arguments by (1) expressly stating before the district court that
‘‘Lucio raised this claim in state habeas proceedings,’’ (2) analyzing and arguing against
the merits of Lucio’s complete-defense claim
(applying the same Supreme Court cases that
Lucio now asks us to consider), and (3) expressly raising an exhaustion defense against
some of Lucio’s claims but not the complete-

44a

defense claim. See Carty v. Thaler, 583 F.3d
244, 256 (5th Cir. 2009) (explaining that a
waiver of exhaustion must be express but that
AEDPA ‘‘does not require ‘magic words’ ’’);
id. (finding express waiver of exhaustion on
appeal where the State argued in the district
court that one claim—not at issue on appeal—was not exhausted but did not raise the
same argument with respect to other claims).
‘‘Clearly,’’ the State ‘‘considered exhaustion
as a defense and chose not to exercise that
defense.’’ Id.

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

state court decides a case differently
than [the Supreme] Court has on a
set of materially indistinguishable
facts.’’ Williams v. Taylor, 529 U.S.
362, 413, 120 S.Ct. 1495, 146 L.Ed.2d
389 (2000) (emphasis added).
1

A decision is an ‘‘unreasonable application’’ of Federal law ‘‘if the state
court identifies the correct governing
legal principle from [the Supreme]
Court’s decisions but unreasonably
applies that principle to the facts of
the prisoner’s case.’’ Id.

In my view, the state court failed to
even identify the correct legal principle,
let alone apply it, reasonably or otherwise.2
I
As all agree, Crane v. Kentucky, 476
U.S. 683, 106 S.Ct. 2142, 90 L.Ed.2d 636
(1986), is our North Star. I recap the facts
at length to underscore exactly what the
Supreme Court considered and what it did
not. And to make clear that today’s case is
about applying Crane, not extending it.
In Crane, the petitioner moved to suppress his confession to murder. Id. at 684–
85, 106 S.Ct. 2142. The trial court determined that the confession was made voluntarily and denied the motion. Id. at 685,
106 S.Ct. 2142. Then, at trial, petitioner
sought to introduce testimony regarding
the physical and psychological environment in which the State obtained the confession for the purpose of demonstrating
that the confession was ‘‘unworthy of belief.’’ Id. The trial court determined that
this testimony pertained exclusively to the
issue of whether his confession was voluntary—which, under a Kentucky evidentiary rule, could not be re-adjudicated—and
deemed it inadmissible. Id. at 686, 106
2.

495

S.Ct. 2142. The Court heard the case to
determine ‘‘whether the exclusion of testimony about the circumstances of the confession violated petitioner’s rights under
the Sixth and Fourteenth Amendments to
the Federal Constitution’’—the ‘‘constitutional right to a fair opportunity to present
a defense.’’ Id. at 686–87, 106 S.Ct. 2142.
The Court began by explaining the importance of the right to challenge the credibility of a confession. It noted that ‘‘the
Court has never questioned that evidence
surrounding the making of a confession
bears on its credibility’’ and that ‘‘the defendant[ has a] traditional prerogative to
challenge the confession’s reliability during
the course of the trial.’’ Id. at 688, 106
S.Ct. 2142 (internal quotation and emphasis omitted). See also Lego v. Twomey, 404
U.S. 477, 485–86, 92 S.Ct. 619, 30 L.Ed.2d
618 (1972) (‘‘A defendant has been as free
since Jackson[ v. Denno, 378 U.S. 368, 84
S.Ct. 1774, 12 L.Ed.2d 908 (1964),] as he
was before to familiarize a jury with circumstances that attend the taking of his
confession, including facts bearing upon its
weight and voluntariness.’’). That’s why
the Court ‘‘has expressly assumed that
evidence about the manner in which a confession was secured will often be germane
to its probative weight, a matter that is
exclusively for the jury to assess.’’ Crane,
476 U.S. at 688, 106 S.Ct. 2142.
The relevance of this evidence is not
limited to assessing a confession’s voluntariness; the circumstances surrounding a
defendant’s incriminating statements ‘‘can
also be of substantial relevance to the ultimate factual issue of the defendant’s guilt
or innocence.’’ Id. at 688–89, 106 S.Ct.
2142. There is a simple reason for this. As
the Court explained, a confession does not
necessarily mean guilt: ‘‘as with any other

The state court rejected Lucio’s completedefense argument because, the court reasoned, her claim was ‘‘nearly identical to [the

45a

issues] raised on direct appeal,’’ and the trial
court did not abuse its discretion in excluding
Dr. Pinkerman’s testimony.

496

987 FEDERAL REPORTER, 3d SERIES

part of the prosecutor’s case, a confession
may be TTT unworthy of belief.’’ Id. at 689,
106 S.Ct. 2142 (internal quotation omitted).
Thus, the Court stressed, if the defendant
is barred from presenting testimony regarding the circumstances of his confession, he is ‘‘stripped of the power to describe to the jury the circumstances that
prompted his confession, [and] the defendant is effectively disabled from answering
the one question every rational juror needs
answered: If the defendant is innocent,
why did he previously admit his guilt?’’ Id.
The Court went on to acknowledge that
it has a general ‘‘reluctance to impose constitutional constraints on ordinary evidentiary rulings by state trial courts,’’ and it
emphasized that it had ‘‘never questioned
the power of States to exclude evidence
through the application of evidentiary
rules that themselves serve the interests of
fairness and reliability.’’ Id. at 689–90, 106
S.Ct. 2142 (emphasis added) (citing Chambers v. Mississippi, 410 U.S. 284, 302, 93
S.Ct. 1038, 35 L.Ed.2d 297 (1973)). But
given the facts of the case, it had ‘‘little
trouble concluding’’ that the ‘‘blanket exclusion of the proffered testimony about
the circumstances of petitioner’s confession
deprived him of a fair trial.’’ Id. at 690, 106
S.Ct. 2142.
As the unanimous Crane Court put it,
‘‘the Constitution guarantees criminal defendants ‘a meaningful opportunity to
present a complete defense.’ ’’ Id. (quoting
California v. Trombetta, 467 U.S. 479, 485,
104 S.Ct. 2528, 81 L.Ed.2d 413 (1984)).
3. Williams, 529 U.S. at 406, 120 S.Ct. 1495
(explaining the key inquiry is whether the
facts are ‘‘materially indistinguishable’’); cf.
Panetti v. Quarterman, 551 U.S. 930, 953, 127
S.Ct. 2842, 168 L.Ed.2d 662 (2007) (‘‘AEDPA
does not require state and federal courts to
wait for some nearly identical factual pattern
before a legal rule must be applied.’’ (citation
omitted)). The plurality opinion suggests that
if the facts are not exactly the same, the

And it added this admonition: ‘‘That opportunity would be an empty one if the State
were permitted to exclude competent, reliable evidence bearing on the credibility of
a confession when such evidence is central
to the defendant’s claim of innocence.’’ Id.
Therefore, the Court held, ‘‘[i]n the absence of any valid state justification, exclusion of this kind of exculpatory evidence
deprives a defendant of the basic right to
have the prosecutor’s case encounter and
survive the crucible of meaningful adversarial testing.’’ Id. at 690–91, 106 S.Ct.
2142 (citation omitted).
So that’s the bedrock rule we’re applying: The jury must be allowed to hear
‘‘competent, reliable evidence bearing on
the credibility of a confession when such
evidence is central to the defendant’s claim
of innocence.’’ Id. at 690, 106 S.Ct. 2142.
And that’s the bedrock rule Lucio argues
the state court contravened.
II
In my judgment, the state court flouted
Crane when it rejected Lucio’s completedefense claim by excluding Dr. Pinkerman’s testimony as having ‘‘no relevance to
the question of [Lucio’s] guilt or innocence.’’ In Crane, on materially indistinguishable facts, the Supreme Court expressly foreclosed this conclusion.3 Here,
as in Crane, the State’s case relied principally on the defendant’s inculpatory statements to argue that she committed the
crime.4 If the confession was false, then
‘‘contrary to’’ exception automatically fails,
even though there are two ways in which the
‘‘contrary to’’ prong can be satisfied: imposition of a contradictory standard (as occurred
here) or a ‘‘diametrically different’’ conclusion on ‘‘materially indistinguishable’’ facts
(which also occurred here). See Williams, 529
U.S. at 405, 120 S.Ct. 1495.
4.

46a

For instance, the State’s closing argument
stressed that it is ‘‘unbelievable’’ that Lucio

497

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

the State’s case crumbles. Also here, as in
Crane, the trial court pointed to a rule of
evidence to find the testimony inadmissible. The Crane Court unanimously held
that trial courts commit constitutional error when they make such a determination.
The rule again: A trial court cannot reject ‘‘competent, reliable evidence bearing
on the credibility of a confession when
such evidence is central to the defendant’s
claim of innocence.’’ Crane, 476 U.S. at
690, 106 S.Ct. 2142. There is no question
that Dr. Pinkerman’s proffered testimony
was ‘‘reliable’’ and ‘‘competent’’—neither
party, nor the court, challenged his qualifications. And Dr. Pinkerman’s testimony
regarding the credibility of Lucio’s supposed confession is central to her defense.
Lucio sought to argue that she only confessed to causing Mariah’s injuries because
she suffers from Battered Woman Syndrome and often takes blame for things
that are not her fault, particularly when
under the control of a male figure (here,
Officer Escalon).5 Without Lucio’s confession, the State had no direct evidence that
she hit Mariah in the head, causing the
fatal injury. The rule in Crane is clear; yet
the state court declined to apply it.
Federal habeas relief isn’t for correcting
run-of-the-mill state law errors. But it is

for correcting a state court’s evidentiary
ruling that violates a defendant’s weighty
interest in meaningfully presenting to the
jury her version of the facts, particularly
the circumstances surrounding her ‘‘confession,’’ the State’s strongest piece of evidence.
Crane’s holding clearly established that
a court may not exclude reliable testimony
regarding the credibility of a confession
where that evidence is central to the defendant’s innocence claim. Dr. Pinkerman’s
proffered testimony was reliable. It spoke
to the credibility of Lucio’s confession. And
the credibility (or lack thereof) of Lucio’s
confession was central to her claim of innocence. She had a constitutionally enshrined
right to present her complete defense. And
without her expert, she was categorically
denied the ability to scientifically explain
about how Battered Woman Syndrome
played a role in her supposed confession.
* * *
Mariah suffered appalling abuse, including at the hands of her mother. Lucio is
not without blame. But neither is she without rights. And the Sixth Amendment protects Lucio’s right to put on her defense.

caused Mariah’s other injuries—to which Lucio had confessed—but that she never hit Mariah in the head. Because Lucio confessed to
otherwise harming Mariah, the State argued,
‘‘the inference is clear that she caused [the
head] injuries because it’s consistent. It’s consistent with her behavior. It’s consistent with
her pattern of conduct towards this child.’’
Lucio must have delivered the final blow.
5.

The plurality opinion notes that Dr. Pinkerman’s affidavit concerning the circumstances
of Lucio’s interrogation and her experience
with Battered Woman Syndrome was not presented during the original proffer at trial. See
Pl. Op. at 471–72, 477. But, as the principal
dissent explains, that affidavit is not precluded from our review. The State conceded as

47a

much in its response to our en banc questions, stating ‘‘Cullen v. Pinholster, 563 U.S.
170, 180, 131 S.Ct. 1388, 179 L.Ed.2d 557
(2011), indicates that this Court may also
consider Dr. Pinkerman’s 2010 affidavit because it was part of the record in the state
court.’’ In Cullen, the Supreme Court held
that our review ‘‘is limited to the record that
was before the state court that adjudicated
the claim on the merits.’’ 563 U.S. at 181, 131
S.Ct. 1388. Here, we are asking whether the
state-court adjudication of Lucio’s completedefense claim was contrary to clearly established law; therefore, we must review ‘‘the
record in existence at that same time i.e., the
record before the state court.’’ Id. at 182, 131
S.Ct. 1388 (emphasis added). That record included Dr. Pinkerman’s affidavit.

498

987 FEDERAL REPORTER, 3d SERIES

Sound criminal procedure must adhere
to sacred first principles. The Supreme
Court is rightly exacting in death penalty
cases, and Lucio has a constitutional right
to present a complete defense. In my view,
the state court disregarded clearly established federal standards and ignored materially indistinguishable Supreme Court
precedent.
With great respect, I dissent.
HAYNES, Circuit Judge, joined by
HIGGINBOTHAM, STEWART,
DENNIS, ELROD, GRAVES, and
HIGGINSON, Circuit Judges, dissenting:
Is the conclusion that evidence refuting
the core of the State’s case against the
defendant is irrelevant an unreasonable
application of clearly established Supreme
Court precedent? Yes. Period. That is the
crux of why the district court erred in
rejecting Lucio’s complete defense claim.
Unfortunately, the plurality opinion 1
drives down numerous backroads untraversed by the parties, basing its affirmance
largely on issues that were never raised by
either party and necessitating a lengthier
response in this opinion. The plurality
opinion makes procedural arguments on
the State’s behalf that the State clearly
1.

It is ironic that the plurality opinion claims
that the dissenting opinions disagree with
each other when, in fact, the exact same number of judges join this dissenting opinion (7)
as join the plurality opinion (7).

2.

As the plurality opinion states, Lucio also
challenges the trial court’s refusal to allow a
different expert, Norma Villanueva, to testify.
Because of my conclusions regarding Pinkerman, it is not necessary to examine whether
the state habeas court’s adjudication of Lucio’s complete defense as it relates to Villanueva involved an unreasonable application
of Crane and Chambers.

3.

I address this case applying AEDPA deference because the majority of our en banc
court (several members of our court who conclude that Lucio should prevail as well as

(and intentionally) waived, ignoring the Supreme Court’s recent reminder that we are
‘‘passive instruments of government’’ that
should ‘‘decide only questions presented by
the parties.’’ United States v. SinenengSmith, ––– U.S. ––––, 140 S. Ct. 1575,
1579, 206 L.Ed.2d 866 (2020) (internal quotation marks and citation omitted). In addressing only those issues properly before
us, I conclude that the state habeas court’s
adjudication of Lucio’s complete defense
claim with regard to expert witness Pinkerman 2 involved an unreasonable application of Crane v. Kentucky, 476 U.S. 683,
106 S.Ct. 2142, 90 L.Ed.2d 636 (1986), and
Chambers v. Mississippi, 410 U.S. 284, 93
S.Ct. 1038, 35 L.Ed.2d 297 (1973).3 Pinkerman’s testimony would have explained Lucio’s tendency to take blame for everything
that goes on in the family and refuted the
State’s core ‘‘evidence’’ of Lucio’s guilt: her
interrogation statement characterized by
the State as her ‘‘confession.’’ The testimony thus would have ‘‘answer[ed] the one
question every rational juror need[ed] answered’’ before determining Lucio’s innocence: ‘‘If [Lucio] is innocent, why did
[s]he previously admit h[er] guilt?’’ Crane,
476 U.S. at 689, 106 S.Ct. 2142. The state
trial court erroneously excluded the testi-

48a

those in the plurality opinion) have determined that the state habeas court did adjudicate the merits of Lucio’s complete defense
claim. I, however, continue to subscribe to
the panel opinion’s conclusion that Lucio’s
complete defense claim merits de novo review
because she exhausted her claim in state
court and the state court failed to adjudicate
her claim on the merits. Under de novo review, the state trial court denied Lucio of her
right to present a complete defense when it
prevented Pinkerman from testifying. Some
judges joining in this dissent join in this footnote; some do not. But, under either standard
of review, the result is the same: the district
court erred in denying Lucio federal habeas
relief.

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

mony as irrelevant, and the state habeas
court in turn unreasonably applied Supreme Court precedent in concluding that
the exclusion did not violate Lucio’s right
to present a complete defense. For these
reasons, I respectfully dissent from the
plurality opinion’s judgment, and I would
reverse the district court’s order denying
Lucio’s federal habeas claim and remand
for the district court to grant Lucio relief.
I.
A.

Background

Factual Background 4

Lucio lived in an apartment accessed by
a steep exterior staircase with her husband, Robert Alvarez, and nine of her
children. See Lucio v. State, 351 S.W.3d
878, 880 & n.1 (Tex. Crim. App. 2011).
Lucio had trouble taking care of her many
children: Lucio’s older children were ‘‘aggressive to the point of becoming violent,’’
and Lucio had difficulty disciplining her
children. Mariah, Lucio’s youngest, developed behavioral issues; she would hit her
head when having tantrums. A few months
later, paramedics responded to a call to
Lucio’s home and found Mariah dead,
‘‘face up on the floor’’ and with Lucio,
Robert, and a number of children nearby.
Lucio told the paramedics that Mariah
‘‘fell down the stairs,’’ and Lucio was taken
in by police for questioning.
Lucio’s interrogation on the night her
daughter was found dead was not as
straightforward as the plurality opinion
suggests. See Plurality. Op. at 457. Her
interrogation was over five hours long,
lasting from before 10:00 p.m. to after 3:00
a.m. For the first three hours, Lucio maintained that, although she sometimes
spanked her children, she did not hit or
abuse Mariah, and she did not know who

499

caused Mariah’s injuries. She also described Mariah’s physical condition leading
up to her death: Mariah was ‘‘sick’’ on the
Saturday that she died and the Friday
before, but Lucio did not take Mariah to
the doctor. Mariah would not eat, and her
breathing was heavy. She slept all day
Saturday, and she would lock her teeth
together when Lucio would try to feed her.
More than three hours after the interrogation began, after 1:00 a.m., Texas Ranger Victor Escalon entered the room and
told Lucio—in a long, mostly one-person
exchange—that the officers needed her
story and that everyone would understand
if she had hurt her daughter. At that point,
Lucio told Escalon that she wanted a cigarette and wished to talk to her husband.
Escalon told her that she could do those
things after he took her statement. Escalon then asked Lucio, repeatedly, to tell
him ‘‘everything.’’
Lucio eventually told Escalon that she
‘‘would spank [Mariah], but [Lucio] didn’t
think [she] would spank her, to where TTT
to where it got to this point.’’ Escalon
prompted Lucio for more detail, but she
responded, ‘‘I don’t know what you want
me to say. I’m responsible for it.’’ At Escalon’s suggestion, Lucio agreed that the
spanking was ‘‘all over [Mariah’s] body.’’
She maintained that she was not angry at
Mariah but was ‘‘frustrated’’ by the other
kids who were ‘‘very hyper,’’ making it
difficult to take care of them all. She also
stated that she bit Mariah one day while
tickling her; she did not know why she did
it. While making these statements, Lucio
continued to maintain that she had not hit
Mariah in the head and had only spanked
her.

4. This opinion does not engage in ‘‘relitigating’’ facts or ‘‘weighing evidence.’’ Plurality
Op. Section IV.A. The reason to include a
recitation of the facts is to understand why

49a

the absence of evidence is critical here. The
jury was deprived of key evidence to weigh:
that is the point.

500

987 FEDERAL REPORTER, 3d SERIES

Lucio also stated that no one else was
responsible for Mariah’s injuries and that
she was the only one who spanked her.
As the interrogation progressed, Escalon identified specific bruising on Mariah
and asked Lucio to tell him how it happened. Lucio usually responded that she
did not know how the bruises occurred and
often said she that did not hit Mariah in
particular spots. When Escalon insisted
that Lucio was responsible for specific
bruises, she responded, ‘‘I guess I did it.’’
She suggested that some of Mariah’s other
injuries, like scratches, could have been
caused by her other daughters. For some
of the bruises, Lucio said she was the one
who caused them, and said she would
sometimes spank Mariah when she woke
up other kids.
Escalon then had Lucio take a break at
1:22 a.m. After the break, officers took
DNA samples from Lucio, then took another break.
At 3:00 a.m., Escalon resumed the interrogation. He brought in a doll to have
Lucio show him how she bit and spanked
Mariah. When Lucio was showing Escalon
how she bit Mariah, Escalon asked if she
was angry at Mariah. She said no, explained that she was frustrated with the
other kids, and described how she bit Mariah after she finished brushing Mariah’s
hair. When asked why she bit Mariah,
Lucio said, ‘‘I just did it.’’ Escalon then
asked Lucio to show how she spanked
Mariah. When she demonstrated, Escalon
told her, ‘‘Well do it real hard like TTT like
you would do it.’’ When she said that her
demonstration was how hard she spanked
Mariah, Escalon himself performed what
he thought was a hard spank and had
Lucio demonstrate again. He identified
several sets of bruises and had her spank
the doll in those areas to demonstrate how
she would have spanked Mariah.

At Lucio’s trial for capital murder, the
State’s theory of the case depended on two
critical points. First, the State sought to
prove that Mariah’s death was caused by a
fatal blow to the head that could not have
been sustained from Mariah falling down
the stairs, using a forensic pathologist who
testified that a fall would not have caused
the injuries in question.
Second, the State used Lucio’s ‘‘confession’’ to support the conclusion that she
killed Mariah. The State introduced the
videos of Lucio’s interrogation the first
day of trial; the state court admitted the
videos into evidence and they were immediately played for the jury. The State later
put Escalon on the stand, and he testified
about Lucio’s demeanor during the interrogation. Escalon described Lucio’s demeanor as indicating that she was saying,
‘‘I did it.’’ During its closing argument, the
State characterized Lucio’s admission as a
‘‘confession’’ that proved beyond a reasonable doubt that Lucio killed Mariah. The
State emphasized that Lucio ‘‘did make the
statement and the statement that she
made was the true and correct statement
at the end. She admitted it. She admitted
that she caused all of the injuries to that
child.’’ The State also highlighted Lucio’s
demeanor during the interrogation, rhetorically asking why she would look or act a
certain way if all she did ‘‘was physically
beat the child, but didn’t cause the death.’’
It also referenced Escalon’s testimony that
Lucio’s demeanor indicated she was ‘‘hiding the truth.’’
Lucio tried to defend against both
points. First, she called a neurosurgeon
who testified that the blunt force trauma
causing Mariah’s death could have resulted
from falling down stairs. During closing
arguments, Lucio’s counsel argued that
the State failed to overcome reasonable
doubt because evidence indicated that Ma-

50a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

riah’s fatal injury could have resulted from
falling down stairs.
Second, Lucio wanted to present two
expert witnesses to testify that her supposed confession was not trustworthy, but
the state trial court did not let them testify. One of the experts was Dr. John Pinkerman, a psychologist who would have testified about Lucio’s psychological issues
that cause her to take ‘‘blame for everything that goes on in the family.’’5 He
formed his opinion after reviewing the interrogation tapes, meeting with Lucio on
four occasions, reviewing her history, and
administering various psychological tests
to her. The state trial court prevented
Pinkerman from testifying, not due to any
lack of qualifications as an expert but because the judge considered the testimony
irrelevant because Lucio ‘‘denied ever having anything to do with the killing of the
child.’’ The state trial court permitted
Pinkerman to submit a bill of particulars,
but the judge left the courtroom after
swearing Pinkerman in, not waiting to listen to Pinkerman’s proffer.
Beyond her medical expert and the two
excluded experts, Lucio called one defense
witness and recalled one of the State’s
witnesses. Lucio’s defense witness was her
sister, Sonia Chavez, who testified that
Lucio ‘‘never disciplined her children.’’ The
recalled witness was Joanne Estrada, a
child protective services worker. Estrada
was asked about whether she had reviewed
documents that showed that Mariah had
tantrums while in foster care and had hit
her head on the floor. Estrada testified
that she had not come across anything in
Lucio’s file that showed she was ‘‘physically abusive to any of the children.’’ Lucio
presented no other witnesses.
5.

501

In closing argument, the State, citing
only Lucio’s interrogation statements as
evidence, contended that Lucio must have
killed Mariah because she abused her. It
argued that ‘‘there [wa]s no reasonable
doubt that [Lucio] killed that little girl’’
because the jury had ‘‘[h]er confession.’’
Ultimately, Lucio was convicted and sentenced to death.
B. Subsequent Appeals & Petitions
For Post-Conviction Relief
Lucio appealed her conviction, raising
several points of error, but the Texas
Court of Criminal Appeals affirmed. Lucio,
351 S.W.3d at 910. On appeal, the State’s
argument continued to rely on Lucio’s interrogation. In responding to Lucio’s sufficiency of the evidence challenge, the State
argued that a ‘‘jury could have reasonably
concluded that [Lucio] was responsible for
delivering the fatal blow to Mariah’s head,
as she had the opportunity to do so, and
she had admitted to a pattern of abuse
that had continued for some two months.’’
Id. at 894–95 (emphasis added) (cleaned
up). The Texas Court of Criminal Appeals
accepted that argument. Id. at 895.
Lucio also claimed that the trial
court’s exclusion of Pinkerman’s testimony violated her ‘‘constitutional right to
present evidence before the jury as to
the circumstances under which [a] confession is taken.’’ She cited Crane for the
proposition that a jury is ‘‘entitled to
know about the circumstances under
which [a] statement was given TTT so
that [it] could assess the voluntariness of
the statement.’’ The Texas Court of
Criminal Appeals rejected Lucio’s challenge for two reasons: (1) Lucio’s ‘‘claim
on appeal as to what Pinkerman’s testi-

The other expert was Norma Villanueva, a
licensed social worker with graduate education, who would have testified about why
Lucio ‘‘would have given police [officers] in-

51a

formation TTT that was not correct’’ to show
that Lucio ‘‘admits to things that she didn’t
do.’’

502

987 FEDERAL REPORTER, 3d SERIES

mony would have been d[id] not comport
with what the trial attorney claimed TTT
he was offering it for,’’ and (2) Pinkerman’s proffered testimony ‘‘had little, if
any, relevance to a jury’s voluntariness
determination under state law.’’ Id. at
902.
After Lucio lost on direct appeal, she
sought state habeas relief. As with her
direct appeal, she raised several arguments, including the argument that
Pinkerman’s testimony should have been
admitted. This time, though, she distinguished her argument as going ‘‘to the
core of the case—whether [Lucio] was
likely to have engaged in ongoing abuse
of Mariah.’’ She stated that the issue
was the deprivation of ‘‘the constitutional
right to present a complete defense,’’
and cited a state law case that relied on
the U.S. Constitution for that right. Lucio also argued that her trial counsel
provided ineffective assistance of counsel
(‘‘IAC’’). Her habeas application offered
a post-trial affidavit from Pinkerman as
support. The state habeas court rejected
all of Lucio’s claims. It concluded that
her complete defense claim was ‘‘nearly
identical to [the issues] raised on direct
appeal,’’ and the additional evidence she
presented did not demonstrate that she
was entitled to relief. The state habeas
court also concluded that the trial court
‘‘did not abuse its discretion in excluding’’ Pinkerman’s testimony. His testimony, the state habeas court reasoned,
‘‘had no relevance to the question of
[Lucio’s] guilt or innocence.’’
Lucio appealed the state habeas court’s
decision. The Texas Court of Criminal Appeals adopted the habeas court’s findings
of fact and conclusions of law. It noted that
some of the issues Lucio raised were procedurally barred, but it did not list her
complete defense claim among them.

Lucio then petitioned for federal habeas
relief under 28 U.S.C. § 2254 in federal
district court and reasserted the complete
defense claim she had raised before the
state habeas court. The district court rejected the claim. It considered Pinkerman’s testimony to be ‘‘only tangentially
related to the question of Lucio’s guilt or
innocence’’ and noted that the ‘‘evidence
that anyone but Lucio inflicted the fatal
injuries is tenuous at best.’’
Lucio filed a timely notice of appeal, and
we granted her a Certificate of Appealability (‘‘COA’’) on her complete defense claim.
See Lucio v. Davis, 783 F. App’x 313, 319
(5th Cir. 2019) (per curiam). A panel of this
court reversed the district court’s order
denying her habeas petition on those
grounds. Id. at 325. We granted en banc
rehearing. Lucio v. Davis, 947 F.3d 331
(5th Cir. 2020) (mem.).
II.

The Issue Presented on Appeal

The issue on appeal is whether the district court erred in its adjudication of Lucio’s complete defense claim. Before addressing the merits, I first explain what
Lucio’s complete defense claim is and explain why, contrary to the plurality opinion’s contention, there are no other issues
on appeal.
A.

Lucio’s Complete Defense Claim

Lucio’s complete defense claim is that
her ‘‘right to present a complete defense
[wa]s violated by the exclusion of [Pinkerman’s testimony] pursuant to a state
evidentiary rule that categorically and arbitrarily prohibits [her] from offering otherwise relevant, reliable evidence that is
vital to h[er] defense.’’ She cites Wiley v.
State, 74 S.W.3d 399, 406–07 (Tex. Crim.
App. 2002), to support her claim. Lucio
claims that Pinkerman would have testified to Lucio’s abuse and tendency to
take blame for everything. She claims

52a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

503

that Pinkerman’s testimony would have
attacked a key part of the State’s case—
that she physically abused Mariah—and
was therefore vital to her defense. In
other words, Lucio argues that the state
trial court ‘‘stripped [her] of the power to
describe to the jury the circumstances
that prompted h[er] confession’’ and ‘‘effectively disabled’’ her from challenging
the trustworthiness of her custodial confession that was on ‘‘every rational juror[’s]’’ mind when they decided her guilt.
See Crane, 476 U.S. at 689, 106 S.Ct.
2142.

second-guess the state court on the rules
of evidence. Plurality Op. at 472–73. But
Lucio did much more than cite Wiley: she
clearly stated that ‘‘[t]he trial court deprived [her] of the constitutional right to
present a complete defense’’—which Texas
does not appear to recognize or reject—
and she did not mention state evidentiary
rules or standards to support her claim.
Thus, Lucio does not ask us to act as a
state court examining state evidentiary
rules. Indeed, the State agrees that this
complete defense claim is the issue before
us today.

Lucio’s complete defense claim has not
changed since Lucio first raised it in state
habeas court.6 She argues that, if the state
habeas court adjudicated her complete defense on the merits, then the state habeas
court’s holding was ‘‘an unreasonable application of the substantially similar decisions of Chambers and Crane.’’7

The plurality opinion also contends that
‘‘Lucio adamantly insisted that her state
habeas claim did not involve Crane’’ and
thus her complete defense claim cannot
implicate the case, either. Plurality Op. at
472. As explained above, Lucio cited Crane
in her direct appeal for the proposition
that a jury is ‘‘entitled to know about the
circumstances under which [a] statement
was given TTT so that [it] could assess the
voluntariness of the statement.’’ In state
habeas proceedings, Lucio clarified that
her state habeas complete defense claim

The plurality opinion contends that Lucio’s mere ‘‘flagging’’ of Wiley, which cites
the U.S. Constitution, is insufficient to
raise a federal claim and, therefore, is
nothing more than an invitation for us to
6.

The plurality opinion states that it ‘‘is an
undisputed proposition’’ that Lucio changed
her complete defense claim over time. Plurality Op. at 480. The record proves that proposition false. Lucio’s complete defense claim—
first raised in state habeas court—has not
changed. In state habeas court, Lucio argued
that the state trial court deprived her ‘‘of the
constitutional right to present a complete defense when it excluded the testimony of defense experts during the guilt/innocence
phase of trial.’’ In her federal habeas petition
in district court, Lucio argued the same: that
the state trial court violated her right to present a complete defense when it ‘‘Excluded the
Testimony of Her Defense Experts During the
Guilt/innocence Phase of Trial.’’ In her request for a COA from us, Lucio alleged that it
was ‘‘debatable that [she] was deprived of her
due process right to present a defense when
the trial court excluded the testimony of defense expert witnesses at the guilt/innocence
phase of the trial.’’ In her panel briefing,

Lucio claimed that the trial court violated her
right to present a complete defense because
Pinkerman’s testimony would have challenged the credibility of her incriminating
statement. She made the same claim in her en
banc briefing. This case is therefore distinguishable from Rose v. Lundy, 455 U.S. 509,
102 S.Ct. 1198, 71 L.Ed.2d 379 (1982), which
the plurality opinion cites for the proposition
that defendants cannot ‘‘attempt[ ] to broaden
[a state court] claim’’ in federal court; Lucio
has repeatedly made the same claim, over and
over, in every post-conviction setting. See Plurality Op. at 480.
7.

53a

Lucio also argues that the state habeas
court’s adjudication was contrary to Chambers, Crane, and Green v. Georgia, 442 U.S. 95,
99 S.Ct. 2150, 60 L.Ed.2d 738 (1979) (per
curiam), and based on an unreasonable determination of the facts. Because the relevance
determination turns on the facts as set forth
herein, I do not address this issue separately.

504

987 FEDERAL REPORTER, 3d SERIES

did not concern the voluntariness of her
confession, which was her point on direct
appeal. But this distinction does not mean
that we cannot consider Crane when assessing Lucio’s complete defense claim; a
case can support multiple, different arguments.
To see why this one does, it is worth
taking a look at the case itself. In Crane,
the Supreme Court reiterated that due
process ‘‘requires that a jury not hear a
confession unless TTT it was freely and
voluntarily given.’’ 476 U.S. at 687–88, 106
S.Ct. 2142 (internal quotation marks, alteration, and citation omitted). That due process requirement was relevant to Lucio’s
argument on direct appeal. But the Crane
Court also held that ‘‘the Constitution
guarantees criminal defendants a meaningful opportunity to present a complete defense.’’ 476 U.S. at 690, 106 S.Ct. 2142
(internal quotation marks and citation
omitted). That point supports Lucio’s state
habeas claim. The reality that this second
aspect of Crane is at play here appears to
shock only the plurality opinion; again, the
State understands that Lucio’s complete
defense claim may implicate the case.

he was called to testify and the report
never ‘‘hint[ed] that any of [Lucio’s interrogation] statements were false.’’ Plurality
Op. at 475. But the whole point of Pinkerman’s testimony was to contextualize Lucio’s statements as potentially influenced
by Escalon’s questioning: the report observed that ‘‘[i]n times of significant stress,
[Lucio] withdraws into simpler, concrete,
unrealistic and constricted functioning
marked by passivity, denial, acquiescence
and resignation[,]’’ which is likely attributable to her experience with abuse. In that
regard, the report noted that Lucio
‘‘tune[d] out’’ Escalon when he ‘‘raise[d]
his voice’’ but then ‘‘eventually respond[ed]
with resignation.’’ The report thus corresponds to the reason why Lucio’s trial
counsel sought to introduce Pinkerman: it
tended to show that Lucio would ‘‘take[ ]
blame for everything that goes on in the
family,’’ including potentially covering for
her husband, other children, or Mariah
herself.

Lastly, the plurality opinion contends
that Lucio whipsawed the state courts with
her complete defense claim because Pinkerman never proffered at trial about the
credibility of Lucio’s interrogation statements. Plurality Op. at 474–75. But how
could he have done so? The trial judge
chose to leave and not hear the proffer,
having already concluded that Pinkerman’s
testimony was ‘‘irrelevant’’ regardless.

The plurality opinion further contends
that Pinkerman’s mitigation testimony
failed ‘‘to hint[ ] that any of [Lucio’s] statements were false.’’ Plurality Op. at 475.
Mitigation testimony comes after a jury
has decided on a defendant’s guilt. So, of
course, Pinkerman’s mitigation testimony
did not concern Lucio’s innocence (i.e., that
Lucio likely made false statements in her
interrogation). Indeed, when asked by the
State whether he was testifying that Lucio
did not harm her child, Pinkerman responded that he was not ‘‘address[ing] the
causation.’’8 There was no whipsawing.

The plurality opinion tries to nuance its
whipsawing point by highlighting that
Pinkerman signed an expert report before

In sum, the question we have been
asked to answer is whether the state trial
court violated Lucio’s constitutional right

8.

Specifically, the State asked: ‘‘were you under the understanding that someone else
harmed her and all she did was failed to
protect her?’’ Pinkerman responded: ‘‘No.
Again, I didn’t address the causation. What

54a

I’m trying to think that any mother would
have looked to that pattern of abuse—and in a
normal situation, a normal mother would
have protected the child.’’

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

to present a complete defense when it
excluded Pinkerman’s testimony about her
propensity to take blame for everything
from the guilt/innocence stage. To the extent that we evaluate this question under
AEDPA deference, the question becomes
whether the state habeas court’s exclusion
of Pinkerman’s testimony about her propensity to take blame for everything was
an unreasonable application of Crane and
Chambers.
B.

Issues Raised Sua Sponte by the
Plurality Opinion

The plurality opinion bases its affirmance on the complete defense issue
largely on four issues that were never
raised by either party. The State has
waived all four arguments and so our court
should not consider them.
First, the plurality opinion contends that
Lucio defaulted on her claim because she
failed to raise it to the state trial court. See
Plurality Op. at 465–66. In particular, it
asserts that Pinkerman’s bill of particulars
was lacking in detail about the psychological pressure Lucio felt when she made her
interrogation statements. See Plurality Op.
at 465–66. On direct appeal, when Lucio
made no IAC claim, the State argued this
point. It argued that Pinkerman’s proffer
was ‘‘broad and general,’’ referring to only
‘‘the characteristics and makeup of [Lucio’s] psychological functioning’’ and her
demeanor.
But the State intentionally waived this
procedural default in state habeas court.
Why? Well, in those proceedings, Lucio
raised an IAC claim that her trial counsel
had provided ineffective assistance by failing to adequately utilize Pinkerman; Lucio
claimed that Pinkerman ‘‘could have assisted trial counsel in developing evidence that
[her] history provided ‘little support for
the idea that [she] physically abused her
children’ to support the defense theory

505

during guilt/innocence.’’ The State clearly
made a strategic call not to reassert any
failures in Pinkerman’s bill of particulars
because doing so would effectively concede
the legitimacy of Lucio’s IAC claim. The
State instead went in a different direction,
arguing that Pinkerman’s bill of particulars ‘‘indicated that he would testify as to
TTT how there was little support in the
‘historical record’ for the idea that [Lucio]
physically abused her children, that she
suffered from battered woman syndrome,
and the meaning of her demeanor after the
incident and during questioning.’’ Given
the switch in argument, it is plain that the
State has waived its procedural default
argument in these federal habeas proceedings.
Second, the plurality opinion contends
that, to the extent that Lucio’s direct appeal claim is ‘‘nearly identical’’ to Lucio’s
complete defense claim, Lucio’s complete
defense claim is procedurally barred because Lucio failed to raise her claim in
state trial court. See Plurality Op. at 465–
66. But the State also waived this procedural default. If, as the plurality opinion
contends, Lucio’s complete defense claim
from state habeas is the same as her claim
on direct appeal, see Plurality Op. at 465–
66, then the State’s response in state habeas proceedings to Lucio’s complete defense
claim could have been one sentence: As the
Texas Court of Criminal Appeals held, Lucio’s complete defense claim is procedurally barred because she failed to raise it in
state trial court. The State’s response was
nothing of the sort, and the State has
never brought the issue up in any later
proceeding.
Third, the plurality opinion contends
that Lucio’s claim is procedurally barred
because the state habeas court held that
she had attempted to raise the same argument from direct appeal in her state habeas proceeding. See Plurality Op. at 462–63,

55a

506

987 FEDERAL REPORTER, 3d SERIES

466–67. But the state habeas court did not
come to that conclusion. What it did was
observe that Lucio’s complete defense
claim was ‘‘nearly identical’’ to her direct
appeal claim and that it thus did not have
to relitigate it. But, because ‘‘additional
evidence,’’ here, Pinkerman’s affidavit,
‘‘may warrant relief even when the issue
was raised on direct appeal,’’ the state
habeas court did not rely on a procedural
bar. Consistent with that reading, the Texas Court of Criminal Appeals, in adopting
the state habeas court’s findings and conclusions, determined that the state habeas
court did not hold Lucio’s complete defense claim as procedurally barred. What’s
more, the State has waived this putative
procedural bar, too. Indeed, the State
(which drafted this exact finding of fact
and conclusion of law on this point for the
state habeas trial court) has explicitly argued to the contrary, stating in its en banc
brief: ‘‘The state court did not deny Lucio’s
complete-defense claim on procedural
grounds.’’

Even if the State had not clearly waived
these arguments (which, as discussed, it
did), the plurality opinion errs in making
these four procedural holdings sua sponte.
As the Supreme Court recently reminded
the circuit courts: ‘‘In our adversarial system of adjudication, we follow the principle
of party presentation.’’ Sineneng-Smith,
140 S. Ct. at 1579 (citation omitted). Thus,
‘‘in both civil and criminal cases, in the
first instance and on appeal TTT, we rely
on the parties to frame the issues for
decision and assign to courts the role of
neutral arbiter of matters the parties present.’’ Id. (quotation omitted). Departures
from this principle are usually only warranted in criminal cases when doing so
would ‘‘protect a pro se litigant’s rights.’’
Id. (quotation omitted). This is not one of
those cases; Texas is the largest state in
our circuit and our second-biggest litigant.
Its Attorney General’s office is chock-full
of excellent attorneys who do nothing but
habeas work. This court should not be
making arguments on the State’s behalf,
especially in a capital case.

Fourth, the plurality opinion states that
Pinkerman’s post-trial affidavit cannot be
considered because it was not before the
Texas Court of Criminal Appeals on direct
appeal. See Plurality Op. at 471–72. Not
only did the State again waive this argument, but it did so expressly and unequivocally in response to our court’s direct question. In response to our en banc Q & A—
‘‘whether we may also consider Dr. Pinkerman’s 2010 affidavit TTT in deciding whether exclusion of his guilt phase testimony
was an unreasonable application of clearly
established Supreme Court precedent’’—
the State answered, ‘‘Yes, TTT Cullen v.
Pinholster, 563 U.S. 170, 180, 131 S.Ct.
1388, 179 L.Ed.2d 557 (2011), indicates
that this Court may also consider Dr.
Pinkerman’s 2010 affidavit because it was
part of the record in the state court.’’

If the Supreme Court’s admonition were
not enough, our precedent also restrains
us from doing so in this very context.
When dealing with procedural bars, we
have held that ‘‘even if we do have discretion in some circumstances to apply the
procedural bar where the state has waived
the defense[,] TTT we will not exercise such
discretion’’ when:

56a

(1)

‘‘the habeas petitioner has [not]
been given notice that procedural
default will be an issue for consideration,’’ and

(2)

‘‘the petitioner has [not] had a reasonable opportunity to argue
against the application of the bar;’’
or

(3)

‘‘the state intentionally waived the
defense.’’

507

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

Fisher v. Texas, 169 F.3d 295, 301–02 (5th
Cir. 1999).9 Here, deciding Lucio’s fate on
procedural bars that the State never
raised denies Lucio notice and a reasonable opportunity respond. Further, the
State intentionally waived three of these
procedural default arguments.
The issue with the plurality opinion’s sua
sponte holdings is not merely academic:
had the State taken a different tactic in
the state habeas proceeding and beyond,
then Lucio would have had an excellent
IAC claim. Instead, the state habeas court
denied that claim, as did the federal district court, and we denied a COA. If we
are going to ignore the Supreme Court’s
admonition in Sineneng-Smith, step in on
our own initiative, and decide to redo the
State’s strategic decisions to make the focus on whether the trial attorney properly
presented a bill of particulars, well, then,
we need to start over on the IAC issue too.
If Lucio is to be executed because her
lawyer did not make a perfect bill of particulars, that certainly sounds like she suffered ineffective assistance and prejudice.
Rather than decide this case on procedural arguments that the State itself has
waived and that Lucio had no idea we
would raise on our own, I respectfully
submit that we should address the one
issue that is actually before us—Lucio’s
complete defense claim raised in state habeas court—based on the entire state rec9.

ord. Accordingly, I proceed to address the
merits of Lucio’s complete defense claim.
III.

Discussion

To prevail on her complete defense
claim, Lucio must satisfy the statutory requirements of the Antiterrorism and Effective Death Penalty Act of 1996 (‘‘AEDPA’’). Under AEDPA, we review Lucio’s
complete defense claim de novo if (1) Lucio
exhausted her claim in state court, 28
U.S.C. § 2254(b), and (2) the state court
failed to adjudicate that claim on the merits, 28 U.S.C. § 2254(d). See also Johnson
v. Williams, 568 U.S. 289, 303, 133 S.Ct.
1088, 185 L.Ed.2d 105 (2013). If the petitioner failed to present a federal claim in
state court, then the claim is dismissed. If
the petitioner did present a federal claim
in state court and the state court adjudicated the claim on the merits, then AEDPA’s deferential standard under § 2254(d)
applies.
Under § 2254(d), relief will not be granted unless the state court’s adjudication of
the federal claim was ‘‘contrary to TTT
clearly established Federal law, as determined by the Supreme Court,’’ ‘‘an unreasonable application of’’ that law, or ‘‘was
based in an unreasonable determination of
the facts in light of the evidence presented
in the State court proceeding.’’ 28 U.S.C.
§ 2254(d)(1), (2).

Indeed, we have yet to apply a procedural
bar sua sponte in a habeas case when the
petitioner lacked notice and a reasonable opportunity to respond or when the State intentionally waived the defense. See, e.g., Fisher,
169 F.3d at 302 (declining to apply a procedural bar sua sponte because petitioner
lacked notice and had no reasonable opportunity to respond). But see, e.g., Scott v. Johnson, 227 F.3d 260, 263 (5th Cir. 2000) (applying a procedural bar sua sponte because
petitioner was given notice and an opportunity to respond and the State did not intentionally waive the defense); Smith v. Johnson,
216 F.3d 521, 524 (5th Cir. 2000) (per cu-

57a

riam) (concluding that it was appropriate to
apply a procedural bar sua sponte because
petitioner had notice and an opportunity to
respond and the State did not intentionally
waive the bar); Magouirk v. Phillips, 144 F.3d
348, 360 (5th Cir. 1998) (holding that the
federal district court did not abuse its discretion in raising a procedural default sua
sponte because petitioner had notice and a
reasonable opportunity to respond and the
State did not intentionally waive the defense). The plurality opinion does not explain
why we should reject this clear precedent as
to when it is appropriate to raise procedural
default issues sua sponte.

508

987 FEDERAL REPORTER, 3d SERIES

The plurality opinion holds that AEDPA
deference applies, see Plurality Op. at 467,
and that Lucio’s complete defense claim
fails to satisfy § 2554(d), Plurality Op. at
467–78. As mentioned above, several of the
judges joining in this dissenting opinion
concur in the now-vacated panel’s viewpoint that the state habeas court failed to
adjudicate Lucio’s complete defense on the
merits.10 However, because the majority of
the en banc court has ruled that Lucio’s
complete defense claim has been exhausted and adjudicated on the merits, I address her claim under AEDPA deference.11
Even under AEDPA’s deferential standard
of review, however, the state habeas
court’s adjudication of Lucio’s complete defense claim ‘‘involved an unreasonable application of’’ Crane and Chambers. See 28
U.S.C. § 2554(d)(1). First, I will summarize
those cases, and then I will discuss why
the state court’s determination is an unreasonable application of those key precedents.
A.

Crane

In Crane, the Supreme Court recognized that ‘‘the Constitution guarantees
criminal defendants a meaningful opportunity to present a complete defense,’’ and
held that such an ‘‘opportunity would be an
empty one if the State were permitted to
exclude competent, reliable evidence bear10. Those of us who adhere to this viewpoint
would, absent the en banc conclusion to the
contrary, conclude that the state habeas court
failed to adjudicate Lucio’s complete defense
claim on the merits because it erroneously
determined that Lucio raised a state evidentiary challenge and rejected that claim based
on state evidentiary standards. There is a rebuttable presumption that state courts have
rejected a claim on the merits if a written
order is silent regarding a claim. See
Williams, 568 U.S. at 300–01, 133 S.Ct. 1088.
But Lucio rebuts this presumption because
the state evidentiary standard is ‘‘less protective’’ than the federal standard for a complete
defense claim. Id. at 301, 133 S.Ct. 1088; see

ing on the credibility of a confession when
such evidence is central to the defendant’s
claim of innocence.’’ 476 U.S. at 690, 106
S.Ct. 2142 (internal quotation marks and
citations omitted). The Court thus concluded that the state court’s exclusion of testimony related to the ‘‘environment’’ in
which the police secured the defendant’s
confession violated the defendant’s right to
present a complete defense. Id. at 691, 106
S.Ct. 2142.
The underlying proceedings in the case
bring the issue into focus. In particular,
the state court had excluded the testimony
because it ‘‘related solely to [the] voluntariness’’ of the defendant’s confession and
state evidence rules prohibited relitigation
of a trial court’s pretrial voluntariness determination. See id. at 686–87, 106 S.Ct.
2142 (citation omitted). Given its voluntariness holding, the state court further held
that the testimony ‘‘did not relate to the
credibility of the confession.’’ Crane v.
Kentucky, 690 S.W.2d 753, 755 (Ky. 1985).
The Supreme Court disagreed with the
state court’s separation of those concepts,
taking issue with its holding ‘‘that evidence
bearing on the voluntariness of a confession and evidence bearing on its credibility
f[e]ll in conceptually distinct and mutually
exclusive categories.’’ Crane, 476 U.S. at
687, 106 S.Ct. 2142. It reiterated its precedent that ‘‘evidence surrounding the makWiley, 74 S.W.3d at 405 (recognizing that a
complete defense claim asserts that the exclusion of ‘‘otherwise relevant, reliable evidence’’
precluded the defendant from presenting a
defense).
11. Granted, if the state habeas court’s decision on Lucio’s complete defense claim was
error under AEDPA deference, then it was
also error under de novo review. Thus, there
is nothing inconsistent, as the plurality opinion contends, about applying arguendo a
more deferential standard of review when Lucio should prevail either way.

58a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

ing of a confession bears on its credibility
as well as its voluntariness.’’ Id. at 688, 106
S.Ct. 2142 (internal quotation marks and
citation omitted). The Court thereby held
that evidence on the circumstances of
Crane’s confession was particularly relevant because Crane’s ‘‘entire defense was
that there was no physical evidence to link
him to the crime and that, for a variety of
reasons, his earlier admission of guilt was
not to be believed.’’ Id. at 691, 106 S.Ct.
2142. Therefore, the Court concluded it
was ‘‘plain that introducing evidence of the
physical circumstances that yielded the
confession was all but indispensable to any
chance’’ of Crane’s defense succeeding. Id.
The evidence would help answer ‘‘the one
question every rational juror needs answered: If the defendant is innocent, why
did he previously admit his guilt?’’ Id. at
689, 106 S.Ct. 2142. In other words, the
Court held that the evidence was indispensable to Crane’s defense.
Further, in holding that the state court
violated Crane’s right to present a complete defense, the Court determined that it
was not a case where the state court excluded the evidence for ‘‘fairness [or] reliability’’ issues. Id. at 690, 106 S.Ct. 2142.
The state court failed to ‘‘advance[ ] any
rational justification for the wholesale exclusion of this body of potentially exculpatory evidence.’’ Id. at 691, 106 S.Ct. 2142.
B.

Chambers

In Chambers, the Supreme Court held
that the exclusion of hearsay evidence under a state hearsay rule and the refusal to
allow the defendant to cross-examine a key
witness under a state voucher rule violated
the defendant’s right to present a complete
defense. 410 U.S. at 302–03, 93 S.Ct. 1038.
The facts of the case illustrate the contours of its rule. Chambers and three of
his friends (James Williams, Berkley Turner, and Gable McDonald) were involved

509

in a shooting, for which Chambers was
convicted of murder. Id. at 285–87, 93
S.Ct. 1038. At his trial, Chambers sought
to prove that he did not shoot the victim
but that McDonald did. Id. at 289, 93 S.Ct.
1038. Chambers called McDonald as a witness to testify that McDonald had written
a confession stating that he shot the victim. Id. at 291, 93 S.Ct. 1038. On crossexamination, the State elicited from McDonald that he repudiated his prior confession. Id. When Chambers attempted to
examine McDonald as an adverse witness,
the state court denied Chambers’s request
under the state ‘‘voucher’’ rule that prevented him from impeaching his own witness. Id. at 291, 295, 93 S.Ct. 1038. To
challenge McDonald’s renunciation of his
prior confession, Chambers then sought to
introduce testimony from three witnesses
to whom McDonald had admitted shooting
the victim. Id. at 292, 93 S.Ct. 1038. All
three witnesses were prevented from testifying under state hearsay rules. Id. at 292–
93, 295, 93 S.Ct. 1038.
In sum, Chambers was prevented from
presenting evidence that McDonald shot
the victim. Id. at 294, 93 S.Ct. 1038. Such
evidence, the Court held, was ‘‘critical to
Chambers’ defense.’’ Id. at 302, 93 S.Ct.
1038. The Court also held that the state
court’s reason for its evidentiary decisions
were irrational, taking issue first with the
voucher rule in its entirety as an ‘‘archaic,
irrational’’ rule that was ‘‘potentially destructive of the truth-gathering process.’’
Id. at 296 n.8, 93 S.Ct. 1038. The state
court’s application of the hearsay rules
was also irrational: the hearsay statements, the Court concluded, were ‘‘well
within the basic rationale of the exception
for declarations against interest’’ and
therefore had a ‘‘considerable assurance of
their reliability.’’ Id. at 300, 302, 93 S.Ct.
1038. Because the evidence was vital to
Chambers’s defense and the state court’s

59a

510

987 FEDERAL REPORTER, 3d SERIES

reasons for excluding the testimony were
irrational, the Supreme Court held that
the state court violated Chambers’s right
to present a complete defense.
C.

statement. Moreover, the state trial court
provided no reason why the testimony was
irrelevant and all indications are to the
contrary, making its exclusion irrational.

Application of Crane and Chambers to Lucio

‘‘A state court’s decision constitutes an
unreasonable application of clearly established federal law if it is ‘objectively unreasonable.’ ’’ Gray v. Epps, 616 F.3d 436, 439
(5th Cir. 2010) (citing Williams v. Taylor,
529 U.S. 362, 409, 120 S.Ct. 1495, 146
L.Ed.2d 389 (2000)). ‘‘The court may grant
relief under the ‘unreasonable application’
clause if the state court correctly identifies
the governing legal principle from our decisions but unreasonably applies it to the
facts of the particular case.’’ Bell v. Cone,
535 U.S. 685, 694, 122 S.Ct. 1843, 152
L.Ed.2d 914 (2002) (citation omitted). Lucio satisfies this high threshold.

1.

Pinkerman’s Testimony Critical
to Lucio’s Defense

Pinkerman would have testified that Lucio ‘‘takes blame for everything that goes
on in the familyTTT [and] for everything
that goes on in the house.’’ That tendency
had implications for her interrogation: it
was Pinkerman’s ‘‘professional opinion
[that Lucio’s] psychological characteristics
increase[d] the likelihood she would acquiesce while providing her confession.’’ In
other words, Pinkerman would have testified that Lucio’s interrogation statement,
including her abuse of Mariah, posed ‘‘serious questions’’ about its validity.

The Supreme Court in Crane and
Chambers made clear that a state court
violates a defendant’s right to present a
complete defense if (1) the excluded evidence was critical to the defense, Crane,
476 U.S. at 689, 691, 106 S.Ct. 2142; Chambers, 410 U.S. at 302, 93 S.Ct. 1038, and (2)
the state court failed to provide a rational
justification for its exclusion, Crane, 476
U.S. at 689, 690–91, 106 S.Ct. 2142; Chambers, 410 U.S. at 296 & n.8, 302, 93 S.Ct.
1038. Here, Pinkerman’s testimony was
critical to Lucio’s defense because it was
the centerpiece of her attempt to challenge
the trustworthiness of her interrogation

Pinkerman’s excluded testimony was indispensable to Lucio’s defense because it
rebutted the State’s most critical evidence
of Lucio’s guilt: Lucio’s interrogation
statement.12 The State presented no physical evidence or witness testimony establishing that Lucio abused Mariah or any of
her children, let alone killed Mariah. Instead, it used Lucio’s interrogation statement as its crucial source of proving she
committed the act. In closing argument,
the State contended that Lucio must have
killed Mariah because she abused her. The
only evidence it cited in closing to establish
that Lucio abused her was Lucio’s ‘‘confession.’’ On appeal, when the State argued
that the evidence was sufficient to convict

12. The plurality opinion suggests that the
State had Lucio’s phone call to her sister as
additional evidence of her guilt. See Plurality
Op. at 462. But that was not part of the
State’s argument at trial. See supra Section
I.A. Indeed, the State made no mention of
Lucio’s conversations with her sister in its
closing argument. As Lucio’s trial counsel
noted: ‘‘This whole case revolve[d] around
th[e] video.’’

The State also argues that Pinkerman’s testimony was not indispensable because Lucio
could have presented ‘‘fact witnesses to testify
about her body language, her propensity to
take blame, or any other issue.’’ But that is
exactly what Pinkerman sought to testify
about and, as explained below, the state habeas court provided no rational justification for
excluding Pinkerman’s testimony.

60a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

Lucio, it again relied on the assertion that
Lucio ‘‘admitted to a pattern of abuse.’’ See
Lucio, 351 S.W.3d at 894–95. In short, the
interrogation statement played a pivotal
role in the State’s case.
If the interrogation statement is taken
away—or its validity is undermined—then
the State’s case becomes much more tenuous, demonstrating both its criticality and
the irrationality of excluding Pinkerman’s
contextualizing testimony as ‘‘irrelevant.’’13
A reasonable juror would have much less
reason to assume that Lucio—rather than
her husband, other children, or Mariah
herself—caused Mariah’s injuries. To the
extent that there was evidence beyond Lucio’s statement that implicated her—such
as opportunity based upon being Mariah’s
primary caretaker—it pales in comparison
to the force of an alleged confession. Thus,
as critical as that evidence was to the
State, explaining why it could not be trusted was just as critical to Lucio’s defense.14
In sum, the indispensability of Pinkerman’s testimony to Lucio’s defense is on
par with the excluded evidence at issue in
Crane and Chambers. Like Crane’s excluded evidence, Pinkerman’s testimony relat13. The State’s best alternate evidence is a
statement from a police officer that, after
Lucio’s arrest and while the officer was driving, Lucio used the phone to call her sister.
According to the officer, Lucio told her sister,
‘‘Don’t blame, Robert. This was me. I did it.
So don’t blame Robert.’’ But this phone statement could well have stemmed from Lucio’s
tendency to take blame for everything in the
family, which the excluded expert evidence
was intended to addressed. Further, this evidence does not come close to the power of
Lucio’s interrogation statements, which went
unchecked. The officer’s statement is also subject to attack. For example, he did not create
a log of the incident until the month before
trial, nearly sixteen months after Lucio allegedly made the statement. The statement also
lacks context, which makes it less reliable.
14. The plurality opinion claims that ‘‘the trial
court permitted Lucio’s sister to testify about

511

ed to the credibility of Lucio’s confession.
See Crane, 476 U.S. at 688, 106 S.Ct. 2142.
Like Chambers’s excluded evidence, Lucio
had no other means to present evidence to
refute the State’s reliance on her interrogation statement. Chambers, 410 U.S. at
294, 93 S.Ct. 1038. Thus, Pinkerman’s testimony was ‘‘all but indispensable to any
chance of [Lucio’s] succeeding.’’15 Crane,
476 U.S. at 691, 106 S.Ct. 2142. Moreover,
as in Crane, the credibility of Lucio’s ‘‘confession’’ was the focus of the jury’s question as to her guilt. See id. at 689, 106
S.Ct. 2142. Without Pinkerman’s testimony
as to why Lucio would have confessed to
abusing her daughter if she did not actually do so, the ‘‘question every rational juror
need[ed] answered’’—if she was innocent,
why did she say all those things during her
interrogation?—was left unaddressed. Id.
Consequently, Pinkerman’s excluded testimony was vital for Lucio’s defense.
2.

State Trial Court’s Unreasonable
Application

The exclusion of Pinkerman’s testimony
bears hallmark signs of irrationality such
that the state court’s ruling was an unreaLucio’s TTT tendency to take the blame for
things she did not do,’’ but provides no support for this claim. Plurality Op. at 469–70.
Nor could it; Lucio’s sister said nothing at all
about Lucio’s tendency to take the blame for
anything.
In addition, the plurality opinion and the
State argue that Pinkerman’s testimony was
not vital to Lucio’s defense because Pinkerman’s testimony at the mitigation stage never
hinted that Lucio’s statements could not be
trusted. Plurality Op. at 474–76. But, as explained supra Section II.A., Pinkerman’s mitigation testimony holds no bearing on Lucio’s
tendency to take blame for everything because
the jury had already determined that Lucio
was guilty.
15. As explained above, Lucio’s sister did not
testify regarding Lucio’s tendency to take
blame for everything. See supra n.14.

61a

512

987 FEDERAL REPORTER, 3d SERIES

sonable application of Supreme Court
precedent. The state habeas court excluded Pinkerman’s testimony on relevance
grounds.16 It concluded that Pinkerman’s
‘‘testimony as to [Lucio’s] psychological
functioning, including how there was little
support in the ‘historical record’ for the
idea that [she] physically abused her children, that she suffered from battered
woman syndrome, and the meaning of her
demeanor after the incident and during
questioning had no relevance to the question of [her] guilt or innocence.’’ It thus
held that the state trial court did not
‘‘abuse its discretion’’ in excluding Pinkerman’s testimony. That is the entirety of
the state habeas court’s reasoning on the
matter. In other words, Pinkerman’s testimony was indispensable to Lucio’s defense,
as explained above, and the state habeas
court provided no reason why Pinkerman’s
testimony was irrelevant as to the credibility of Lucio’s confession.
The plurality opinion contends that the
Supreme Court’s holding in Crane does
not permit a defendant to admit evidence
that a state court excluded through a state
evidence rule that ‘‘serve[s] the interests of
fairness and reliability.’’ See Plurality Op.
at 468 (quoting Crane, 476 U.S. at 689, 106
S.Ct. 2142). Indeed, that is true. But, like
the state court in Crane, the state habeas
court here did not exclude Pinkerman’s
testimony based on any rational application of a state evidence rule, even assuming the rule itself serves an interest of
fairness or reliability.17 See Crane, 476
U.S. at 690–91, 106 S.Ct. 2142. Rather, the
state habeas court held that the state trial
court did not abuse its discretion in exclud16. The State asserts that the state habeas
court rejected Pinkerman’s testimony as unreliable and as failing to qualify as an expert
testimony under Texas Rule of Evidence 702.
The state habeas court made no determination about the reliability of Pinkerman’s testimony, nor did it make a determination about

ing Pinkerman’s testimony because it was
irrelevant and had no bearing on Lucio’s
guilt. That is essentially what happened in
Crane, where the state court had held that
the excluded testimony about the ‘‘environment’’ surrounding the defendant’s confession was irrelevant because it had no bearing on the confession’s credibility. See id.
at 687–88, 106 S.Ct. 2142. But the Supreme
Court did not defer to the state court’s
holding on that point. It independently
determined that the excluded testimony
bore on the credibility of the defendant’s
confession and was relevant to the defense’s theory that his confession could not
be trusted. See id. at 688–89, 106 S.Ct.
2142. In determining whether the state
habeas court’s exclusion of Pinkerman’s
testimony was an unreasonable application
of Crane, then, we must also determine
whether his testimony was relevant and
vital to Lucio’s defense. As explained
above, Pinkerman’s testimony was clearly
relevant and vital to Lucio’s defense. It
would have ‘‘answer[ed] the one question
every rational juror needs answered: If
[Lucio] is innocent, why did [s]he previously admit h[er] guilt?’’ See id. at 689, 106
S.Ct. 2142. Thus, the state habeas court’s
exclusion of the testimony as irrelevant
was unreasonable and served no fairness
or reliability interest.
The plurality opinion also contends that
the state habeas court did not unreasonably apply Crane or Chambers because
those cases concerned categorical, not discretionary, evidence rules. Plurality Op.
26–27, 33. In that regard, the plurality
opinion claims that we would create a circuit split because five circuit courts have
Pinkerman’s qualification as an expert to testify.
17. There was no Daubert-like inquiry into the
reliability of Pinkerman as an expert witness.
Only Villanueva’s reliability was questioned.

62a

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

observed that Crane did not implicate discretionary evidence rules. Plurality Op. at
470–72.
But neither Chambers nor Crane holds
that a defendant’s right to present a complete defense applies only when a state
court excludes evidence based on categorical evidentiary rules. See Crane, 476 U.S.
at 690, 106 S.Ct. 2142 (holding that an
opportunity to present a complete defense
‘‘would be an empty one if the State were
permitted to exclude competent, reliable
evidence bearing on the credibility of a
confession when such evidence is central to
the defendant’s claim of innocence’’);
Chambers, 410 U.S. at 302, 93 S.Ct. 1038
(making no limitation that its holding—
that the exclusion of critical evidence violated the defendant’s right to present a
complete defense—applied to only categorical evidence rules). The only support for
the plurality opinion’s narrow interpretation of Chambers and Crane comes from
(a) one line in Crane, which states ‘‘that
the blanket exclusion of the proffered testimony about the circumstances of petitioner’s confession deprived him of a fair trial,’’ Crane, 476 U.S. at 690, 106 S.Ct. 2142
(emphasis added); and (b) the fact that the
evidentiary rules at issue in those cases
were categorical and non-discretionary.
However, as the plurality opinion recognizes, the Supreme Court has since explained that the core ‘‘principle’’ of Crane
is unrelated to either of those two points:
rather, Crane establishes that the right to
present a complete defense is violated
when a state trial court excludes competent, reliable evidence without providing a
valid reason. Montana v. Egelhoff, 518
U.S. 37, 53, 116 S.Ct. 2013, 135 L.Ed.2d
361 (1996); accord Plurality Op. at 468–69.
Further, the fact that the evidentiary rules
at issue in Crane and Chambers were categorical would only matter if we were debating whether the state habeas court’s
adjudication was ‘‘contrary to’’ Supreme

513

Court precedent, but that is not the situation here, as we are only analyzing its
application of that precedent. See Boyer v.
Vannoy, 863 F.3d 428, 441 (5th Cir. 2017)
(explaining when a state court’s decision is
contrary to clearly established federal
law); Panetti v. Quarterman, 551 U.S. 930,
953, 127 S.Ct. 2842, 168 L.Ed.2d 662 (2007)
(stating that an ‘‘unreasonable application’’
under AEDPA deference includes an unreasonable application of ‘‘even a general
standard’’).
The clearly established, general principle that we are evaluating today is
straightforward: whether Lucio’s right to
present a complete defense was violated
when the state trial court excluded Pinkerman’s testimony without providing a valid
reason. See Egelhoff, 518 U.S. at 53, 116
S.Ct. 2013; see also supra Section III.C.
The answer, as articulated above, is ‘‘Yes.’’
In Crane, the Supreme Court held that the
defendant’s right to present a complete
defense was violated because the state
court’s ‘‘sole rationale for the exclusion
(that the evidence did not relate to the
credibility of the confession) was wrong.’’
See Egelhoff, 518 U.S. at 53, 116 S.Ct. 2013
(internal quotation marks and citation
omitted). Same here. The state trial court’s
‘‘sole rationale for the exclusion’’ of Pinkerman’s testimony (that the evidence was
irrelevant to Lucio’s innocence) was irrational and wrong. Thus, in the words of the
plurality opinion, Supreme Court precedent ‘‘positively precludes the state court
from holding what it held.’’ See Plurality
Op. at 484.
Moreover, even if the plurality opinion is
right and Crane and Chambers apply only
to categorical rules, just such a categorical
rule was applied here: to the extent that
the state habeas court determined that the
state trial court did not abuse its discretion
in excluding Pinkerman’s testimony under

63a

514

987 FEDERAL REPORTER, 3d SERIES

Texas Rule of Evidence 402,18 that rule
provides trial courts no discretion to admit
or exclude irrelevant evidence. See TEX. R.
EVID. 402 (‘‘Irrelevant evidence is not admissible.’’); cf. Moses v. Payne, 555 F.3d
742, 758 (9th Cir. 2009) (holding that a
California expert testimony rule differed
from the categorical evidence rules at issue
in Crane and Chambers because the California rule ‘‘d[id] not require a trial court
to exclude evidence’’). In that regard then,
using the plurality opinion’s reading of the
state court’s decision, the state trial court
‘‘mechanistically’’ applied the state’s less
protective relevant evidence rule ‘‘to defeat
the ends of justice.’’19 See Chambers, 410
U.S. at 302, 93 S.Ct. 1038.
Lastly, the plurality opinion’s fear of
creating a circuit split is unfounded. See
Plurality Op. at 470–72. The plurality opinion cites the Sixth, Eighth, Ninth, Tenth,
and Eleventh circuits as holding that a
state court’s conclusion that an application
of a discretionary rule does not violate a
defendant’s right to present a complete
defense is not an unreasonable application
of Crane. However, only the Ninth Circuit
did what the plurality opinion says it did.
See Moses, 555 F.3d at 758–59 (holding
that ‘‘the state appellate court’s determination that the trial court’s exercise of discretion to exclude expert testimony under
[a state expert testimony rule] did not
violate Moses’s constitutional rights’’ was
18. The state trial court’s reason for excluding
Pinkerman’s testimony did not specify the evidentiary rule it applied, stating only: ‘‘I am
having a hard time figuring out how [Pinkerman’s testimony] goes to the guilt or innocence.’’ But, the plurality opinion contends
that the state trial court applied Texas’s relevance rule, Rule 402, see Plurality Op. at 465,
and this opinion does as well for argument
sake.
19. Although the plurality opinion observes
that the question of relevance is discretionary,
once relevancy is determined, I note that the

not an unreasonable application of Crane
because Crane did not ‘‘squarely address
TTT a court’s exercise of discretion to exclude expert testimony’’). The Sixth Circuit
independently determined that the excluded evidence at issue was not probative,
that is, not critical to the defense, see
Gagne v. Booker, 680 F.3d 493, 515–16 (6th
Cir. 2012) (en banc), and determined that
the state court provided a rational justification for excluding the evidence, see Loza
v. Mitchell, 766 F.3d 466, 485–86 (6th Cir.
2014) (observing that the state trial court
explained why the excluded evidence was
not vital to the defense). Similarly, the
Eighth, Tenth, and Eleventh Circuits held
that the excluded evidence was not vital to
the defense. Rucker v. Norris, 563 F.3d
766, 770 (8th Cir. 2009) (the excluded evidence was cumulative); Grant v. Royal,
886 F.3d 874, 957, 960 (10th Cir. 2018)
(same); Troy v. Sec’y, Fla. Dep’t of Corr.,
763 F.3d 1305, 1316 (11th Cir. 2014) (the
excluded evidence provided ‘‘entirely speculative’’ testimony). Recently, the Seventh
Circuit held that a state trial court’s exclusion of the defendant’s testimony as irrelevant (the same reason the state trial court
gave for excluding Pinkerman’s testimony)
was an unreasonable application of Crane
because the testimony was critical to the
defense and its exclusion was arbitrary.
Fieldman v. Brannon, 969 F.3d 792, 802–
09 (7th Cir. 2020).20 Rather than support
exclusion of that evidence (if deemed irrelevant) is not.
20. In explaining the requirements to obtain
relief under AEDPA deference, the Seventh
Circuit summarized and applied the legal
standard for the ‘‘unreasonable application’’
prong under § 2254(d)(1). See Fieldman, 969
F.3d at 802, 809 (summarizing Panetti, 551
U.S. at 953, 127 S.Ct. 2842). Thus, although
the court in Fieldman wrote that the state
trial court’s adjudication was ‘‘contrary to’’
clearly established law, the holding was in
fact based under the ‘‘unreasonable application’’ prong.

64a

515

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

the plurality opinion’s circuit-split thesis,
these cases actually contradict its argument that Crane prohibits courts from independently determining whether excluded evidence is relevant and vital to the
defense as part of deciding the complete
defense question. See Plurality Op. at 470–
72.
The plurality opinion is also wrong that,
if we applied Crane and Chambers to a
discretionary rule (which, again, this opinion does not), we would create a circuit
split by disagreeing with the Ninth Circuit.
The Second Circuit has held that a state
court unreasonably applied Crane on evidence subject to a trial court’s discretion.
See Scrimo v. Lee, 935 F.3d 103, 112, 115
(2d Cir. 2019) (holding that the state trial
court’s exclusion of witness testimony as
extrinsic evidence on a collateral matter, a
discretionary rule, was an unreasonable
application of Crane and Chambers).21 We
have as well. See Kittelson v. Dretke, 426
F.3d 306, 310, 319–21 (5th Cir. 2005) (per
curiam) (holding that a state trial court’s
discretionary limitation on cross-examination was an unreasonable application of
complete defense precedents). Therefore,
even if this case concerned a ‘‘discretionary evidence rule’’ (which it does not), our
holding that the state habeas court unreasonably applied Crane and Chambers
would not create a circuit split—the Ninth
Circuit has already done so with a decision
inconsistent with seven other circuits, including ours.

IV.

Pinkerman’s testimony on Lucio’s susceptibility to take blame for everything
was critical to refuting the State’s primary
evidence of her guilt: Lucio’s interrogation
statements. The state habeas court’s rejection of Lucio’s complete defense claim as
irrelevant was irrational and an unreasonable application of Crane and Chambers. I
would thus reverse the district court’s order and remand for the district court to
grant Lucio relief. Accordingly, I respectfully dissent from the decision to affirm.
Stephen A. Higginson, Circuit Judge,
joined by Stewart and Elrod, Circuit
Judges, dissenting:
If we are to accept the death penalty as
a practice, the Supreme Court has been
exactingly clear that it is applied only to
those whose cases leave no doubt that they
are deserving of the ultimate punishment.
I write separately for emphasis, an opportunity made possible by the comprehensiveness of Judge Haynes’s opinion,
which I gratefully join, albeit with the
caveat kindly noted in her third footnote.
My emphasis is about what this case is,
and what it is not.
It is a death penalty case with one issue,
namely Ms. Lucio’s effort to respond to
the government’s insistence at trial that
she confessed five hours into interrogation
to killing her child.1 Legally, it is a case

21. The plurality opinion contends that Scrimo
does not support our position, but the plurality opinion misses the point. See Plurality Op.
at 486–87. I identify Scrimo for the proposition that this opinion’s position—that an unreasonable application of Crane is not limited
to evidence subject to categorical evidence
rules—would not create a circuit split.
1.

Conclusion

Ms. Lucio’s comments arose out of the reality that Mariah was also a victim of Texas’s
broken foster care system. The Texas Depart-

65a

ment of Family Protective Services (‘‘DFPS’’)
removed all of Ms. Lucio’s children from her
care in September, and then returned them,
including Mariah, two months later; Mariah
died in February. See Stukenberg v. Abbott,
907 F.3d 237, 256–68 (5th Cir. 2018) (finding
that the State was deliberately indifferent to
the substantial risk that children in the Texas
foster care system would be exposed to serious harm such as physical, sexual, and psychological abuse given that it was ‘‘aware of
the systemic deficiencies plaguing its monitor-

516

987 FEDERAL REPORTER, 3d SERIES

whose resolution should be controlled by
the Supreme Court’s unanimous ruling in
Crane v. Kentucky that the due process
clause’s guarantee of an opportunity to be
heard ‘‘would be an empty one if the State
were permitted to exclude competent, reliable evidence bearing on the credibility of
a confession when such evidence is central
to the defendant’s claim of innocence.’’
Crane v. Kentucky, 476 U.S. 683, 690, 106
S.Ct. 2142, 90 L.Ed.2d 636 (1986); Fieldman v. Brannon, 969 F.3d 792 (7th Cir.
2020).
Indeed, we are controlled by the Supreme Court’s verbatim vindication of the
constitutional imperative that a capital defendant’s answer must be heard as to why,
during government interrogation, without
counsel present, she incriminated herself.
Crane, 476 U.S. at 689, 106 S.Ct. 2142
(‘‘[S]tripped of the power to describe to the
jury the circumstances that prompted his
confession, the defendant is effectively disabled from answering the one question
every rational juror needs answered: If the
defendant is innocent, why did he previously admit his guilt?’’).
On the other hand, what this case is not
is a criminal prosecution where the execution should proceed because, contrary even
to Texas’s arguments, we say constitutional error was forfeited, waived, shifted, or,
in the words of the court, ‘‘radically shifted,’’ causing injury to ‘‘whipsaw[ed]’’ and
‘‘sandbagg[ed]’’ state courts.2 From the

first, Ms. Lucio only had one answer to the
prosecutor’s insistence that she was guilty
because she said she was. Yet the trial
court excluded that answer on a ground so
indefensible that neither the plurality nor
Texas defends it, namely that Ms. Lucio
‘‘denied ever having anything to do with
the killing of the child,’’ making evidence
about the circumstances of her confession
irrelevant. Even if that reason for exclusion were not counterfactual, under Crane,
‘‘the physical and psychological environment that yielded [Ms. Lucio’s] confession’’
is of ‘‘substantial relevance to the ultimate
factual issue of [Ms. Lucio’s] guilt or innocence,’’ especially because the State rested
its case on that very confession. Id.; Fieldman, 969 F.3d at 803.
Furthermore, this is not a case about
‘‘extending’’ Crane’s imperative that a capital defendant’s answer to self-incrimination during interrogation is inherently relevant information for the jury to consider.
Very specifically, it is not about constitutionalizing expert opinion testimony admissibility. As the facts of Crane demonstrate,
fact testimony or other evidence about Ms.
Lucio’s circumstances bearing on the credibility of her confession, situational and
dispositional, could have taken the place of
the proposed expert testimony offered.
Crane, 476 U.S. at 688, 106 S.Ct. 2142
(‘‘ ‘[E]vidence surrounding the making of a
confession bears on its credibility’ as well
as its voluntariness.’’ (quoting Jackson v.

ing and oversight practices’’ and did not
‘‘take[ ] any steps at all’’ to address them).
2.

Notably, Texas agreed before the district
court that the issue was preserved, conceding
that ‘‘Lucio raised [her claim that Villanueva
and Pinkerman were improperly excluded] in
state habeas proceedings.’’ Even in its most
recent briefing to our full court, Texas stated
that ‘‘Lucio’s state habeas application presented a specific complete-defense claim: The
trial court violated her right to present a
complete defense when it excluded her expert
testimony as irrelevant because ‘the evidence

66a

at issue here was not irrelevant to the issue of
[her] guilt or innocence.’ ’’ Unmistakably,
therefore, it is our court, and only at the en
banc stage, that erects procedural bars
against a capital defendant’s constitutional
claim being considered on the merits. See
United States v. Sineneng-Smith, ––– U.S.
––––, 140 S. Ct. 1575, 1579, 206 L.Ed.2d 866
(2020) (reiterating the importance of ‘‘party
presentation’’ and emphasizing that courts
should function as ‘‘essentially passive instruments of government’’ (citation omitted)).

LUCIO v. LUMPKIN
Cite as 987 F.3d 451 (5th Cir. 2021)

Denno, 378 U.S. 368, 386, 84 S.Ct. 1774, 12
L.Ed.2d 908 (1964))). The fundamental
problem is not the form of evidence excluded, but that the trial judge applied an
indefensible ‘‘blanket exclusion’’ of Pinkerman’s testimony by deeming it irrelevant
without providing any ‘‘rational justification’’ for its exclusion. Id. at 690–91, 106
S.Ct. 2142. Stated otherwise, the trial
judge never reached any issue relating to
the admissibility of Pinkerman’s testimony
as expert opinion. The exclusion of Ms.
Lucio’s evidence was a threshold irrelevancy one.3 Fieldman, 969 F.3d at 807.
3.

By contrast, the trial judge did consider
Villanueva’s testimony and determined that
she was not qualified as an expert. Right or
wrong, we must defer to that ruling.

4.

As Judge Haynes highlights, Ms. Lucio for
hours proclaimed her innocence. About three
hours into the interrogation, however, responding to suggestive questions and after
viewing dozens of photographs of the child,
she acquiesced:
Texas Ranger: Explain it [t]o us. Ok?
Ms. Lucio: I mean I would spank her, but
I didn’t think I would spank her, to
where TTT to where it got to this point.
Texas Ranger: Cause you were mad?
Ms. Lucio: No. I mean I never took out
my anger on my kids. I never did.
Texas Ranger: Ok. Frustration? [Melissa
nods head no]. Melissa. I’m being
straight with you. And I need you to
be completely honest with me. ok?
It’s just you and I. ok? I’m meeting
you halfway. ok? TTT Ok? TTT it’s ok.
TTT You did it? Who did it?
Ms. Lucio: I did.
Texas Ranger: Ok. You did? Did the world
stop moving? No. TTT It’s for your
own good. TTT You’re doing good.
You’re doing good. Start from the
beginning and break it down for me.
Just let it out. I wanna hear your
said. Layed it all out. And then I’ll
come back with questions. Explain
this well this is anybody else responsible?
Ms. Lucio: No.
Texas Ranger: Or am I talking to the right
person? [Melissa nods head Yes]. Ok.
Perfect. Tell me. Melissa tell me.

517

A battered woman was convicted of capital murder because, in a case lacking direct evidence, prosecutors told the jury
that, five hours into interrogation, in the
middle of the night after the discovery of
her dead child, Ms. Lucio accepted a seasoned interrogator’s suggestion that she
was responsible, ultimately agreeing with
him that she ‘‘did it.’’ The jury’s best proof
of guilt was Ms. Lucio’s eventual capitulation blaming herself.4 That may be appropriate inference and argument, but what
violates our Constitution and disregards
binding, bedrock Supreme Court law, is

67a

Let’s do this together. ok? Let’s get it
over with. Say yeah. We can get it
over with and move on. Ok Melissa?
Let’s just get it over with.
Ms. Lucio: I don’t know what you want
me to say. I’m responsible for it.
About thirty minutes later, and after viewing
more photographs of her dead child, Ms. Lucio acquiesced again:
Texas Ranger: What about all these [inaudible] spots? On her vagina?
Ms. Lucio: uh uh. I never did that.
Texas Ranger: Who did?
Ms. Lucio: [shaking head no]
Texas Ranger: Your husband?
Ms. Lucio: No.
Texas Ranger: Why don’t you wanna tell
me? Why don’t you wanna tell me?
Ms. Lucio: I didn’t do that and my husband didn’t do that. Must been he
would touched her when he would
spank her.
Texas Ranger: The who did it?
Ms. Lucio: [Melissa shakes head no]
Texas Ranger: Just tell me Melissa. TTT I
can move on to the next. Get this
picture out of your face. How did
this happen? We know this is you
TTT. You did this.
Ms. Lucio: I guess I did it. I guess I did it.
Texas Ranger: How?
Ms. Lucio: I don’t know.
Texas Ranger: You would hit her there?
Ms. Lucio: No. I never hit her there.
Finally, at about 3:00 a.m.—five hours into
the interrogation—Ms. Lucio uttered the
phrase seized on by the government to convict her, remarking ‘‘I just did it’’ in the
context of a series of questions about whether
she bit Mariah.

518

987 FEDERAL REPORTER, 3d SERIES

the government’s simultaneous, successful
effort excluding Ms. Lucio’s one answer to
why she might capitulate, namely that a
lifetime of abuse had made her acquiescent, desirous to please and to accept responsibility, and to avoid confrontation.5
This case squarely implicates Crane and
we do no harm—whipsaw no court—when
we vindicate binding Supreme Court law
that a defendant, especially a capital defendant—here a battered woman and
mother—must be heard to answer why she
acquiesced and told her interrogator, ‘‘I
just did it.’’

,
STATE of Texas; State of Kansas; State
of Louisiana; State of Indiana; State
of Wisconsin; State of Nebraska,
Plaintiffs - Appellees Cross-Appellants
v.
Charles P. RETTIG, in his Official Capacity as Commissioner of Internal
Revenue; United States of America;
United States Department of Health
and Human Services; United States
5.

Internal Revenue Service; Alex M.
Azar, II, Secretary, U.S. Department
of Health and Human Services, Defendants - Appellants Cross-Appellees
No. 18-10545
United States Court of Appeals,
Fifth Circuit.
FILED February 12, 2021
Background:
States brought action
against Department of Health and Human
Services (HHS) and its Secretary, and Internal Revenue Service (IRS) and its Acting Commissioner, alleging that HHS’s
certification rule, which required the
States to pay Patient Protection and Affordable Care Act’s (ACA) health insurance provider fee (HIPF), violated ACA,
Administrative Procedure Act (APA),
Spending Clause, Vesting Clause, and
Tenth Amendment, seeking declaration
that certification rule was unconstitutional
and permanent injunction enjoining defendants from denying Medicaid funds to
States based on their refusal to pay the
HIPF or refusing to approve the States’
proposed Medicaid capitation rates based
on their failure to account for the HIPF,
and seeking tax refund of their HIPF payments. The United States District Court
for the Northern District of Texas, O’Connor, J., 2016 WL 4138632, entered interlocutory order dismissing States’ tax refund

Notably again, Texas does not dispute that
Pinkerman’s detailed affidavit given after trial
is in the state record and therefore is properly before us in reviewing whether the district
court’s ruling was violative of Crane. This
affidavit further clarifies Pinkerman’s testimony that ‘‘in [his] professional opinion her
psychological characteristics increase the
likelihood that she would acquiesce while
providing her confession’’ due to being isolated for 5 hours, ‘‘repeatedly interrogated by
male police officers in close quarters, not
provided a place or opportunity to rest nor
provided food or water.’’ Pinkerman also
would testify to Ms. Lucio’s behavior based
on her ‘‘emotional and physically abusive re-

68a

lationships with males,’’ including being
‘‘very capable of making self-sacrifice in providing a false confession in order to avoid
investigation of her children,’’ several of
whom had ‘‘bad behavioral disorders marked
by severe aggression against the[ir] siblings,’’
including Mariah. Pinkerman’s proffer therefore interlocks with interrogation techniques
used against Ms. Lucio where the interrogator targeted Ms. Lucio’s desire for male approval. For example, at 1:22 a.m., so hours
into interrogation, the interrogator offered to
‘‘to let [Ms. Lucio’s] hair down’’ and ‘‘put it
in a pony tail’’ and then left the room. After
he returned, Ms. Lucio uttered her ‘‘I just did
it’’ confession at about 3:00 a.m.

Appendix B

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_____________________

No. 16-70027
_____________________
MELISSA ELIZABETH LUCIO,

Petitioner - Appellant

v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
__________________________
Appeal from the United States District Court
for the Southern District of Texas
__________________________
ON PETITION FOR REHEARING EN BANC
(Opinion July 29, 2019, 5 Cir., 2019, 783 Fed.Appx. 313)
Before OWEN, Chief Judge, JONES, SMITH, STEWART, DENNIS,
ELROD, SOUTHWICK, HAYNES, GRAVES, HIGGINSON, COSTA,
WILLETT, HO, DUNCAN, ENGELHARDT, and OLDHAM, Circuit Judges.
BY THE COURT:
A member of the court having requested a poll on the petition for
rehearing en banc, and a majority of the circuit judges in regular active
service and not disqualified having voted in favor,
IT IS ORDERED that this cause shall be reheard by the court en banc
with oral argument on a date hereafter to be fixed. The Clerk will specify a
briefing schedule for the filing of supplemental briefs.
69a

Appendix C

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 16-70027

FILED
July 29, 2019
Lyle W. Cayce
Clerk

MELISSA ELIZABETH LUCIO,
Petitioner - Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court
for the Southern District Court
USDC No. 1:13-CV-125
Before HIGGINBOTHAM, HAYNES, and GRAVES, Circuit Judges.
PER CURIAM:*
Melissa Lucio was convicted of murdering her two-year-old daughter
Mariah and sentenced to death. See Lucio v. State, 351 S.W.3d 878, 880 (Tex.
Crim. App. 2011). Her daughter’s body had been badly bruised, but the State’s
examiner concluded that she died from a final blow to the head. The State’s
case against Lucio was built primarily on a videotaped interrogation of Lucio,

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

70a

No. 16-70027
filmed in the midnight hours just after Lucio’s daughter was declared dead.
After about five hours of interrogation, Lucio admitted to, in her words,
spanking her daughter. The State used those statements to argue to the jury
that she confessed to abusing Mariah and that, by inference, she must have
killed her. Lucio tried to rebut the impact of the interrogation by putting on
an expert witness to explain why she would admit to facts that were not true.
But the state trial court would not allow the expert to testify because it
concluded such testimony was “irrelevant,” depriving Lucio of her most
compelling challenge to the statements.
Lucio has now sought federal relief under 28 U.S.C. § 2254, arguing she
was deprived of her constitutional right to meaningfully present a complete
defense. She raised that issue first in the state court, but no state court ever
adjudicated the claim. We thus review her claims under a de novo standard of
review. Under that standard, we conclude that the state trial court deprived
Lucio of her constitutional right to present a meaningful defense. We thus
REVERSE the district court’s order denying her claim and REMAND for the
district court to grant Lucio relief.
I.

Background

Before her daughter’s death in 2007, Lucio lived with nine of her children
and her husband. On a February evening that year, paramedics were called
to Lucio’s home. When they entered the apartment, they found two-year-old
Mariah “unattended and lying on her back in the middle of the floor not
breathing and with no pulse.” Lucio told the paramedics that Mariah had
“fallen down some stairs.” The paramedics took Mariah to an emergency room,
where doctors declared her dead.
Doctors at the hospital noticed that Mariah’s body had been “severely
abused”; in addition to bruises “covering her body, there were bite marks on
her back, one of her arms had been broken probably about two to seven weeks
2
71a

No. 16-70027
before her death, and she was missing portions of her hair where it had been
pulled out by the roots.”
That same night, several investigators questioned Lucio. The interview
began just before 10:00 p.m. Lucio told the police that Mariah had fallen down
some stairs outside of her apartment on Thursday night. Though she admitted
that she sometimes spanked her daughters “on the butt,” she repeatedly denied
hitting or abusing Mariah. Over about three hours, her story remained the
same: Her kids were rough with Mariah but she did not know who caused
Mariah’s specific injuries.

She also described Mariah’s physical condition

leading up to her death. Mariah was “sick” on the Saturday that she died and
the Friday before, but Lucio did not take Mariah to the doctor. Mariah would
not eat, and her breathing was heavy. She slept all day Saturday, and she
would lock her teeth together when Lucio would try to feed her.

The

interrogation went on for more than three hours.
Then, after 1:00 a.m., Texas Ranger Victor Escalon entered the room and
told Lucio—in a long, mostly one-person exchange—that they needed her story
and that everyone would understand. At that point, Lucio told Escalon she
wanted a cigarette and to talk to her husband. Escalon told her she could do
those things after she gave her statement.

Escalon then asked Lucio

repeatedly to tell him “everything.”
Lucio eventually told him that she “would spank [Mariah], but [Lucio]
didn’t think [she] would spank her, to where . . . to where it got to this point.”
(ellipsis in transcript). At Escalon’s suggestion, Lucio said that the spanking
was “all over [Mariah’s] body.”

Escalon prompted her for more, but she

responded, “I don’t know what you want me to say. I’m responsible for it.” She
maintained that she was not angry at Mariah but was “frustrated” by the other
kids who were “very hyper,” making it difficult to take care of them all. She
also stated that she bit Mariah one day while tickling her; she did not know
3
72a

No. 16-70027
why she did it. While making these statements, Lucio continued to maintain
that she had not hit Mariah in the head and only spanked her. She also stated
that no one else was responsible for Mariah’s injuries and that she was the
only one who spanked her.
As the interrogation progressed, Escalon identified specific bruising on
Mariah and asked Lucio to tell him how it happened. Lucio usually responded
that she did not know how the bruises occurred and often said she did not hit
her in particular spots. When Escalon insisted she was responsible for specific
bruises, Lucio responded, “I guess I did it. I guess I did it.” She suggested that
some of the other injuries, like scratches, could have been caused by her other
daughters. For some of the bruises, Lucio said she was the one who caused
them, and said she would sometimes spank Mariah when she woke up other
kids.
Escalon then had Lucio take a break at 1:22 a.m. After the break, officers
took DNA samples from Lucio, then took another break.
At 3:00 a.m., Escalon resumed the interrogation. He brought in a doll to
have Lucio show him how she bit and spanked Mariah. When showing him
how she bit Mariah, Escalon asked if she was angry at Mariah. She said no,
explained she was frustrated with the other kids, and described how she bit
Mariah after she finished brushing her hair. Escalon then asked Lucio to show
how she spanked Mariah. When she demonstrated, Escalon told her, “Well do
it real hard like . . . like you would do it.” (ellipsis in transcript). When she
said that was how hard she spanked her, Escalon performed what he thought
was a hard spank and had Lucio demonstrate again. He identified several sets
of bruises and had her spank the doll in those areas to demonstrate how she
would have spanked Mariah.
Lucio was charged with “intentionally and knowingly” causing Mariah’s
death “by striking, shaking or throwing Maria[h] . . . with [her] hand, or foot,
4
73a

No. 16-70027
or other object,” which constituted a capital murder charge. See TEX. PENAL
CODE §§ 19.02(b)(1), 19.03(a). The issue then was not simply whether Lucio
inhumanely neglected Mariah—virtually a given on this record—but whether
she intentionally or knowingly killed Mariah and did so by striking her. See
Louis v. State, 393 S.W.3d 246, 251 (Tex. Crim. App. 2012) (“Capital murder is
a result-of-conduct offense; the crime is defined in terms of one’s objective to
produce, or a substantial certainty of producing, a specified result, i.e. the
death of the named decedent.” (quoting Roberts v. State, 273 S.W.3d 322, 329
(Tex. Crim. App. 2008))).
The State’s theory of the case depended on two critical points. First, it
sought to prove that Mariah’s death was caused by a fatal blow to the head and
that the fatal blow could not have been from Mariah falling down the stairs.
The State presented testimony from the chief forensic pathologist for Cameron
and Hidalgo Counties, who conducted Mariah’s autopsy. She testified that
Mariah’s cause of death was “blunt force trauma.” The pathologist defined this
as being “beat[en] about the head with something—an object, a hand, a fist, or
slammed.” According to her, the trauma would have occurred within a day
before Mariah’s death. It would have been immediately apparent that Mariah
needed medical attention, as symptoms like vomiting or lethargy would have
appeared “fairly quickly” after the trauma. The pathologist also explained that
a fall down the stairs would not have caused all of Mariah’s injuries. Even
considering just the bruises on her head, the pathologist concluded that a
single fall down the stairs could not have caused all of them. She also testified
that this was the most severe case of child abuse she had ever seen in her
fourteen-year practice. Mariah had more bruises, of varying color and age,
than she had ever seen on one child.
Second, the State used Lucio’s “confession” to try to establish that she
abused Mariah and, in turn, caused her death. The State admitted the videos
5
74a

No. 16-70027
of Lucio’s interrogation during the first day of trial and immediately played
them for the jury. It later put Escalon on the stand, and he testified about
Lucio’s demeanor during the interrogation. During its closing argument, the
State characterized Lucio’s admission as a “confession,” which proved beyond
a “reasonable doubt that [Lucio] killed that little girl.” It emphasized that
Lucio “did make the statement and the statement that she made was the true
and correct statement at the end. She admitted it. She admitted that she
caused all of the injuries to that child, ladies and gentlemen.” The State also
highlighted Lucio’s demeanor during the interrogation, rhetorically asking
why she would look or act a certain way if all she did “was physically beat the
child, but didn’t cause the death.” It also referenced Escalon’s testimony that
Lucio’s demeanor indicated she was “hiding the truth.”
Lucio tried to defend against both points. First, she tried to present
evidence that it was possible that Mariah’s head trauma was caused by a fall
down the stairs. She called a neurosurgeon who testified that the blunt force
trauma causing Mariah’s death could have resulted from falling down stairs.
During closing arguments, Lucio’s counsel argued that the State failed to
overcome reasonable doubt because evidence indicated that Mariah’s fatal
injury could have resulted from falling down stairs.
Second, Lucio wanted to present two expert witnesses to testify that her
interrogation statements were not trustworthy, but the state trial court did not
let them testify.

The first expert was Norma Villanueva, a licensed social

worker with graduate-level education. She was presented to explain “why
[Lucio] would have given police [officers] information . . . that was not correct”
to show that Lucio “admits to things that she didn’t do.” Villanueva’s training
included courses on how to understand what people “are trying to convey by
the way they act, by the way they hold their body, by the way they move their
arms and hands.” Her claimed expertise was based on over twenty years of
6
75a

No. 16-70027
“clinical training and clinical experience [and] a combination of knowing life
span development theories . . . and human behavior social environment
interaction theories.” The state trial court would not permit Villanueva to
testify over doubts that she was qualified to testify on body language
interpretation and concerns that she could not testify about “why [a] statement
is or is not true.”
The second expert that Lucio wanted to present was Dr. John
Pinkerman, a psychologist who would have testified that Lucio was a “battered
woman” who “takes blame for everything that goes on in the family.” He
formed his opinion after reviewing the interrogation tapes, meeting with Lucio
on four occasions, reviewing her history, and administering various
psychological tests to her. The state trial court prevented Pinkerman from
testifying; it considered his testimony irrelevant because Lucio “denied ever
having anything to do with the killing of the child.”
Beyond her medical expert and the two excluded experts, Lucio called
one new witness and recalled one of the State’s witnesses. The new witness
was Lucio’s sister, Sonia Chavez, who testified that Lucio “never disciplined
her children.” The recalled witness was Joanne Estrada, a child protective
services worker.

Estrada was asked about whether she had reviewed

documents that showed that Mariah had tantrums while in foster care and had
hit her head on the floor. Estrada testified that she had not come across
anything in Lucio’s file that showed she was “physically abusive to any of the
children.” Lucio presented no other witnesses.
Ultimately, Lucio was convicted and sentenced to death. Lucio appealed
her conviction, but the Texas Court of Criminal Appeals affirmed. Lucio, 351
S.W.3d at 910. The State’s argument on appeal continued to rely on Lucio’s
interrogation. In responding to Lucio’s sufficiency of the evidence challenge,
the State argued that a “jury could have reasonably concluded that [Lucio] was
7
76a

No. 16-70027
responsible for delivering the fatal blow to Mariah’s head, as she had the
opportunity to do so, and she had admitted to a pattern of abuse that had
continued for some two months.” Id. at 894–95 (emphasis added). The Texas
Court of Criminal Appeals accepted that argument. Id. at 895.
Lucio also appealed the district court’s decision to bar her experts,
Villanueva and Pinkerman, from testifying. Id. at 897–902. She argued that
she should have been permitted to present Villanueva’s and Pinkerman’s
testimonies to help prove her “confession” was involuntary. Lucio contended
that the jury could have “used it to decide whether the battered woman
voluntarily gave the statement at the station to the police” and to show that
she “would have and did tell the police whatever they wanted her to say.” Id.
at 898.
The Texas Court of Criminal Appeals rejected Lucio’s arguments for
primarily procedural reasons. It concluded that what she argued on appeal did
“not comport” with the experts’ “proffered testimony at trial.” Id. at 900, 902.
She thus was found to have failed to preserve her arguments for appeal. Id.
The court alternatively noted that Villanueva’s and Pinkerman’s testimonies
were only marginally relevant to the issue of whether Lucio’s alleged
confession was voluntary under state law. See id. at 900–02. Finally, it
footnoted that excluding Villanueva’s testimony would have been harmless “in
light of appellant’s subsequent admission during her recorded statement that
she abused Mariah, followed by her demonstrating such abuse with the doll.”
Id. at 901 n.25.

It did not appear to make that same conclusion about

Pinkerman’s testimony.
After Lucio lost her appeal, she sought state habeas relief. As with her
direct appeal, she argued that Villanueva’s and Pinkerman’s testimony should
have been admitted. This time, though, she distinguished her argument as
going “to the core of the case—whether [Lucio] was likely to have engaged in
8
77a

No. 16-70027
ongoing abuse of Mariah.” She stated that the issue was the deprivation of
“the constitutional right to present a complete defense,” and cited a state law
case that relied on the Federal Constitution for that right. This issue is the
only one on which a COA was granted and, using the terminology from that
order, we refer to this as the “complete defense” claim.
The state habeas court rejected her argument. It concluded that her
claim was “nearly identical to [the issues] raised on direct appeal,” and she had
not presented any additional evidence in support of the claim. Her claim thus
failed. The state habeas court also concluded that the “district court did not
abuse its discretion in excluding” the expert testimony. It concluded that
Villanueva was not an expert in “interpreting body language and patterns of
behavior during police interviews.” It separately concluded that Pinkerman’s
testimony “had no relevance to the question of [Lucio’s] guilt or innocence.”
Lucio appealed the state habeas court’s decision. The Texas Court of
Criminal Appeals adopted the habeas court’s findings of fact and conclusions
of law. It noted that some of the issues Lucio raised were procedurally barred,
but her “complete defense” claim was not among those found barred.
Lucio later filed an application for federal habeas relief pursuant to 28
U.S.C. § 2254 in federal district court, again asserting her “complete defense”
claim. The district court rejected the claim. It concluded that she had not
shown that the state trial court’s “exclusion of Villanueva’s testimony on the
basis of Villanueva’s lack of expert qualifications was incorrect” and there were
no indications of “police misconduct, or any police action that rendered Lucio’s
statements involuntary.” The district court considered Pinkerman’s testimony
to be “only tangentially related to the question of Lucio’s guilt or innocence.”
It also noted that the “evidence that anyone but Lucio inflicted the fatal
injuries is tenuous at best.”
9
78a

No. 16-70027
Lucio filed a timely notice of appeal and this court granted her a COA on
“the question of whether the exclusion of Lucio’s proffered experts on the
credibility of her alleged confession violated her constitutional right to present
a complete defense.”
II.

Discussion

Lucio asserts that she was deprived of her due process right to present a
complete defense when the district court excluded the testimony of Villanueva
and Pinkerman. To prevail, she must satisfy the statutory requirements of
AEDPA. She and the State dispute whether AEDPA’s typical standard of
review—whether the state court’s adjudication was “contrary to, or involved
an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States,” 28 U.S.C. § 2254(d)(1)—applies
here. Lucio asserts her claim should be reviewed de novo instead of under §
2254(d)’s stringent standard, because the claim was not “adjudicated on the
merits,” as that provision requires.

The State argues the claim was

adjudicated on the merits or, if it was not adjudicated, it is because Lucio failed
to present the claim to the state court. Both parties assert they win on the
merits of Lucio’s claim regardless of the standard of review. We begin by
addressing the procedural questions and then turn to the merits.
A. Exhaustion and Standard of Review
The State argues that Lucio did not exhaust her claim or, alternatively,
that her claim is subject to the strict standards of review under § 2254(d)(1).
We reject those arguments. Lucio exhausted her “complete defense claim,” and
the state court did not adjudicate that claim.
We begin with exhaustion. A petitioner seeking federal relief under
§ 2254 must first exhaust her state remedies. See 28 U.S.C § 2254(b)(1)(A).
The State argues that Lucio did not exhaust her claim because she argued a
state law claim in state court, not a federal constitutional claim. To exhaust a
10
79a

No. 16-70027
claim, a “prisoner must ‘fairly present’ [her] claim in each appropriate state
court (including a state supreme court with powers of discretionary review),
thereby alerting that court to the federal nature of the claim.” Baldwin v.
Reese, 541 U.S. 27, 29 (2004).
Lucio fairly presented her claim in state court. A prisoner can exhaust
a claim in state court by raising it through post-conviction proceedings, even if
she did not raise it in her direct appeal. See Orman v. Cain, 228 F.3d 616, 620
& n.6 (5th Cir. 2000). Lucio’s argument to the state habeas court flagged her
“complete defense” argument as a “constitutional” issue and cited a Texas case
that relied exclusively on the Federal Constitution. See Wiley v. State, 74
S.W.3d 399, 405–07 (Tex. Crim. App. 2002)); Wiley v. State, No. 03-99-00047CR, 2000 WL 1124975, at *1 (Tex. App. Aug. 10, 2000) (discussing exclusively
the Federal Constitution).

Texas does not appear to have recognized (or

rejected) a “complete defense” right under its own constitution, and Lucio did
not mention state evidentiary rules or standards in her state filings. So her
argument could not easily be mistaken for raising an exclusively state law
claim. After the state habeas court rejected her claim, Lucio sought review
from the Texas Court of Criminal Appeals, which also rejected her claim. She
has thus exhausted the claim.
We need not decide whether Lucio’s claim was procedurally defaulted in
state court and thus provided an adequate and independent state ground to
support the state court’s judgment. Default on state law grounds is a separate
doctrine related to the exhaustion requirement. See Davila v. Davis, 137 S. Ct.
2058, 2064 (2017). The State has not argued, either below or on appeal, that
Lucio defaulted her complete defense claim on state law grounds. We are not
required to raise the issue sua sponte, though we retain discretion to do so. See
Trest v. Cain, 522 U.S. 87, 89 (1997); Magouirk v. Phillips, 144 F.3d 348, 357–
58 (5th Cir. 1998); Smith v. Johnson, 216 F.3d 521, 524 (5th Cir. 2000) (per
11
80a

No. 16-70027
curiam); Moreno v. Dretke, 450 F.3d 158, 165 n.3 (5th Cir. 2006). We decline
to do so. Before we could conclude that an adequate state law ground existed,
we would have to determine that the state rule barring consideration was
“firmly established and regularly followed.” Walker v. Martin, 562 U.S. 307,
316 (2011) (internal quotation marks omitted). We have found no Texas case
law regarding the appropriate time to raise a “complete defense” claim. Then,
even if we concluded there was an adequate and independent state law ground,
we would have to determine whether there was “cause” that would excuse
Lucio’s state default. See Davila, 137 S. Ct. at 2064–65. These hurdles are
likely why the State forfeited any argument that Lucio defaulted her claim on
state law grounds. We thus decline to raise the issue sua sponte.
The parties do dispute whether Lucio’s “complete defense” claim was
adjudicated on the merits. A claim is adjudicated on the merits if a state court
issues an opinion rejecting the claim, and state courts are presumed to have
rejected a claim on the merits if a written order is silent regarding a claim. See
Johnson v. Williams, 568 U.S. 289, 300–01 (2013). That presumption may be
rebutted by some “indication” or “state-law procedural principles to the
contrary.” Id. at 298 (quoting Harrington v. Richter, 562 U.S. 86, 99 (2011)).
The Supreme Court provided rhetorical examples of indications that the
presumption should not apply, including:
• If the state standard, “in at least some circumstances[,] . . . is less
protective” than the federal standard, Id. at 301;
• If the state and federal standards are “quite different” and a party
makes “no effort to develop” the alternative standard, id.; or
• If a party only passingly cites the relevant standard, id.
Thus, “while the . . . presumption is a strong one that may be rebutted only in
unusual circumstances, it is not irrebuttable.” Id. at 302.
12
81a

No. 16-70027
The state court did not expressly adjudicate Lucio’s claim. The State
argues that the state habeas court adjudicated the claim in paragraphs thirtynine and forty of its findings of fact and conclusions of law. Those paragraphs
address state evidentiary standards and assert that Lucio’s claim was
redundant of her direct appeal argument. But Lucio explicitly framed her
argument as a constitutional claim distinct from what she argued on direct
appeal. The state habeas court’s order thus did not adjudicate the claim that
Lucio made.
Lucio has rebutted the presumption of adjudication. Lucio has identified
aspects of her case that are like those that the Supreme Court suggested could
rebut the presumption of adjudication. Instead of adjudicating her actual
claim, the state habeas court adjudicated a similar state claim. It likely did so
because the State responded to Lucio’s argument as though it should be
adjudicated on state evidentiary standards. But the standards for Lucio’s
constitutional claim and state evidentiary rules are “quite different” from each
other. Williams, 568 U.S. at 301. Indeed, the whole point of Lucio’s “complete
defense” claim is that, even if state evidentiary laws were correctly followed,
she was deprived of a constitutional right.

The state habeas court thus

adjudicated a separate issue without addressing the heart of Lucio’s claim
under the appropriate standards. This case thus fits one of the examples the
Supreme Court recognized as rebutting the presumption of adjudication on the
merits. See id. The state habeas court did not adjudicate Lucio’s “complete
defense” claim.
Consequently, Lucio’s claim is subject to de novo review in federal
district court and on appeal. See id. at 301–02; Lewis v. Thaler, 701 F.3d 783,
787 (5th Cir. 2012).

13
82a

No. 16-70027
B. “Complete Defense” Claim
Lucio argues she was deprived of the right to present a complete defense.
She argues that by excluding Villanueva’s and Pinkerman’s testimony, the
trial court made it impossible for her to meaningfully dispute the importance
and meaning of the videotaped interview.

We agree that excluding

Pinkerman’s testimony deprived her of the right to present a complete defense;
because we do, we do not need to examine whether excluding Villanueva’s
testimony was also a violation of her constitutional rights. 1
The Supreme Court has recognized that the Constitution guarantees
criminal defendants a “meaningful opportunity to present a complete defense.”
United States v. Scheffer, 523 U.S. 303, 329 (1998) (quoting Crane v. Kentucky,
476 U.S. 683, 690 (1986)). In a series of cases, it held that the applications of
various state evidentiary rules infringed that right. 2 Though the Supreme
Court’s case law has “typically focus[ed] on categorical prohibitions of certain
evidence,” Caldwell v. Davis, 757 F. App’x 336, 339 (5th Cir. 2018) (per curiam),
we have at least once held that a state court’s application of a discretionary
At the very least, the exclusion of Villanueva’s testimony raises concerns about the
fairness of the trial. The State asked Ranger Escalon to describe Lucio’s demeanor during
her interrogation; he responded that it indicated that she was saying, “I did it.” The State
then asked him to detail his experience interviewing people and to contrast Lucio’s demeanor
with others’ demeanor. Escalon did not indicate he had any formal training on reading body
language. By contrast, Villanueva did have such training and was not allowed to testify on
that subject.
1

See Crane, 476 U.S. at 684, 691 (holding that the state court’s exclusion of evidence
probative of the credibility of the defendant’s confession because the proffered evidence was
relevant to voluntariness, an issue the court had already ruled on, violated the defendant’s
right to a fair trial under the Sixth and Fourteenth Amendments); Washington v. Texas, 388
U.S. 14, 15, 23 (1967) (holding that a state statute barring the defendant from calling a
“principal[], accomplice, or accessor[y] in the same crime” as a witness in his defense violated
the defendant’s rights to call witnesses in his own defense and to compulsory process for
obtaining such witnesses); Chambers v. Mississippi, 410 U.S. 284, 297–98, 302–03 (1973)
(holding that the Mississippi voucher and hearsay rules were unconstitutional as applied to
the extent that they prevented the defendant from: (1) putting on evidence of a third party’s
confession to the crime with which the defendant was charged and (2) challenging that
witness’s subsequent retraction).
2

14
83a

No. 16-70027
evidentiary rule violated a defendant’s right to present a complete defense. See
Kittelson v. Dretke, 426 F.3d 306, 321 (5th Cir. 2005) (per curiam).
But the right to present a complete defense is not unfettered.

The

Supreme Court has “found the exclusion of evidence to be unconstitutionally
arbitrary or disproportionate only where it has infringed upon a weighty
interest of the accused.” Scheffer, 523 U.S. at 308. “[T]he Constitution leaves
to the judges who must make [evidentiary] decisions ‘wide latitude’ to exclude
evidence that is ‘repetitive . . . , only marginally relevant’ or poses an undue
risk of ‘harassment, prejudice, [or] confusion of the issues.’” Crane, 476 U.S.
at 689–90 (ellipsis and third set of brackets in the original) (quoting Delaware
v. Van Arsdall, 475 U.S. 673, 679 (1986)); see also Patterson v. Cockrell, No. 0111170, 2002 WL 432402, at *2 (5th Cir. 2002) (unpublished) (per curiam)
(“Crane cannot be interpreted to convert every arguable misapplication of state
evidentiary rules into an unconstitutional denial of a fair trial.”).
The trial court’s decision to exclude Pinkerman’s testimony “infringed
upon a weighty interest of the accused” so as to be “unconstitutionally
arbitrary.”

Scheffer, 523 U.S. at 308.

Lucio’s counsel made clear that

Pinkerman would present expert evidence that, as a result of her psychological
profile, Lucio “takes blame for everything that goes on in the family. . . . She
takes blame for everything that goes on in the house,” even for acts that she
did not commit. The state trial court concluded that Lucio “admitted actions
that she took that could have resulted in the death. But she denied ever having
anything to do with the killing of the child.” It thus had “a hard time figuring
out how it goes to the guilt or innocence” and denied Lucio the opportunity to
present Pinkerman’s testimony.
The trial court’s conclusion was inconsistent with the reality of this trial.
Lucio’s admissions of abuse within her interrogation statement were the most
significant evidence in the case. See, e.g., Arizona v. Fulminante, 499 U.S. 279,
15
84a

No. 16-70027
297 (1991) (“Absent the confessions, it is unlikely that [the defendant] would
have been prosecuted at all, because the physical evidence from the scene and
other circumstantial evidence would have been insufficient to convict.”);
Bruton v. United States, 391 U.S. 123, 139 (1968) (“[T]he defendant’s own
confession is probably the most probative and damaging evidence that can be
admitted against him.”). The State presented no physical evidence or witness
testimony directly establishing that Lucio abused Mariah or any of her
children, let alone killed Mariah. Instead, it presented Lucio’s interrogation
statement—admitted and played during the testimony of its first witness—as
its crucial source of proving she committed the act. The State’s theory was that
Lucio’s interrogation admissions were true, that she was responsible for a
pattern of brutal abuse of Mariah, and that, from these admissions, the jury
could infer beyond a reasonable doubt that Lucio also struck the fatal blow to
the head that killed the child. In closing argument, the State summarized its
case by contending that Lucio must have killed Mariah because she abused
her. The only evidence it cited in closing to establish that Lucio abused her
was Lucio’s “confession.”

On appeal, when it argued the evidence was

sufficient to convict Lucio, it again relied on the assertion that Lucio “admitted
to a pattern of abuse.” See Lucio, 351 S.W.3d at 894–95 (internal quotation
mark omitted). Contrary to the state trial court’s conclusion, the interrogation
statement played a pivotal role in the State’s case as to guilt or innocence.
If the interrogation statement is taken away—or its validity is
undermined—then the State’s case becomes much more tenuous. A reasonable
juror would have much less reason to infer that Lucio—rather than her
husband, other children, or Mariah herself 3—caused Mariah’s injuries, much

Lucio’s counsel introduced evidence about records that reported that Mariah would
hit her head against the ground when throwing a tantrum.
3

16
85a

No. 16-70027
less her fatal head injury. To the extent that there was evidence beyond Lucio’s
statement that implicated her—such as opportunity as Mariah’s primary
caretaker—it pales in comparison to the force of an apparent confession of
abuse.
As critical as that evidence was to the State, explaining why it could not
be trusted was as critical to Lucio’s defense. To paraphrase the Supreme
Court, why Lucio would confess to abusing her daughter if she did not actually
abuse her was a “question every rational juror need[ed] answered” before
acquitting. Crane, 476 U.S. at 689. Lucio attempted to explain the alleged
confession with Pinkerman’s testimony. Neither the State nor the state trial
court questioned Pinkerman’s expert credentials. Pinkerman’s opinion was
that Lucio was susceptible to taking blame for something that was not her fault
and that this behavior was manifested in the interrogation video. It thus cast
doubt on the State’s key evidence and was paramount to Lucio’s defense. The
state trial court’s exclusion of Pinkerman’s testimony impinged on Lucio’s
“weighty interest” in explaining why her “confession” to abuse did not support
an inference of guilt beyond a reasonable doubt. Scheffer, 523 U.S. at 308.
The exclusion bears the hallmark sign of arbitrariness: complete
irrationality.

The state trial court asserted that Pinkerman’s testimony’s

casting doubt on the veracity of the interrogation statement was not relevant
because Lucio did not admit she struck the fatal blow.

But the State’s

argument that Lucio struck the fatal blow relied on an inference from the
statements that she abused Mariah. To undercut the State’s premise (i.e.,
Lucio abused Mariah) is to undercut its conclusion (i.e., Lucio killed Mariah).
“In the absence of any valid state justification, exclusion of this kind of
exculpatory evidence deprives a defendant of the basic right to have the
prosecutor’s case encounter and ‘survive the crucible of meaningful adversarial
testing.’” Crane, 476 U.S. at 690–91 (quoting United States v. Cronic, 466 U.S.
17
86a

No. 16-70027
648, 656 (1984)). 4 We thus conclude that the state court’s ruling was “of such
a magnitude or so egregious that [it] render[ed] the trial fundamentally
unfair.” Gonzalez v. Thaler, 643 F.3d 425, 430 (5th Cir. 2011).
Our conclusion bears strong resemblance to our previous conclusion in
Kittelson v. Dretke, where we concluded that a state trial court deprived a
defendant of the right to present a complete defense. See 426 F.3d at 321.
There, a state court prohibited a defendant accused of sexually assaulting a
young girl from “mention[ing] or allud[ing] to” the fact that one of the girl’s
friends had also accused him of sexual assault, only to later recant. Id. at 309–
12, 321. But the State was permitted to present evidence that the friend was
present and questioned about the abuse. Id. Like here, the state trial court in
Kittelson was not “concerned about the prejudicial effect of the jury hearing”
the excluded testimony. Id. at 321. Like here, the other evidence that the
defendant was permitted to present did not go “directly” to the “critical”
evidence that the State presented. Id. The same type of unfair, arbitrary
consequences present in Kittelson are present in Lucio’s case.
The State primarily contends that the state trial court’s decision was not
arbitrary based on a rationale that the state trial court never considered. It
argues that Pinkerman’s testimony would have been “tantamount to a direct

4 But even assuming the state trial court were right that the only issue was whether
she struck the fatal blow and that evidence undermining the interrogation statement was
not relevant, its ruling would still be arbitrary. Based on those assumptions, the state trial
court should not have admitted the interrogation in the first place. As the state trial court
said, Lucio does not admit to striking the fatal blow, so it would not (on the assumptions it
made) go to her guilt or innocence. Worse yet, admitting such an irrelevant video would be
far more prejudicial to Lucio than admitting Pinkerman’s testimony would be to the State.
So even if the state trial court’s theory were right, the decision to permit the State’s
irrelevant, prejudicial evidence but exclude Lucio’s irrelevant, non-prejudicial evidence is
arbitrary. Favoring the State over Lucio on such a critical issue also approaches irrationality.
See Kubsch v. Neal, 838 F.3d 845, 858 (7th Cir. 2016) (“Arbitrariness might be shown by a
lack of parity between the prosecution and defense; the state cannot regard evidence as
reliable enough for the prosecution, but not for the defense.”).

18
87a

No. 16-70027
opinion on truthfulness” and was therefore inadmissible under other state
evidentiary rules. That argument suffers two problems. First, it relies on state
evidentiary rules that address bolstering a witness’s trial testimony. See Yount
v. State, 872 S.W.2d 706 (Tex. Crim. App. 1993); Duckett v. State, 797 S.W.2d
906 (Tex. Crim. App. 1990), disapproved of by Cohn v. State, 849 S.W.2d 817
(Tex. Crim. App. 1993). Setting aside the fact the State’s brief ignores the
nuance in those rules, the State’s argument lacks any force because Lucio was
not a witness at trial and because Pinkerman was not there to bolster her
credibility. Second, the State does not explain why excluding Pinkerman’s
testimony under those state evidentiary rules would not have denied her the
right to present a meaningful defense any more than excluding it under
relevance rules would. 5
The exclusion of Pinkerman’s testimony prejudiced Lucio. “Complete
defense” claims are subject to harmless error analysis. See United States v.
Skelton, 514 F.3d 433, 438 (5th Cir. 2008).

As discussed above, Lucio’s

interrogation statement was the most significant evidence in the case, on
which the State repeatedly relied. None of the alternative evidence the State
points to as making the exclusion harmless comes close to the impact of the
interrogation statement. 6 So this is not a situation where the evidence is so

In passing, the State argues that the state trial court’s decision was proper because
Pinkerman’s bill of particulars—the procedural mechanism used to capture what an excluded
witness would have testified about—did not specifically mention battered wife syndrome.
But the bill of particulars tracks the same type of evidence that Lucio’s counsel argued
Pinkerman would present, even if they do not use the same terms. Moreover, the state trial
court excluded Pinkerman’s testimony before he offered his bill of particulars, so Pinkerman’s
subsequent summary is of little value in deciding whether the state trial court’s actions were
arbitrary.
5

The State’s best alternative evidence is a statement from a police officer that, after
Lucio’s arrest and while driving, Lucio used the phone to call a sister. According to the officer,
Lucio told her sister, “Don’t blame, Robert [i.e., her husband]. This was me. I did it. So don’t
blame Robert.” Though this is evidence in the State’s favor, it pales in comparison to the
power of Lucio’s videotaped “confession,” which went unchecked. It was a hearsay statement
6

19
88a

No. 16-70027
overwhelming that Lucio would have been convicted regardless.

Without

Pinkerman’s testimony, Lucio’s only evidence left to rebut the notion she
abused her children was her sister’s testimony. The arbitrary exclusion of
Pinkerman’s testimony prejudiced her.
Preventing Pinkerman from testifying infringed Lucio’s right to
meaningfully present a complete defense and it was not harmless error.
III.

Conclusion

Consequently, we REVERSE the district court’s order and REMAND for
the district court to grant Lucio relief.

without the context of what was being said on the other end of the phone. Additionally, the
credibility of the officer’s testimony is subject to attack. He did not create a log of Lucio’s
alleged statements until nearly sixteen months after he interacted with Lucio—the month
before trial.

20
89a

Appendix D

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-70027

United States Court of Appeals
Fifth Circuit

FILED
October 17, 2018

MELISSA ELIZABETH LUCIO,

Lyle W. Cayce
Clerk

Petitioner - Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 1:13-CV-125
Before HIGGINBOTHAM, HAYNES, and GRAVES, Circuit Judges.
PER CURIAM:*
Melissa Elizabeth Lucio, a state prisoner sentenced to death in 2008 for
the murder of her two-year-old daughter, Mariah, seeks a certificate of
appealability (“COA”) with respect to the following claims: (1) deprivation of
her Sixth Amendment right to counsel relating to (a) court-ordered therapy
sessions through Child Protective Services (“CPS”), and (b) a post-arrest guilty
plea to a separate offense of driving while intoxicated (“DWI”); (2) ineffective

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

90a

No. 16-70027
assistance of counsel at the guilt-innocence phase of trial for (a) failure to file
a pre-trial motion to suppress custodial statements, and (b) failure to
adequately investigate and present available evidence in support of her
defense; and (3) deprivation of her constitutional right to present a complete
defense at the guilt-innocence phase of trial. We conclude that reasonable
jurists could debate only the district court’s resolution of issue 3. Accordingly,
we GRANT a COA on issue 3 and DENY a COA on issues 1 and 2.
I. Background
The facts of the offense are described in detail in the opinion of the Texas
Court of Criminal Appeals, so we address them only briefly. See Lucio v. State,
351 S.W.3d 878, 880–91 (Tex. Crim. App. 2011). The chief forensic pathologist
who conducted Mariah’s autopsy testified that the condition of Mariah’s body
indicated that she had been severely abused, and her cause of death was “blunt
force head trauma,” which would have occurred within twenty-four hours of
her death.
On the night that Mariah was pronounced dead, February 17, 2007,
Lucio was taken into custody, informed of her Miranda 1 rights which she
agreed to waive, and then questioned by investigators for several hours. Lucio
claimed that Mariah had fallen down some stairs. She eventually admitted to
beating Mariah and inflicting all of Mariah’s visible injuries except for two
minor scratches. Lucio also stated that Mariah was sick on the day she died:
she refused to eat, her jaw would lock up, her breathing was heavy, and she
slept all day.

This account of Mariah’s sickness was consistent with the

symptoms of blunt force head trauma subsequently described by the State’s
medical expert. Shortly after Mariah’s death, Lucio’s remaining children were
removed by CPS and placed in foster care.

1

Miranda v. Arizona, 384 U.S. 436, 444 (1966).

2
91a

No. 16-70027
Lucio was arrested on February 18, 2007, and then brought before a
magistrate pursuant to Texas Code of Criminal Procedure article 15.17. She
was formally indicted on May 16, 2007, and appointed counsel on May 31, 2007,
shortly before her arraignment that same day. Between the time of her arrest
for murder and the appointment of counsel for that case, Lucio pleaded guilty
to a prior unrelated DWI offense from 2006.
While Lucio was awaiting trial in prison, the CPS court ordered her to
visit with a therapist and take parenting classes, in addition to ordering
visitation with some of her children. The CPS therapist talked with Lucio
about her social history; discussed the circumstances of Mariah’s death, Lucio’s
subsequent treatment in the legal system, and her mental health; and
recommended additional sessions to help Lucio with coping and problem
solving skills. Lucio’s counsel did not receive prior notice of the CPS therapy
sessions.
At trial, the prosecution asked the jury to infer that Lucio caused the
fatal blow responsible for Mariah’s death because it was consistent with her
history of abusing Mariah.

The defense argued that Mariah’s death was

caused by falling down stairs, not by Lucio. A neurosurgeon called as a medical
expert for the defense testified that the blunt force trauma causing Mariah’s
death could have resulted from falling down stairs. Moreover, during closing
arguments, the defense counsel argued that the State failed to overcome
reasonable doubt because evidence indicated that Mariah’s fatal injury could
have resulted from falling down stairs and the State failed to produce any
evidence indicating otherwise.
At the punishment phase of the trial, Lucio’s mitigation experts provided
extensive testimony covering Lucio’s troubled childhood, sexual abuse by her
mother’s boyfriend, physical abuse by her siblings, lack of an aggressive
history, physical and emotional abuse from her husband and subsequent
3
92a

No. 16-70027
boyfriend, cocaine addiction, history of homelessness, history of having
children at a young age, characteristics of a battered woman, low-average
range IQ, afflictions from depression and post-traumatic stress disorder, and
low probability of reoffending in a prison setting.

The State used the

therapist’s written record of his conversations with Lucio indirectly to impeach
Lucio’s mitigation experts regarding Lucio’s history of sexual abuse. The State
first sought to introduce as evidence the therapist’s “Confidential Treatment
and Progress Notes.” However, the state trial court concluded that the notes
were inadmissible hearsay. The State therefore referenced the record by way
of a hypothetical, asking the mitigation experts how they would respond, or if
they would be surprised, upon finding out that Lucio had told the therapist
that she had not been sexually abused as a child.
The Texas Court of Criminal Appeals denied relief on both Lucio’s direct
appeal, Lucio, 351 S.W.3d at 910, and habeas appeal, Ex Parte Lucio, No. WR72,702-02, 2013 WL 105179, at *1 (Tex. Crim. App. Jan. 9, 2013). Thereafter,
Lucio filed an application for federal habeas relief pursuant to 28 U.S.C. § 2254
in federal district court. The district court denied relief and also denied a COA.
Lucio v. Davis, No. B-13-125 (S.D. Tex. Sept. 28, 2016). Lucio filed a timely
notice of appeal.
II. Standard of Review
The standards for a COA are well settled. Lucio must demonstrate that
her claims of constitutional violations were such that jurists of reason could
debate the district court’s disposition of the claims or that the claims were
“adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell,
537 U.S. 322, 336 (2003). We are charged with reviewing the case only through
this prism and thus making only a general assessment of the merits. Id. at
336–37; Buck v. Davis, 137 S. Ct. 759, 773 (2017). However, we must approach
the debatability of the district court’s decision through the lens of the
4
93a

No. 16-70027
Antiterrorism and Effective Death Penalty Act (“AEDPA”). See Miller-El, 537
U.S. at 336.
Under AEDPA, where the state determined the issues on the merits,
federal habeas relief may not be granted unless the state court’s decision was
“contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States,”
28 U.S.C. § 2254(d)(1), or “was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding,”
§ 2254(d)(2). An unreasonable application of clearly established federal law
means that “the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood
and comprehended in existing law beyond any possibility for fairminded
disagreement.” White v. Woodall, 134 S. Ct. 1697, 1702 (2014). Said another
way, “A state court’s determination that a claim lacks merit precludes federal
habeas relief so long as ‘fairminded jurists could disagree’ on the correctness
of the state court’s decision.” Woods v. Etherton, 136 S. Ct. 1149, 1151 (2016)
(quoting Harrington v. Richter, 562 U.S. 86, 101 (2011)). “This is ‘meant to be’
a difficult standard to meet.” Virginia v. LeBlanc, 137 S. Ct. 1726, 1728 (2017)
(per curiam) (quoting Harrington, 562 U.S. at 102), reh’g denied, 138 S. Ct. 35
(2017) (mem.).
A factual determination made in state court “shall be presumed to be
correct” in a subsequent federal habeas proceeding and the petitioner “shall
have the burden of rebutting the presumption of correctness by clear and
convincing evidence.” Blue v. Thaler, 665 F.3d 647, 654 (5th Cir. 2011) (quoting
28 U.S.C. § 2254(e)(1)).

“The clear-and-convincing evidence standard of

§ 2254(e)(1)—which is arguably more deferential to the state court than is the
unreasonable-determination standard of § 2254(d)(2)—pertains only to a state
court’s determinations of particular factual issues, while § 2254(d)(2) pertains
5
94a

No. 16-70027
to the state court’s decision as a whole.” Id. (citations and internal quotation
marks omitted).
We must also assess the COA question in a case asserting ineffective
assistance of counsel in light of the well-established standards of Strickland v.
Washington, 466 U.S. 668 (1984), which are deferential to strategic decisions
of counsel. However, in a death penalty case, doubts about granting a COA
should be resolved in favor of a grant. Escamilla v. Stephens, 749 F.3d 380,
387 (5th Cir. 2014).
III. Discussion
A. Right to Counsel
Following the commencement of adversary judicial proceedings in a
criminal case, the Sixth Amendment entitles a defendant to counsel at “critical
stages” of the criminal proceedings. Rothgery v. Gillespie, 554 U.S. 191, 212–
13 (2008). “The cases have defined critical stages as proceedings between an
individual and agents of the State (whether formal or informal, in court or out)
that amount to trial-like confrontations, at which counsel would help the
accused in coping with legal problems or meeting his adversary.” Id. at 212
n.16 (internal quotation marks, citations, and ellipsis omitted). Lucio seeks a
COA based upon two alleged violations of her right to counsel: (1) failure to
notify Lucio’s appointed counsel in advance of CPS therapy sessions that were
used at trial to impeach both of Lucio’s mitigation experts on allegations of her
childhood sexual abuse; and (2) an unreasonable delay in appointment of
counsel resulting in an uncounseled guilty plea to a separate DWI
misdemeanor offense that was briefly referenced in questions to one of her
mitigation experts but which she contends was used as evidence of future
dangerousness.

6
95a

No. 16-70027
1. CPS Therapy Sessions
As to the first alleged violation, the federal district court determined that
the state habeas court reasonably concluded that the therapy sessions did not
implicate Lucio’s Sixth Amendment rights. Lucio maintains that the CPS
therapist was part of the state prosecutorial team. In Maine v. Moulton, the
Supreme Court held that “the prosecutor and police have an affirmative
obligation not to act in a manner that circumvents and thereby dilutes the
protection afforded by the right to counsel.”

474 U.S. 159, 171 (1985).

“[K]nowing exploitation by the State of an opportunity to confront the accused
without counsel being present is as much a breach of the State’s obligation not
to circumvent the right to the assistance of counsel as is the intentional creation
of such an opportunity.” Id. at 176. However, “the Sixth Amendment is not
violated whenever—by luck or happenstance—the State obtains incriminating
statements from the accused after the right to counsel has attached.” Id.
The state habeas court found that the CPS therapist was not working in
concert with law enforcement to investigate Lucio’s alleged crime and that the
interviews were non-investigatory. Lucio has failed to cite evidence rebutting
this factual finding, let alone clear and convincing evidence. Furthermore,
Lucio points to no evidence that law enforcement colluded with the CPS court
in ordering mental-health counseling for Lucio or otherwise exploited that
opportunity to confront Lucio without counsel being present. Thus, on this
record, jurists of reason could not debate whether the district court erred in its
determination on this issue. See Kuhlmann v. Wilson, 477 U.S. 436, 459 (1986)
(“As our recent examination of this Sixth Amendment issue in Moulton makes
clear, the primary concern . . . is secret interrogation by investigatory
techniques that are the equivalent of direct police interrogation.”).
Alternatively, Lucio asserts that her mental-health counseling is the
same situation as a pretrial psychiatric examination that the Supreme Court
7
96a

No. 16-70027
held in Estelle v. Smith to be a “critical stage” of the proceedings requiring prior
notice to counsel. See 451 U.S. 454, 469–71 (1981). Federal law is not clearly
established when state courts must extend Supreme Court precedent before
applying it. Woodall, 134 S. Ct. at 1706. However, application of federal law
to “new factual permutations” can still be clearly established if “the necessity
to apply the earlier rule [is] beyond doubt.” Id. It must be “so obvious that a
clearly established rule applies to a given set of facts that there could be no
‘fairminded disagreement’ on the question.”

Id. at 1706–07 (quoting

Harrington, 562 U.S. at 103).
We will assume arguendo that the question of whether Lucio has stated
an error regarding application of Estelle to these facts is debatable by jurists
of reason. We nonetheless conclude that a COA on this issue is not appropriate
because jurists of reason could not debate that any error “had substantial and
injurious effect or influence in determining the jury’s verdict.” Penry v.
Johnson, 532 U.S. 782, 795 (2001) (quoting Brecht v. Abrahamson, 507 U.S.
619, 637 (1993)). Accordingly, we DENY a COA on Lucio’s right to counsel
claim based on the CPS therapy sessions. 2
2. DWI Conviction
We also decline to grant a COA on Lucio’s remaining claim relating to
the unreasonable delay in appointment of counsel resulting in an uncounseled
guilty plea to a DWI misdemeanor offense. The state habeas court concluded
Lucio also asserts in her reply brief an Estelle-based Fifth Amendment claim for
failure to read her Miranda warnings prior to the therapy sessions. However, in her initial
brief she repeatedly stated that her Estelle-based claim was grounded in the Sixth
Amendment. Because she raises this claim for the first time in her reply brief, that issue is
waived. See Yohey v. Collins, 985 F.2d 222, 225 (5th Cir. 1993). Even if it were not waived,
we would not grant a COA on this issue for the same reasons we decline to do so for her
Estelle-based Sixth Amendment claim. Moreover, the Supreme Court has repeatedly stated
that failure to properly warn of Miranda rights does not preclude the use of voluntary
testimony for impeachment purposes. See United States v. Patane, 542 U.S. 630, 639 (2004)
(plurality opinion); Oregon v. Elstad, 470 U.S. 298, 307 (1985); Harris v. New York, 401 U.S.
222, 226 (1971).
2

8
97a

No. 16-70027
that Lucio failed to show any prejudice as to the DWI conviction and that trial
counsel’s failure to object to punishment phase questions about the conviction
was strategic because it would have come in anyway. The federal district court
concluded that Lucio’s Sixth Amendment right to counsel did not extend to the
DWI case and thus the state habeas court’s determination was reasonable.
Even if there were a violation, 3 Lucio fails to meet her burden of showing
that jurists of reason could debate the reasonableness of the state court’s
determination that it did not prejudice her case. Lucio points to nothing in the
record indicating the prior conviction was introduced as substantive evidence
on the issue of future dangerousness. Rather, the prosecution merely asked
one of the mitigation experts whether she had learned of the DWI conviction. 4
The mitigation expert answered, “yes,” diminishing any attempt to undermine
her knowledge of Lucio’s history.

No additional details about the DWI

conviction itself were disclosed, not even how old the conviction was. Lucio has
failed to show that jurist of reason could debate whether briefly asking one of
The Supreme Court has expressly declined to determine the appropriate standard
for when a delay alone violates the Sixth Amendment right to counsel. Rothgery, 554 U.S. at
213. Rothgery involved a six-month delay, thus jurists of reason could not debate the
potential for fairminded disagreement as to whether Lucio’s three-month delay violated her
Sixth Amendment right to counsel. See id. Therefore, to be entitled to a COA, Lucio’s
unreasonable delay claim must be based on denial of counsel at a critical stage of the
proceedings. See id. at 212–13. The only potential critical stage that Lucio identifies is her
uncounseled guilty plea to the DWI charges. Although Lucio identifies Supreme Court
precedent indicating that an uncounseled guilty plea to the DWI charges was a “critical stage”
of her DWI criminal proceedings, see White v. Maryland, 373 U.S. 59, 60 (1963), she does not
identify any Supreme Court precedent indicating that her DWI guilty plea was a “critical
stage” of her separate criminal proceedings for the murder of Mariah, see McNeil v.
Wisconsin, 501 U.S. 171, 175–78 (1991) (stating that the Sixth Amendment is “offense
specific” and provides protection “with respect to a particular alleged crime”).
3

The prosecution also asked the mitigation expert whether Lucio mentioned using an
alias in connection with the DWI offense, and whether she would be “surprised” to learn that
Lucio used an alias. However, Lucio’s use of an alias in connection with the DWI offense
occurred prior to the attachment of her Sixth Amendment right to counsel for criminal
proceedings relating to the murder of Mariah. Thus, any reference to her use of an alias
would not implicate her Sixth Amendment right to counsel in this case. See McNeil, 501 U.S.
at 175.
4

9
98a

No. 16-70027
two mitigation experts about her awareness of an unrelated, non-violent prior
conviction “had substantial and injurious effect or influence in determining the
jury’s verdict.” Id. We therefore DENY the COA on her DWI guilty plea claim.
B. Right to Effective Assistance of Counsel
To show a deprivation of effective assistance of counsel under the Sixth
Amendment, a defendant “must show that counsel’s representation fell below
an objective standard of reasonableness” and that the deficient performance
“deprive[d] [her] of a fair trial.” Strickland, 466 U.S. at 687–88. Courts “must
indulge a strong presumption that counsel’s conduct falls within the wide
range of reasonable professional assistance; that is, the defendant must
overcome the presumption that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’” Id. at 689; see also Cullen v.
Pinholster, 563 U.S. 170, 196 (2011). Accordingly, we have “repeatedly held
that complaints of uncalled witnesses are not favored in federal habeas corpus
review because the presentation of testimonial evidence is a matter of trial
strategy and because allegations of what a witness would have stated are
largely speculative.” Day v. Quarterman, 566 F.3d 527, 538 (5th Cir. 2009).
1. Failure to Move to Suppress Custodial Statements
Lucio argues that her trial counsel was ineffective in failing to move to
suppress as involuntary her statements about abusing Mariah made during
her custodial interrogation. 5

More specifically, Lucio contends that her

incriminating statements were the result of psychological coercion and thus

In addition to a Sixth Amendment violation, Lucio also contends that her counsel’s
failure to move to suppress the custodial statements violated the Eighth and Fourteenth
Amendments. However, because the Eighth and Fourteenth Amendment claims were not
raised below, we will not consider them for the first time on appeal. See Yohey, 985 F.2d at
225.
5

10
99a

No. 16-70027
inadmissible under the Fifth Amendment, which could have been supported by
expert testimony. 6
A

defendant’s

statement

“during

a

custodial

interrogation

is

inadmissible at trial unless the prosecution can establish that the accused ‘in
fact knowingly and voluntarily waived [Miranda] rights’ when making the
statement.” Berghuis v. Thompkins, 560 U.S. 370, 382 (2010) (alteration in
original) (quoting North Carolina v. Butler, 441 U.S. 369, 373 (1979)). The
“waiver must be ‘voluntary in the sense that it was the product of a free and
deliberate choice rather than intimidation, coercion, or deception,’ and ‘made
with a full awareness of both the nature of the right being abandoned and the
consequences of the decision to abandon it.’” Id. at 382–83 (quoting Moran v.
Burbine, 475 U.S. 412, 421 (1986)). “[T]he law can presume that an individual
who, with a full understanding of his or her rights, acts in a manner
inconsistent with their exercise has made a deliberate choice to relinquish the
protection those rights afford.” Id. at 385. “There is no requirement that a
suspect be continually reminded of his Miranda rights following a valid
waiver.” Soffar v. Cockrell, 300 F.3d 588, 593 (5th Cir. 2002).
Lucio was informed of her Miranda rights, indicated she understood
them, and then proceeded to answer the officers’ questions. The state habeas
court concluded, as a matter of law, that law enforcement did not coerce any of
Lucio’s statements, that Lucio’s trial counsel was not deficient, that Lucio
failed to show the outcome would be different even had trial counsel moved to
suppress the statements, and that Lucio failed to show that trial counsel’s
actions were not sound trial strategy. The federal district court concluded that

Before both the state and district habeas courts Lucio also argued that she invoked
her right to remain silent during the interrogation. Because Lucio does not make this
argument on appeal, it is abandoned. See Yohey, 985 F.2d at 224–25. We address only the
psychological coercion argument made in the brief on appeal. See id.
6

11
100a

No. 16-70027
the state court reasonably determined that there was no Fifth Amendment
violation and thus no ineffective assistance of counsel. Lucio has not met her
burden of showing that reasonable jurists could debate this conclusion.
We conclude that no jurist of reason could debate that the state habeas
court’s decision was not an unreasonable application of clearly established
federal law as determined by the Supreme Court and did not result in a
decision that was based upon an unreasonable determination of the facts in
light of the evidence presented. We DENY a COA on this claim.
2. Failure to Investigate and Present Evidence
Lucio also contends that her trial counsel was ineffective because he
failed to investigate and present certain evidence supporting her defense, and
this omission was not based on any reasonable trial strategy. Specifically, she
argues that her counsel was deficient in calling only a neurosurgeon to
challenge the source of the blunt force trauma to Mariah’s head instead of also
calling a forensic pathologist to challenge the source of Mariah’s other injuries.
Lucio additionally argues that her trial counsel was deficient in retaining the
medical expert late in the process at the recommendation of her co-defendant’s
counsel and failing to present additional evidence supporting Lucio’s defense
that she was not dangerous and did not abuse her children. 7
The state habeas court determined that trial counsel’s decision to call
only a neurosurgeon as an expert medical witness was part of the defense
strategy to show that the fatal blow was consistent with falling down the stairs.
It also determined that Lucio failed to show any harm in either the timing of
retaining the medical expert or the failure to retain a forensic pathologist, and
any additional evidence showing that Lucio was not dangerous to her children

These were the only arguments that Lucio adequately briefed. Any additional
arguments made before the state habeas court or federal district court as to trial counsel’s
ineffective assistance are abandoned. See Yohey, 985 F.2d at 224–25.
7

12
101a

No. 16-70027
would have been of limited value given her confession to abusing Mariah. The
state habeas court further explained that it was sound trial strategy not to
offer an alternative explanation for Mariah’s injuries, but instead deny only
that Lucio inflicted the fatal blow, because it would have been contradicted by
Lucio’s own admission to causing nearly all of Mariah’s injuries. See, e.g.,
Quarterman, 566 F.3d at 538–39 (concluding, inter alia, that petitioner failed
to establish prejudice as to an uncalled expert witness whose testimony would
have been contradicted by petitioner’s own statements about her involvement
in the injury of two children). The district court concluded that the state
habeas court’s decision was not contrary to, or an unreasonable application of,
clearly established federal law as determined by the Supreme Court and did
not result in a decision that was based upon an unreasonable determination of
the facts in light of the evidence presented.

Because we conclude that

reasonable jurists could not debate the district court’s conclusion, we DENY a
COA on this claim.
C. Right to Present a Complete Defense
“[T]he Constitution guarantees criminal defendants ‘a meaningful
opportunity to present a complete defense.’” Holmes v. South Carolina, 547
U.S. 319, 324 (2006) (quoting Crane v. Kentucky, 476 U.S. 683, 690 (1986)).
Defendants are deprived of this right when evidence rules “infring[e] upon a
weighty interest of the accused and are arbitrary or disproportionate to the
purposes they are designed to serve.” Id. (alteration in original) (internal
quotation marks and citation omitted). Even if an evidentiary rule itself is not
arbitrary or disproportionate to its purposes, a specific application of the rule
can nevertheless violate the right to present a complete defense if “it does not
rationally serve the end that [the rule] . . . [was] designed to promote.” See
id. at 327–31. The Supreme Court has further explained that, absent a valid
justification, the state may not “exclude competent, reliable evidence bearing
13
102a

No. 16-70027
on the credibility of a confession when such evidence is central to the
defendant’s claim of innocence.” Crane, 476 U.S. at 690; see also Green v.
Georgia, 442 U.S. 95, 97 (1979) (holding that excluded evidence violated the
Due Process Clause because it was “highly relevant to a critical issue . . . and
substantial reasons existed to assume its reliability”); Skillern v. Estelle, 720
F.2d 839, 852 (5th Cir. 1983) (noting that a state court evidentiary error is
subject to habeas relief if “it is of such magnitude as to constitute a denial of
fundamental fairness under the due process clause”).
Lucio contends that the state habeas court’s exclusion of two expert
witnesses deprived her of her constitutional right to present a complete
defense. She points to evidence indicating that her proffered experts would
have testified that (1) her patterns of behavior influenced her answers during
the interrogation, and (2) her psychological functioning caused her to take the
blame for Mariah’s injuries, thus undermining the credibility of her confession
to inflicting nearly all of Mariah’s injuries. Lucio’s confession was critical to
the state’s theory of the case that Lucio’s repeated abuse of Mariah culminated
in a fatal blow.
The state habeas court found that Lucio’s expert was unqualified to
testify about Lucio’s body language and patterns of behavior because she had
no relevant “specialized experience, knowledge, or training.”

The federal

district court concluded that Lucio failed to rebut this finding. However, Lucio
points to evidence indicating that her expert had formal training and
professional experience in interpreting body language and patterns of behavior
as a mental health clinician. The state habeas court also determined that
testimony relating to Lucio’s psychological functioning was irrelevant to
Lucio’s guilt or innocence. The federal district court agreed that the evidence
was “only tangentially related to the question of Lucio’s guilt or innocence” and
concluded that its exclusion did not deny Lucio a fair trial. However, Lucio’s
14
103a

No. 16-70027
trial counsel indicated that the testimony related to Lucio’s potential to provide
a false confession on a critical issue of the prosecution’s case.

The State

provides no additional justifications for excluding this potentially “competent,
reliable evidence bearing on the credibility of [Lucio’s] confession.” See Crane,
476 U.S. at 690.
“[A] claim can be debatable even though every jurist of reason might
agree, after the COA has been granted and the case has received full
consideration, that petitioner will not prevail.” Miller-El, 537 U.S. at 338. We,
therefore, conclude that Lucio’s claim that she was deprived of her right to
present a complete defense is debatable enough to deserve encouragement to
proceed further and GRANT a COA on this issue.
IV. Conclusion
We GRANT a COA on the question of whether the exclusion of Lucio’s
proffered experts on the credibility of her confession violated her constitutional
right to present a complete defense. We will allow for additional briefing now
that a COA has been granted; however, the parties should avoid repetition and,
if they wish, may rest on their briefs. See, e.g., Butler v. Stephens, 600 F. App’x
246, 248 n.4 (5th Cir. 2015) (per curiam). Lucio should file any additional
briefing on this issue within thirty days of this order, and the State may
respond within thirty days thereof. Extensions will be granted only by order
of this panel for exceptional circumstances shown.
All other relief is DENIED.

15
104a

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

October 17, 2018
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 16-70027

Melissa Lucio v. Lorie Davis, Director
USDC No. 1:13-CV-125

Enclosed is a non-dispositive opinion entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk
By: _________________________
Debbie T. Graham, Deputy Clerk
Mr.
Mr.
Mr.
Ms.
Mr.

David J. Bradley
Allen Richard Ellis
Timothy Gumkowski
Jennifer Wren Morris
Tivon Schardl

105a

Appendix E

United States District Court
Southern District of Texas

ENTERED
September 28, 2016
David J. Bradley, Clerk

16-70027.513

106a

16-70027.514

107a

16-70027.515

108a

16-70027.516

109a

16-70027.517

110a

16-70027.518

111a

16-70027.519

112a

16-70027.520

113a

16-70027.521

114a

16-70027.522

115a

16-70027.523

116a

16-70027.524

117a

16-70027.525

118a

16-70027.526

119a

16-70027.527

120a

16-70027.528

121a

16-70027.529

122a

16-70027.530

123a

16-70027.531

124a

16-70027.532

125a

16-70027.533

126a

16-70027.534

127a

16-70027.535

128a

16-70027.536

129a

16-70027.537

130a

16-70027.538

131a

16-70027.539

132a

16-70027.540

133a

16-70027.541

134a

16-70027.542

135a

16-70027.543

136a

16-70027.544

137a

16-70027.545

138a

16-70027.546

139a

16-70027.547

140a

16-70027.548

141a

16-70027.549

142a

16-70027.550

143a

16-70027.551

144a

16-70027.552

145a

16-70027.553

146a

16-70027.554

147a

16-70027.555

148a

16-70027.556

149a

16-70027.557

150a

16-70027.558

151a

16-70027.559

152a

16-70027.560

153a

16-70027.561

154a

16-70027.562

155a

16-70027.563

156a

16-70027.564

157a

16-70027.565

158a

16-70027.566

159a

16-70027.567

160a

16-70027.568

161a

16-70027.569

162a

16-70027.570

163a

16-70027.571

164a

16-70027.572

165a

16-70027.573

166a

16-70027.574

167a

16-70027.575

168a

16-70027.576

169a

16-70027.577

170a

Appendix F

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
WR-72,702-02
EX PARTE MELISSA ELIZABETH LUCIO
ON APPLICATION FOR WRIT OF HABEAS CORPUS
IN CAUSE NO. 07-CR-885-B IN THE
138TH DISTRICT COURT OF CAMERON COUNTY
Per Curiam.
ORDER
This is an application for writ of habeas corpus filed pursuant to the provisions of
Article 11.071, T EX. C ODE C RIM. P ROC.
In July 2008, applicant was convicted of the offense of capital murder. The jury
answered the special issues submitted pursuant to Article 37.071, T EX. C ODE C RIM. P ROC.,
and the trial court, accordingly, set punishment at death. This Court affirmed applicant’s
conviction and sentence on direct appeal. Lucio v. State, 351 S.W.3d 878 (Tex. Crim. App.
2011), cert. denied, 132 S.Ct. 2712 (2012).

171a

16-70027.10275

Lucio - 2
Applicant presents ten allegations in her application in which she challenges the
validity of her conviction and resulting sentence. The trial court did not hold an evidentiary
hearing. The trial court adopted the State’s proposed findings of fact and conclusions of law
recommending that the relief sought be denied.
This Court has reviewed the record with respect to the allegations made by applicant.
We adopt the trial judge’s findings and conclusions. Additionally, grounds for relief one,
two, and six are also procedurally barred. See Ex parte Banks, 769 S.W.2d 539 (Tex. Crim. App.
1989); Ex parte Acosta, 672 S.W.2d 470 (Tex. Crim. App. 1984). Regarding ground for relief
ten, while we note that the trial court’s findings and conclusions are valid on the merits, the
issue is not cognizable on habeas review. See Ex parte Alba, 256 S.W.3d 682 (Tex. Crim. App.
2008). Therefore, based upon the trial court’s findings and conclusions and our own review,
we deny relief.

IT IS SO ORDERED THIS THE 9TH DAY OF JANUARY, 2013.

Do Not Publish

172a

16-70027.10276

Appendix G

Sea ned Jun 18, 2013

F/lEDll00 O'CLOCl<..6_1.4
Al,OOAA DE LA GAAl/1, CLERK

...

-

Cause No. 2007-CR-885-B

EX PARTE

MELISSA ELIZABETH LUCIO

JUN 2 9 2012
�cxum=

§

IN THE 13 8TH JutirCJAL�

§

DISTRICT COURT OF

§
§

CAMERON COUNTY, TEXAS

§

STATE'S SECOND PROPOSED FINDINGS OF FACT AND CONCLUSIONS OF LAW
TO THE HONORABLE JUDGE OF SAID COURT:
NOW COMES the State of Texas, Respondent herein, and submits to this Court its

..
•

•

..
.•
..
-

proposed Findings of Fact and Conclusions of Law, and in support thereof would show:

I.
On May 30, 2012, this Court found that there do not exist in this case any controverted,
previously unresolved factual issues material to the legality of Applicant's confinement, and
ordered the parties to file proposed findings of fact and conclusions of law for the Court's
consideration. On June 11, 2012, the State filed its proposed findings of fact and conclusions of
law. On June 19, 2012, this Court adopted the State's findings of fact and conclusions of law.
On June 28, 20 I 2, this Court issued an order striking the State's proposed findings of fact and
conclusions of law and the Court's own findings of fact and conclusions of law. The Court
ordered the parties to file proposed findings of fact and conclusions of law by July 13, 2012.
II.
Accordingly, attached hereto as Exhibit A is the State's second proposed Findings ofFact
and Conclusions of Law.

173a

. .

Sea ned Jun 18, 2013

-

III.
WHEREFORE, PREMJSES CONSIDERED, the State prays that the Court accept and
adopt its proposed Findings of Fact and Conclusions of Law, to then be forwarded to the Court
of Criminal Appeals.

..
..
...

..

-

Respectfully Submitted,
ARMANDO R. VILLALOBOS
Cameron County (District) Attorney
Michael Bloch
State Bar No. 24009906
Assistant County (District) Attorney
BY:

ti?--

Michael Bloch

Post Office Box 2299
Brownsville, Texas 78522-2299
Phone: (956) 544-0849
Fax:(956) 544-0869
Attorneys for the State of Texas

Certificate of Service
I certify that on this 29th day of June, 2012, a true and correct copy ofthe
foregoing document and attached exhibit was forwarded to Margaret Schmucker, counsel
for Applicant, at 13706 Research Blvd., Suite 211-F, Austin, TX 78750

Michael Bloch

002

•
174a

Sea ned Jun 18, 2013

-

-

Exhibit A

..
..
..
•

..
-

-

003
175a

Sc nned Jun 18, 2013

..
Cause No. 2007-CR-885-B

-

EXPARTE

MELISSA ELIZABETH LUCIO

IN THE 138TH JUDICIAL

§
§
§

DISTRICT COURT OF

§

CAMERON COUNTY, TEXAS

.•
..

HAVING CONSIDERED the application for writ of habeas corpus, the State's

•

answer thereto and the Court's file in the above-styled and numbered cause, the Court

FINDINGS OF FACT AND CONCLUSIONS OF LAW

makes the following findings of fact and conclusions of law.
FINDINGS OF FACT
'"'

•

•
•
•

1. Applicant was taken into police custody and interrogated on February 17,
2007. Applicant was properly Mirandized and waived her rights before
speaking to police; therefore, Applicant was not entitled to the presence of
counsel at her interrogation.
2. Applicant was not brought before the Court for a magistration hearing until
after the statement she gave police was obtained. Hence, the earliest time
Applicant could have been appointed counsel would have been after Applicant
provided her statements to police.
3. Although a 90-day delay ensued between Applicant's initial appearance before
a magistrate and the eventual appointment of counsel, Applicant has not
shown a causal nexus between the delay in the appointment of counsel and the
statements obtained by police.
4. Applicant has not shown prejudice to the instant case as a result of her separate
plea of guilty to the misdemeanor offense of Driving While Intoxicated.
Applicant has not shown that her plea was a result of an unconstitutional
confinement without the assistance of counsel.

-

004
176a

Sc nned Jun 18, 2013

..
..
•
•
•
•

..
•

•
•

5. Therapist Beto Juarez, a CPS contractor, was not working in tandem with
police at the time he interviewed Applicant. He was retained by CPS to offer
mental health counseling, not to interrogate her. The police were not able to
see the reports made by Juarez, as they were confidential. Juarez was not
directed by the police. The purpose of his visits were non-investigatory.
Therefore, Juarez was not an agent of the State such that he was required to
Mirandize Applicant before speaking to her, or in any other way comply with
Art. 38.22 of the Texas Code of Criminal Procedure.
6. Applicant has not shown that defense counsel was ineffective for failing to file
a motion to suppress her statement to police. The record shows that at the time
the statement was given Applicant received the required statutory warnings,
indicated that she understood them, and proceeded to answer the officers'
questions. She has failed to demonstrate that had a motion to suppress been
filed it would have been granted.
7. During her interview with police, Applicant stated "I want to talk to my
husband, I don't want to talk to nobody else." Given the context of the
exchange, this was not an unambiguous statement that Applicant wished to
invoke her constitutional right to remain silent. When the interviewer
intimated that she could not see her husband, but would be allowed a cigarette,
Applicant showed no signs of reluctance in continuing with the interview.
Because this statement was not an invocation of her right to remain silent,
defense counsel did not err in failing to file what would have been a futile
motion to suppress based upon that statement.
8. Defense counsel retained and called to testify a qualified medical expert, Dr.

Jose Kuri, to rebut the testimony of the State's pathologist regarding the cause
of the victim's death. Defense counsel's strategy in this case was to assert that
the fatal blunt force trauma to the victim was caused by a fall sustained some
48 hours prior to death. Dr. Kuri's testimony ably presented this theory of the
case, challenging the testimony of the State's pathologist as to the age and
etiology of the victim's trauma. Dr. Kuri presented testimony helpful to the
defense, and defense counsel's decision to retain him was not erroneous.

9. Applicant asserts that defense counsel should have retained an expert sooner
than he did, but points to nothing to indicate that the timing of the hire was
erroneous, that Applicant suffered any harm or prejudice as a result of the
timing of the hire, or that the outcome of the case would have been any
different had an expert been hired at an earlier date. Therefore, she has not
shown ineffective assistance of counsel as to this point.

...

-

2

•
177a

..
..
-

Sc nned Jun 18, 2013

I 0. Defense counsel was not deficient for failing to retain a pathologist in this
case. Dr. Kuri testified that the victim's fatal injury was consistent with blunt
force trauma from a fall down stairs. He further testified that the symptoms
Applicant claimed the victim displayed in the day prior to her death could
have been related to a progressive worsening of the victim's condition as a
result of the blunt force trauma. Applicant has failed to demonstrate that a
pathologist could have given any additional testimony that would have
affected the outcome of the trial.
11. Applicant has failed to show that medical testimony challenging the etiology
of the numerous contusions and abrasions found on the victim's body would
have affected the outcome of the trial. Applicant admitted during her
videotaped interview with police that she had abused the victim and caused all,
except perhaps two, of the numerous contusions, including bite marks, to the
victim's body; that interview was shown to the jury. Defense counsel
strategically opted not to attempt to contradict these unambiguous admissions
by offering alternative explanations for the contusions at trial. Instead, he
conceded that the contusions were caused by Applicant, but denied that she
was responsible for the blunt force trauma that actually killed the victim. This
was sound trial strategy that did not constitute ineffective assistance of
counsel.

..

12. Applicant has failed to show that defense counsel was deficient for failing to
retain a pathologist to explain the "mistake" in Dr. Farley's autopsy report of
substituting intuition for a scientifically defensible interpretation of forensic
evidence. Dr. Farley clearly explained at trial the bases for her conclusion that
the contusions and blunt force trauma were not the result of a fall down stairs,
but rather of abuse - she drew this conclusion from the nature and location of
the numerous wounds she found on the victim. This finding did not come
about by "intuition;" rather, it was based on the forensic evidence she found
during the autopsy. Hence, any purported "explanations" about intuition vs.
interpretation would have been irrelevant and of no use to Applicant's defense,
especially since Applicant admitted to causing all, except perhaps two, of the
numerous contusions and abrasions found on the victim.

•

•

I■

13. Applicant has failed to show that defense counsel was deficient in failing to
afford her mitigation specialist adequate Lime to complete her investigation.
The mitigation specialist had 5 months, 17 days to complete such
investigation, and Applicant has failed to demonstrate that the tasks the
mitigation expert claims she needed to conduct could not have been completed
within that time-frame.
I

•

178a

..

Sc nned Jun 18, 2013

--

..
..
..
..
..
-

•

14. Applicant's mitigation specialist was provided with Applicant's family contact
information when jury selection began on May 28, 2008. The mitigation
specialist then had 42 days to conduct family interviews in connection with the
preparation of a social history. Applicant has produced no evidence to support
an y assertion that thii: was an insufficient length of time to gather that
information. Applicant has also failed to show how any additional interviews
would have yielded a social history that would have affected the outcome of
the trial - the mitigation expert interviewed Applicant, and sisters Diane and
Sonya in connection with the report and reviewed CPS records relating to
Applicant. No ineffec:tive assistance of counsel has been shown.
15. Defense counsel made full use of the mitigation expert. The mitigation expert
gathered enough evidence to enable her to testify extensively regarding
Applicant's social history, covering such areas as her troubled childhood,
sexual abuse perpetrated upon her by her mother's boyfriend, physical abuse at
the hands of her siblings, her lack of a history of aggression, her suffering
physical and emotion.al abuse at the hands of her husband and subsequent
boyfriend, her cocaine addiction, her history of homelessness, her history of
having children at a very young age, and her fitting the profile of an individual
suffering from battered woman's syndrome.
16. The mitigation expert also testified as to Applicant's history with CPS,
including when her children were taken and returned to her , the evolution of
Applicant and her children's home life, aggressive behavior between siblings
that allegedly occurred within the household, Applicant's poverty, and the
results of various drug tests administered to Applicant by CPS. Defense
counsel was not ineffective in eliciting that testimony.
17. The mitigation expert thoroughly covered issues relevant to Applicant's family
and personal life, and Applicant has failed to show how defense counsel in any
way erred in failing to present, pursue or develop such issues, much less that
but for defense counsel's error the outcome of the trial would have been
different.

• !

18. Defense counsel was not deficient in failing to point out that her husband was
the last person to see the victim alive. That fact, even if true, was irrelevant to
defense counsel's strategy, which was to argue that the victim's fatal injury
was due to a fall down stairs that occurred some 48 hours prior to death.

..

19. Defense counsel was not deficient for failing to present a questionable claim
by one of Applicant's daughters, Alexandra, that "she was the reason that [the
victim ] fell down the �;tairs." This claim , even if true, is not probative
evidence that someone other than Applicant caused the death of the victim.
4

007
179a

Sc nned Jun 18, 2013
•

..
..
..
..

•

..
•

..
• I

...

..
..
-

Defense counsel's decision not to attempt to present this evidence was trial
strategy because Alexandra and her sister, Celina were giving conflicting
stories that were not particularly credible. Furthermore, defense counsel may
have justifiable feared that putting those children on the stand would backfire,
as they might deny having caused any abuse and point to Applicant as the
perpetrator. Again, Applicant admitted during her videotaped statement that
she caused all, except perhaps two, of the numerous wounds found on the
victim's body. Attempting to bring in children to testify that they had caused
the bruising would have simply confused the issues and would not have
furthered trial counsel's strategy to argue to the jury that Applicant truthfully
told the police she had caused these wounds but not the fatal blunt force
trauma that killed the victim.
20. Applicant fails to point to any evidence to support her assertion that mitigation
psychiatrist Dr. John Pinkerman did not have adequate time to prepare for
trial. Applicant claims Dr. Pinkennan felt he did not have enough meetings
with defense counsel, but fails to specify or prove what additional meetings
would have yielded, how the number of meetings they had constituted error on
the part of defense counsel, or how additional defense team meetings would
have affected the outcome of the trial. No deficiency on the part of defense
counsel has been shown.
21. Applicant has failed to provide any evidence to substantiate her claim that
defense counsel failed to properly utilize Dr. Pinkerman. She makes vague,
conclusory claims that defense counsel failed to pursue or develop "mental
health issues" and "personality dynamics" and fails to specify what exactly
defense counsel did not develop, how defense counsel did not develop it, why
defense counsel's failure to develop it was erroneous, or how developing it
would have changed the outcome of the trial. Relief should be denied because
the Applicant states only conclusion, and not specific facts.
22. Dr. Pinkerman testified extensively during punishment as to Applicant's
psychological functioning, including findings that her IQ was in the low
average range with verbal comprehension scores that were close to the
mentally retarded range, that she was overutilizing repression and denial, that
she had major depression with prior substance abuse, that she suffered from
Post-Traumatic Stress Disorder (PTSD), that she was the victim of prior
physical and sexual abuse both as an adult and as a child, that her PTSD
caused her to have some distance from people in position or trust or authority,
that there were indications that she suffered from battered woman's syndrome,
that her personality features involve hysterical features, characterized by
repression, denial, isolation and disassociation of feelings and thoughts, and
that there was a low probability that she would reoffend in a prison setting.
5

180a

-

Sc nned Jun 18, 2013

Applicant has failed to show how or why additional "development" or
"exploration" of this topic was necessary, how the failure to include it
constituted error on the part of defense counsel, or how this additional
development or exploration of mental health issues would have affected the
outcome of the trial. No ineffective assistance of defense counsel has been
shown.

,.

23. With regard to Applicant's claim that defense counsel was deficient for failing
to elicit testimony from Dr. Pinkemrnn regarding false confessions, because he
only testified after Applicant had been found guilty, any such testimony would
have been moot and of no use to the defense.

-

24. Defense counsel ably and thoroughly utilized the services of Ms. Villanueva
and Dr. Pinkerman in developing and presenting mitigation and future
dangerousness evidence, and Applicant has failed to show any deficiency
therein.
2S. Defense counsel was not deficient for failing to introduce alternative theories
of the extensive injuries found on the victim's body. Applicant admitted
during police questioning that she caused all, except perhaps two, of these
injuries, and defense counsel had to operate under that constraint. Hence, his
sound trial strategy was to admit the physical abuse, but deny that Applicant
inflicted the fatal blow, which she attributed to a fall down stairs.

...

-

26. Applicant has failed to show that defense counsel was deficient for failing to
call certain CPS workers and foster parents to testify, because she has failed to
demonstrate that their testimony would have been beneficial to her, or that it
would have affected the outcome of the trial. Moreover, the matters the CPS
workers and foster parents would supposedly have testified to were either
irrelevant or cumulative of testimony given by other witnesses in the case.

..
'
i

I

Ii

...

!

27. Defense counsel elicited testimony from Applicant's sister and CPS worker
Joanne Estrada, both of whom testified that they had no knowledge of
Applicant's ever being physically abusive to any of her children. This
testimony was sufficient in furthering Applicant's allegation that she did not
physically discipline her children. This testimony and any other testimony
purporting to show that Applicant was not physically abusive toward her
children would be of limited, if any, value given that Applicant admitted to
police that she had caused the extensive injuries found on the victim. No
deficiency on the part of defense counsel has been shown.
28. Defense counsel was not deficient for failing to call two of Applicant's young
sons, Richard and Rene, to testify. During their forensic interviews, they both

..
..

()09
181a

..
..
..

Sc nned Jun 18, 2013

-

-

..
..
..
•

·•

stated they did not know how the victim died, and that they had seen no visible
marks or bruises on the victim. It is undisputed that numerous bruises,
abrasions and contusions of varying ages were found on the victim, and that
Applicant admitted to police that she had caused nearly all of them. Any
attempt to introduce evidence suggesting that no abuse occurred at all would
have been of dubious probative value, confuse the issues, and likely cause the
defense to lose credibility with the jury, especially since these two witnesses
would have been young children.
29. Applicant's son Rene did advise the forensic interviewer that he saw the
victim fall down some steps, but the fall he described was not at all consistent
with the blunt-force trauma that actually caused the victim's death. Hence,
defense counsel was not deficient for opting not to present testimony that
would have been of virtually no evidentiary value.
30. Applicant's sons Richard and Rene also made statements to the forensic
interviewer that would have been directly detrimental to Applicant's defense.
They both stated that violence was a regular occurrence in Applicant's
household, and that Applicant was an aggressor. Had the boys testified to this
at trial, it would have impeached Applicant's own expert testimony that she
had no history of violence. Defense counsel's sound trial strategy was to keep
the jury from hearing about Applicant's violent tendencies.
31. Defense counsel was not deficient for opting not to call the victim's older
brother, John Alvarez, to testify. Alvarez is a convicted felon who was
previously banned from Applicant's household for sexually molesting his
siblings. His history would have rendered him a less than credible witness,
and defense counsel's decision not to call him certainly did not rise to the level
of error.
32. Defense counsel was not deficient for not attempting to place the blame for the
murder on Applicant's daughter Alexandra. The evidence submitted by
Applicant in support of this claim, an unsworn hearsay "affidavit," which
reports further hearsay from three sources, does not rise to the level of credible
evidence justifying relief in this case. Furthennore, even if the statements
made -- that two of the victim's sisters physically struck the victim at some
point •- were true, they are not probative of who administered the final blunt
force trauma that caused the victim's death. Such an attempt to blame
Alexandra for the victim's injuries also would run contrary to Applicant's
admission to police that she was responsible for all but two of the injuries
found on the victim.

7

010
182a

..
-

Sc nned Jun 18, 2013

-

•
•
•
•
•
•

33. Applicant has failed to demonstrate that defense counsel was deficient for
failing to "further investigate" or "present evidence" placing the blame on
Alexandra because she does not specify what type of further investigation
should have been done or what evidence it would have revealed.
34. Applicant has failed to demonstrate that defense counsel was deficient for
failing to "investigate and/or present available evidence" that Applicant's
husband, Robert Alvarez, could have caused some of the victim's injuries.
Alvarez was one of numerous people who had access to the victim at various
times, and his supposed violent nature was supported only by Applicant's self­
serving reports to her mitigation experts, and contradicted by CPS records.
Moreover, Applicant admitted to police that she had caused the myriad of
injuries to the victim and, when asked whether Alvarez had ever "spanked" the
victim as she had done, Applicant shook her head in the negative. Defense
counsel had no reasonable basis for arguing that Alvarez banned the victim;
hence, his failure to do so was not erroneous.
35. Defense counsel was not deficient for failing to call Robert Alvarez as a
witness in an attempt to prove that Applicant was not alone with the victim
during the timeframe in which the fatal blunt force trauma occurred.
Alvarez's statement to police indicates that he witnessed Applicant physically
abuse the victim, and defense counsel certainly did not want that type of
testimony before the jury. Furthermore, Alvarez's statement does not prove
that Applicant was never alone with the victim; in fact, he states that one day
prior to the victim's death he and some of his children left the family
apartment at least twice to deliver belongings to a new residence, and while he
was gone Applicant was alone in the apartment with the remaining children,
including the victim. Given this evidence, defense counsel could not have
credibly argued that Applicant was not alone with the victim prior to the
murder, and his failure to attempt to do so was not deficient performance .
36. Defense counsel was not deficient for failing to argue that Applicant was able
to explain innocuous sources for many of the victim's injuries. During her
recorded statement to police, she did first attribute the victim's bruises to
mosquito bites, rough play between the children and self-injury. However,
later in the interview she admitted to causing all of those injuries. Once the
jury heard that confession, any prior explanations were moot, and defense
counsel did not err in failing to urge them at trial.
3 7. Defense counsel was not deficient for failing to argue that Applicant did not
know the extent or severity of the victim's injuries. During her videotaped
interview with police, she admitted her knowledge of the victim's injuries to
the interviewing officers, stating that she did not take her child to the doctor
8

-

011
183a

.•
-

Sc nned Jun 18, 2013

..
-

•
•

..
••

..
-

because "I knew that they would accuse me just like y'all are accusing me
now." Later, she admitted having caused all but two of those injuries to the
victim. Certainly, then, Applicant knew of the injuries, since she admitted
having inflicted them. Defense counsel could not have credibly argued that
Applicant was unaware of what she caused.
38. Defense counsel was not deficient for failing to dispel the notion that
Applicant was indifferent to the victim's needs. Applicant claims that defense
counsel should have presented certain CPS visitation records as evidence that
Applicant was a caring parent. However, the totality of evidence in this case,
including numerous other records prepared by CPS, show otherwise. Given
that Applicant was investigated for neglect and/or abuse in 1995, 1996, 1998,
2000, 2001, 2002, 2003 and 2004, any claim made by defense counsel that
Applicant was a good parent would have been superfluous at best.
39. Applicant's complaint about this Court's exclusion of her mitigation experts
from the guilt•innocence portion of the trial is nearly identical to issues nine
and ten raised on direct appeal. Matters raised on direct appeal should not be
re-litigated on habeas unless the judgment is subsequently rendered void or a
subsequent change in the law is made retroactive. While additional evidence
may warrant relief even when the issue was raised on direct appeal, Applicant
has not demonstrated that she is entitled to relief herein because of any
additional evidence herein.
40. Moreover, this Court did not abuse its discretion in excluding the testimony of
Norma Villanueva and Dr. John Pinkerman from the guilt-innocence portion
of the trial. Ms. Villanueva proffered nothing to indicate that she had any sort
of specialized experience, knowledge or training in the area of interpreting
body language and patterns of behavior during police interviews. Dr.
Pinkerman's proffered testimony as to Applicant's psychological functioning,
including how there was little support in the "historical record" for the idea
that Applicant physically abused her children, that she suffered from battered
woman syndrome, and the meaning of her demeanor after the incident and
during questioning had no relevance to the question of Applicant's guilt or
innocence.
41. Defense counsel did not err in not objecting or otherwise attempting to exclude
CPS evidence pertaining to Applicant's history of abuse and neglect of her
children. The evidence was permissible because it spoke to the previous
relationship between Applicant and the victim. At trial, Applicant marshaled
the defensive theory that the victim's death was called by a fall down stairs;
this brought Applicant's intent into issue, making the abuse evidence relative
and probative under Tex. Code Crim. Proc. 38.36.
9

012
184a

..
..

Sc nned Jun 18, 2013

42. Defense counsel did not err by failing to object to portions of the testimony of
the emergency room physician, Dr. Alfredo Vargas, who was not previously
designated as an expert witness. Dr. Vargas did not testify as an expert when
describing his views of the victim's injuries. Instead, he testified as a lay
witness under Texas Rule of Evidence 701, making observations or inferences
rationally based on the perception of Dr. Vargas and helpful to a clear
understanding of his testimony or the determination of a fact in issue .
43. Defense counsel did not err in not objecting to portions of the testimony of
Ranger Victor Escalon, who was not previously designated as an expert
witness. Again, Ranger Escalon' s testimony was that of a lay witness under
Texas Rule of Evidence 701, making observations and inferences rationally
based on his testimony of the detennination of a fact in issue.

-

44. Defense counsel was not deficient for failing to object to comments made by
investigating officers during the taping of her oral statement. Their statements
regarding the injuries seen on the victim were lay observations pursuant to
Texas Rule of Evidence 70 I. Their statements regarding the injuries, as well
as statements advising Applicant that her significant other claimed that
Applicant hid those injuries from him, were not hearsay because they were not
offered for the truth of the matter asserted. Instead, these statements were
made to Applicant to advise her as to how and why she had become a suspect.
Moreover, any officer testimony regarding such injuries was harmless because
it was cumulative of testimony from both Dr. Vargas and Dr. Farley.

•

45. Defense counsel was not ineffective for failing to object to questions regarding
CPS interviews of Applicant conducted by Dr. Beto Juarez for the reasons set
forth in Finding of Fact No. 5 herein.

•

46. Defense counsel was not deficient for failing to challenge Dr. Farley's expert
testimony as ''scientifically invalid, subjective and conclusory." Dr. Farley
thoroughly explained the basis for her opinions as a long-practicing
pathologist, and Applicant has failed to show this Court that such testimony
was in any way "scientifically invalid, subjective and conclusory."

•

..
...

..
-

l

47. Defense counsel was not deficient for failing to object to the State's evidence
of the victim being shaken as "junk science, sheer speculation and more
prejudicial than probative." Shaken-baby syndrome was at best an ancillary
issue at the trial. The medical experts in this case agreed that the victim was
not killed by shaking, but rather blunt force trauma to the head. Because the
"shaking" issue was of so little importance during the trial, Applicant has
failed to show that defense counsel erred in not objecting to this testimony,
JO

013
185a

Sc nned Jun 18, 2013
•

..
-

-

..
.. I
•
•

•

..

and there is no reasonable probability that the outcome would have been
different had this limited evidence not been introduced.
48. Defense counsel was not deficient for failing to object to Dr. Farley's
testimony regarding the results of an eye pathology report. During her
testimony, Dr. Farley made mention that she had personally examined the
victim's eyes and saw retinal hemorrhaging indicative of blunt force trauma.
She then indicated that she had sent the victim's eyes to an eye specialist, who
found the same thing. Because Dr. Farley's own personal observation were
substantially the same as that of the specialist, the testimony was cumulative
and defense counsel's objecting to it would not have changed the outcome of
the case.
49. Defense counsel was not deficient for objecting to Dr. Farley's mention that
she had spoke to a non-testifying odontologist who advised her that the marks
on the baby were teeth marks. Applicant did not suffer any harm as a result of
that brief statement, as the record was already replete with testimony and
exhibits showing that the marks were bite marks. Hence, the odontologist's
statement that the marks were bite marks was simply cumulative of other
testimony. Moreover, allowing the odontologist's findings into evidence was
likely a strategic move - the odonotologist could say these were bite marks,
but had no evidence to show that Applicant was the one who inflicted them.
SO. Defense counsel was not deficient for opting not to object to certain questions
asked Dr. Kuri by the State. Dr. Kuri was retained by the defense to testify
regarding the blunt force trauma that caused the victim's death. In an effort to
frame Dr. Kuri's testimony, the State asked him ifhe could opine as to the
other injuries found on the victim's body. Dr. Kuri rightfully said he could
not. This was proper questioning on the part of the State, and there was
nothing to which defense counsel could have objected.
S 1. Defense counsel was not deficient for opting not to object to testimony
regarding drug paraphernalia found in Applicant's home. The paraphernalia
was contextual evidence offered to show the jury the circumstances of the
environment within which Applicant had continually abused and eventually
murdered the victim. As such, this was not objectionable testimony.
Moreover, defense counsel vigorously challenged the State's theory that the
materials found were drug paraphernalia both through cross-examination and
closing argument. Furthermore, even excluding this evidence would not have
affected the outcome of the trial, since the jury was informed that Applicant
had failed at least 17 of the 29 drug tests administered by CPS.

•

..
..

11

014
186a

..
-

Sc nned Jun 18, 2013

52. Defense counsel was not deficient for failing to object to the State's
punishment phase question regarding Applicant's previous DWI conviction.
This was a strategic decision, as the evidence would likely come in pursuant to
art. 37.071 CCP and counsel opted to allow it to be entered through a friendly
witness rather than giving the State the opportunity to reopen its case and have
the last word with the jury.
53. The State did not violate Brady v. Maryland with its disclosure of certain CPS
documents, as the State was in a continuous collection and disclosure of these
records. Those records that were not produced until shortly before trial were a
result of CPS' failure to comply with this Court's order to produce them. The
State did not intentionally or knowingly prevent the production of evidence;
the inadvertent delay was the result of the voluminous and complex nature of
the documents sought, along with the vagaries of inter-agency requests.
Applicant has demonstrated no harm by the date of the final disclosure; no
statement appears in either the Application itself nor the record that defense
counsel felt he was unable to adequately review the material and use it at
either guilt/innocence or punishment.

..
.•
..

54. With regard to the disclosure of Maggie's house interviews, the State advised
defense counsel and the Court that it did not contain Brady material and
therefore need not be disclosed under Brady. This Court conducted an in
camera inspection and agreed. Nonetheless, the interviews were eventually
turned over to defense counsel. Even if all of the material were Brady
material, and even if it were disclosed in an untimely fashion, Applicant has
not demonstrated prejudice by the delay, and is therefore not entitled to a new
trial.

•

-

55. The videotaped statement Applicant made to police, States Exhibits 3, 4 and 5,
is audible.
56. Defense counsel was not deficient for failing to object to mentions made at
trial of the findings of Beto Juarez for the reasons stated in finding of fact 5
herein.

..
•

•
•

l

57. Defense counsel objected to this Court's alleged "facial expressions" during
the testimony of Dr. Kuri; however, this occurred after Dr. Kuri had left the
stand. Therefore, this Court is without the benefit of a timely and specific
objection and a proper context in which to place the alleged expressions.
Absent such context, Applicant has failed to show that any voluntary or
involuntary facial expressions constituted a comment on the weight of certain
evidence.
12

015
187a

.
..

Sc nned Jun 18, 2013
.,

58. With regard to Applicant's claim that her appellate counsel did not have a
complete record, the record in this case shows that State's Exhibits 3, 4 and 5
are in evidence and were played to the jury. The fact that no transcription was
made does not render the evidence "missing." Applicant has cited to no
authority that the State is obliged to provide a transcription of videotaped
statements it introduces, and both Applicant's writ and appellate counsel were
able to review State's Exhibit's 3, 4 and 5. The Court of Criminal Appeals has
already ruled that the record in this case is complete. See Lucio v. State, 351
S.W.3d 878 (Tex. Crim. App. 2011).

.•

59. The affidavits of Sonya Chavez and Esperanza Trevino, which attempt to
place blame for the murder upon two of Applicant's children, are not credible.
Furthermore, even if they were credible, they fail to establish that Applicant is
"unquestionably innocent;" that is, the affidavits fail to by themselves support
a finding of innocence by a clear and convincing standard.
60. Applicant's claim that she has shown actual innocence by virtue of her own
allegation that she was not alone with the victim fails to show such innocence
by a clear and convincing standard, especially given the circumstances set
forth in Finding ofFact No. 35 herein.

,.

CONCLUSIONS OF LAW
I. No coerced statement of the Applicant was obtained by law enforcement.

•

2. CPS contract therapist Beto Juarez was not acting in tandem with law
enforcement when he counseled Applicant.
3. Applicant has failed to show that her counsel's perfonnance was deficient in
any manner.
4, Moreover, in the cases where Applicant alleges deficiency of counsel, she has
failed to show that the outcome of the trial would have been different had
defense counsel acted in the manner she alleges would have been appropriate
in the situation.

•
•

5 Applicant has not overcome her burden to show that defense counsel's actions

were not sound trial strategy.

6.

.,.
•

This Court did not abuse its discretion in excluding the testimony of Norma
Villanueva and Dr. John Pinkennan.

I

I

13

-

016
188a

Sc nned Jun 18, 2013

..
..
..
-

7. The State did not violate Brady v. Maryland with its disclosure of CPS
documents and Maggie's House interviews.
8. Applicant has failed to show that any voluntary or involuntary facial
expression alleged to have been exhibited by the Court constituted a comment
on the weight of certain evidence.
9. Applicant's trial, appellate and habeas counsel have a complete record of this
case.
10. The atlidavits of Sonya Chavez and Esperanza Trevino fail to support a
finding of innocence by a clear and convincing standard.
11. Applicant's claim that she was never alone with the child is contradicted by
the record and hence does not support a finding of innocence by a clear and
convincing standard.
12. Applicant is not entitled to habeas relief.
RECOMMENDATIONS
The court, having considered the above, recommends that the requested relief be

•

DENIED

..
•
•

ORDER
IT IS ORDERED THAT the clerk transmit forthwith this Order, together with all
relevant instruments on file that relate to Applicant's Application for Writ of Habeas
Corpus, to the Clerk of the Texas Court of Criminal Appeals.

•

-

-

Fuo.t!iQ..�M
Cameron County, Texas AURORA
OE LA GARZA, Cl.ERK

CC:
01/AJ/,),
A.DA
Margaret Schmucker

14

z."C·

��=
JUL 2 3 2012

017

189a

